     REDACTED FOR PUBLIC RELEASE




THE DEPARTMENT OF JUSTICE’S
VICTIM NOTIFICATION SYSTEM


        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 08-04
             January 2008




     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                     THE DEPARTMENT OF JUSTICE’S
                     VICTIM NOTIFICATION SYSTEM*

                              EXECUTIVE SUMMARY

      The Department of Justice (DOJ) Victim Notification System (VNS) is
an automated system used by federal personnel to notify federal crime
victims regarding developments in their cases, including information about
the status of the investigation, prosecution, trial, incarceration, location, and
custody status of the offender related to the crime.

       The VNS came online in October 2001 and as of October 5, 2007,
contained information on more than 1.5 million registered victims. The
annual budget for the VNS has remained at approximately $5 million since
fiscal year (FY) 2002. 1 Since work began on creating the system in FY 1998,
the VNS has cost a total of more than $38 million. The VNS is managed by
the Executive Office for United States Attorneys (EOUSA) and is used by all
United States Attorneys Offices (USAO), the DOJ Criminal Division, the
Federal Bureau of Investigation (FBI), the Federal Bureau of Prisons (BOP),
and the United States Postal Inspection Service (USPIS).

       In this audit, the Office of the Inspector General (OIG) examined the
management of the VNS, the effectiveness of the VNS for victims, and the
information security of the system. In conducting this audit, we interviewed
personnel who managed the system, as well as personnel from agencies
directly involved with the VNS. We analyzed victim-related data in the VNS
and sent surveys to a sample of victims in the VNS. We also worked with a
contractor to perform a review of the VNS’s information security. In
general, our audit covered the period from FY 1998 through FY 2007.

Results in Brief

     Our audit found that, overall, federal VNS users and victims we
surveyed were generally satisfied with VNS services. 2 However, we

        * The full version of this report includes information that EOUSA considered to be
sensitive, and therefore could not be publicly released. To create this public version of the
report, the OIG redacted (deleted) two appendices that were considered sensitive by
EOUSA, and we indicated where those redactions were made.
       1
           Detailed information about VNS funding can be found in Appendix III.
       2
        Federal VNS users, such as FBI Victim Specialists and USAO Victim/Witness
Advocates, generally specialize in dealing with victims and victim issues and access the VNS
to manage information that relates to cases in the control of their agency.


                         REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


identified weaknesses in certain areas. Specifically, we found that there are
few internal controls in place to ensure the accuracy and completeness of
data in the VNS. For example, 18 percent of the surveys we mailed to
victims considered to be active in the VNS were returned as undeliverable. 3
Officials from VNS-participating agencies also discussed with us similar
problems they have encountered with undeliverable correspondence.

      We also determined that EOUSA has no schedule or written plans for:
(1) increasing storage space on the VNS server, despite capacity having
reached a level where system performance has been affected; (2) replacing
VNS hardware, which is reaching the end of its usefulness; or (3) providing
for the continuity of VNS project management, which is currently
concentrated in a single position.

      We also found that EOUSA is now in the process of expanding the
number of agencies that participate in the VNS, although it had not
previously placed a priority on such expansion. In addition, EOUSA is
working on establishing a direct connection for the VNS to obtain court-
event data from the Administrative Office of the U.S. Courts (AOUSC).
When developed, this interface will assist USAOs with notification of court
proceedings.

      As a result of victims’ responses to our surveys indicating that they
considered the custody status of defendants to be of high importance,
EOUSA is now working to include such information, available from the
United States Marshals Service (USMS), in the VNS.

      Our review of VNS effectiveness revealed that many victim-respondents
to our survey: (1) found VNS notifications to be generally understandable
and useful, (2) obtained the information they desired from the VNS Call
Center, and (3) found the VNS website generally easy to use. 4 However,
25 percent of active VNS victims who responded to our survey reported
having no knowledge of the VNS or that their names were maintained in such
a system. The fact that a significant number of federal crime victims were
unaware of the system was of concern to us. Another concern we identified is
that the contractor that maintains the VNS Call Center was not ensuring that a
Spanish-speaking operator was on duty during all hours of operation, as
required by the contract.

      3
         Victims who are considered to be “active” in the VNS are those victims whose
information is in the VNS and who are receiving VNS notifications.
      4
         The VNS Call Center consists of an automated, toll-free telephone response
system, as well as operators who can provide case information to victims.


                                    ii
                       REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE



      We also found that a large percentage of victims had been removed
from an active status in the VNS with no reason having been recorded for
doing so. Removing a victim from “active” status means that he or she no
longer receives notifications about case-related events. That VNS does not
require a participating agency to note a reason for “deactivating” a victim, or
establish any other internal control, renders this critical step more difficult to
correct if in error.

       In addition to the management and effectiveness of the system, we
also evaluated the information security of the VNS. Using a private auditing
firm, we identified deficiencies with EOUSA’s implementation of systems and
communications protection controls, identification and authentication,
website privacy, security measures, and web application controls. These
deficiencies indicate that the sensitive information contained within the VNS
was not adequately protected against loss of confidentiality and the integrity
and availability of data was not appropriately ensured.

      Our report contains detailed information on the full results of our
review of the VNS. In this report, we made 19 recommendations to help
EOUSA carry out its responsibilities in managing the system.

       The remaining sections of this Executive Summary describe in more
detail the background of the VNS and our audit findings.

Background

       The Victim and Witness Protection Act of 1982, the Victims of Crime
Act of 1984, the Crime Control Act of 1990, the Violent Crime Control and
Law Enforcement Act of 1994, the Justice for All Act of 2004, and the
Attorney General’s (AG) Guidelines for Victim and Witness Assistance
established various procedures to address the needs of victims of crime. 5
Each of these contain a directive to ensure that victims are notified of
significant stages and procedural developments in the criminal justice
process. Notification means keeping victims aware of the status of an
investigation of a crime, as well as the subsequent prosecution, trial,
incarceration, location, and custody status of the offender related to the
crime.

     Prompted by a memorandum issued by the Office of the Attorney
General, in July 2000 EOUSA entered into a contract with AT&T to create the

      5
          Detailed information regarding this legislation can be found in Appendix II.


                                      iii
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


VNS and establish and staff a Call Center to assist federal and victim users
of the VNS. Utilizing funds provided by DOJ’s Office for Victims of Crime
(OVC), EOUSA managed the development of the system. Field deployment
of the VNS and Call Center operations began in October 2001, and the VNS
was fully operational by January 2002.

How the VNS Works

       The VNS, a web-based application, receives data from automated case
management systems at the FBI, USAOs, the DOJ Criminal Division, the
USPIS, and the BOP. Specifically, the VNS receives downloads from the
FBI’s Automated Case Support (ACS) system, the USPIS’s Inspection Service
Integrated Information System (ISIIS), the USAO’s Legal Information Office
Network System (LIONS), the DOJ Criminal Division’s Automated Case
Tracking System II (ACTS II), and BOP’s SENTRY system. Data transferred
from the various systems includes the case number; victim, defendant, and
inmate information; court events; and custody status updates. Notably,
some of the victim-related information that resides in the VNS is personally
identifiable information (PII), such as the names, addresses, and, in some
cases, social security numbers of victims of federal crimes.

      Victims in the VNS are notified of case events by letter, e-mail,
facsimile, or telephone when a particular event in a case occurs, such as a
scheduled court date or the release of a prisoner. Initially, the system
consisted of the VNS, which federal VNS users access via a secure intranet
connection, and the Call Center, which is used by both federal VNS users
and victims of federal crimes. However, VNS services were enhanced in
FY 2005 based on a DOJ request to enhance the VNS by enabling victims to
access case information via the Internet. This resulted in the development
of the Victim Internet System (VIS), which allows victims to have access to
a subset of VNS data via the Internet. The VIS database server, in which
the users’ encrypted information is stored, is located at the Justice Data
Center.

      The following graphic illustrates how the various component systems
feed into the VNS, as well as how victim users of the system obtain case-
related information.




                                 iv
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

                          INFORMATION FLOW IN THE VNS




Source: VNS User Manual and the DOJ Criminal Division


Audit Approach

      The Office of the Inspector General (OIG) assessed EOUSA’s
management of the VNS, the effectiveness of the VNS for victims, and the
information security of the system. The objectives of the audit were to
determine if: (1) EOUSA has effectively managed the VNS, including
overseeing the contractors, ensuring the accuracy of data in the system, and
planning for the future; (2) the VNS is an effective tool for victims of crime;
and (3) the VNS was properly secured to prevent unauthorized use, access,
and data modification.

      To accomplish our audit objectives, we conducted more than
40 interviews with personnel from agencies directly involved with the VNS.
To help evaluate the VNS’s effectiveness for victims, as well as the accuracy
of data in the system, we obtained and analyzed victim-related data
extracted from the VNS. We then designed, deployed, and analyzed the
results from surveys we sent to 2,762 victims whose status in the system
was “active,” as well as 480 additional surveys sent to victims who were no
longer “active” in the system. In addition, we obtained a test VNS victim-
user account and performed our own evaluation of various VNS services.

                                     v
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


       We also spoke with headquarters officials from those federal agencies
that do not directly participate in the VNS to determine their knowledge of
the system and whether they have been contacted about direct participation
in the VNS. We conducted fieldwork in Chicago and Lisle, Illinois; Lexington
and Louisville, Kentucky; Kansas City and Leavenworth, Kansas; and Kansas
City, Missouri, where we spoke with senior management and staff who
utilized the VNS at the local USAO, BOP, USPIS, and FBI offices. We also
performed a limited review of the contracted services that are provided and,
in order to evaluate the VNS’s information security, utilized a private
auditing firm to perform an information security review of the VNS.

     In general, the scope of our audit covered the period from FY 1998
through FY 2007. Additional information about our audit scope and
methodology is contained in Appendix I.

EOUSA Management of the VNS

      Our audit determined that personnel from VNS-participating federal
agencies, such as FBI Victim Specialists, were generally satisfied with
services provided by the VNS. However, weaknesses remain in how calls to
the VNS Call Center are tracked, the accuracy of data in the VNS, and the
long-term plans for the future of the system.

Data Accuracy

       We found that there are few internal controls in place to ensure the
accuracy and completeness of data in the VNS. According to the VNS
Project Manager, the accuracy of information in the VNS is largely dependent
upon what was provided or entered originally by the participating agency,
and there is no process for routinely checking the accuracy of victim files in
the VNS. Yet, this means that victims whose contact information in the VNS
is incorrect could be missing the opportunity to attend court events and be
otherwise updated on the status of their case. EOUSA told us that it is the
victim’s responsibility to update all contact information. Victims can update
their information by various methods, such as via the VNS website or by
contacting the USAO Victim-Witness Coordinator responsible for their case.

      The lack of accurate contact information in the VNS was confirmed by
our audit. Eighteen percent of the 2,762 victim surveys we mailed to victims
active in the VNS were returned to us as undeliverable mail. We were also
told by staff and officials from VNS-participating agencies about problems
they have encountered with undeliverable correspondence.



                                 vi
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


       EOUSA officials acknowledged these issues, noted that they do not
have the resources to follow up on initial notifications, and said that EOUSA
was moving towards using the VNS website more than written notification
letters. EOUSA officials also acknowledged that returned e-mail notifications
was an emerging issue, and that they were in the process of establishing a
protocol for identifying and getting information about undeliverable e-mail to
participating agencies for action. Regardless of notification method, we
believe that EOUSA should work with VNS-participating agencies to ensure
that contact information in the VNS is as accurate as possible so that, at the
very least, each victim receives an initial notification.

Archiving Data and Replacing Hardware

      According to contractor personnel, as well as EOUSA’s FY 2007 budget
request, storage space on the VNS server has been filled to almost
80 percent of capacity. This has limited the speed at which data can be
accessed and has become a bottleneck in the system. Additionally, much of
the VNS’s equipment is coming to the end of its useful life span and is in
need of replacement. Although the VNS contract requires the contractor to
archive VNS data periodically based on specific criteria, no VNS records have
ever been archived and there are no current plans in place to do so.

       During our audit, we discussed these issues with EOUSA and, in
August 2007, EOUSA officials informed us that they plan to replace the
existing equipment with new equipment that will resolve the capacity issue
and the need to archive or remove data from being accessible online.

Outreach to Other Federal Agencies

      In addition to all USAOs, only the FBI, the USPIS, the BOP, and the
DOJ Criminal Division connect directly to the VNS. However, all investigative
agencies are mandated to perform victim notifications during the
investigative phase. Therefore, those federal investigative agencies who do
not participate in the VNS, such as the United States Secret Service (USSS)
and the Internal Revenue Service (IRS), must provide victims information
during the investigative phase of a case on their own. Once they submit
cases to a USAO, however, the USAO then “takes over” the notification
process via an upload of information to the VNS.

      EOUSA officials stated that their outreach efforts have been focused on
those agencies whose cases involve the most victims. As shown in the
following graphic, the FBI and the USPIS, by far, have the most (79 percent)
victims in the VNS.


                                vii
                    REDACTED FOR PUBLIC RELEASE
                             REDACTED FOR PUBLIC RELEASE

  900,000

               815,993
  800,000


                                                                        VICTIMS IN THE VNS
  700,000
                                                                    BY INVESTIGATIVE AGENCY
                                                                       (as of October 5, 2007)
  600,000

                                                                      1,564,667 Total Victims
  500,000

                          421,184
  400,000



  300,000



  200,000


                                                                                                           102,452
  100,000                              79,811
                                                      57,587
                                                                       30,862   29,261      27,517
      -
                 FBI       USPIS    Secret Service   All Internal       BOP       FDA    All Other Labor   All Other
                                                      Revenue

                                      Source: OIG analysis of VNS data


       In response to our discussions regarding other agencies that could
possibly connect with the VNS, EOUSA officials advised us of their plans to
create a universal, web-based interface with the VNS that could be utilized
by all investigative agencies. We believe that this interface would be a
useful step towards consolidating victim notifications throughout the federal
government.

       In addition to information about the investigative phase of a case, the
VNS also provides notifications of court events, such as a competency
hearing being held or a guilty plea being entered. 6 However, data related to
court events is maintained by the Administrative Office of the U.S. Courts
(AOUSC). In order for this data to make it into the VNS, it must first be
obtained from the AOUSC and then manually entered into the USAO case
management system by personnel at individual USAO offices. It is then
uploaded from the USAO case management system to the VNS. During the
course of our audit, EOUSA officials informed us of a plan to create an
interface by which AOUSC data could be electronically passed to the VNS,
thereby eliminating the time-consuming data-entry process, with its
propensity for human input error.

          6
              A complete list of VNS notifications can be found in Appendix IV.

                                         viii
                             REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE



      In August 2007, EOUSA officials provided us with a copy of a signed
Memorandum of Agreement (MOA) between EOUSA and the AOUSC to
develop an interface between the two systems, and noted that the agencies
are working together to connect the systems.

VNS Project Management and Succession Planning

      Since its inception, the VNS has been managed by a single project
manager, an Assistant United States Attorney based in Kansas City, Kansas.
EOUSA has no formalized succession plan to continue management of the
VNS should anything happen to key personnel. After discussing this issue
with EOUSA, EOUSA officials informed us that they are developing a
succession plan that will address any contingency issues for VNS project
management.

VNS Effectiveness

      To gauge the effectiveness of the VNS in notifying victims of certain
key events, we interviewed federal VNS users and Call Center personnel,
used a VNS test user account to assess VNS services from a victim’s
perspective, and conducted a survey of victims considered to be active in the
VNS, as well as a survey of victims who had been “opted-out” (deactivated)
of the VNS.

      For our survey of those victims active in the VNS, we mailed out
2,783 surveys and received 691 responses. We reviewed these responses
and determined that 531 of the 691 responses we received were valid and
could be used for additional analysis. For our survey of those victims who
had been “opted out” of the VNS, we mailed out 489 surveys, received
58 responses, and determined that 44 of these responses could be used for
further analysis. 7

      Overall, we found that many active victim survey respondents found
the notifications to be understandable and useful to some degree. However,
we identified areas in which we believe EOUSA could improve the services
the VNS provides to victims.




      7
          A more detailed description of our survey methodology for our survey of victims
active in the VNS can be found in Appendix VII. Our survey methodology for our survey of
“opted-out” victims can be found in Appendix VIII.


                                    ix
                       REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


Victim Notifications

      Twenty-five percent of the active victim respondents to our survey
indicated that they did not know about the VNS or that they were included in
the VNS as a victim, that they had no idea why they had received our
survey, or that our survey was the first piece of correspondence they had
received regarding the VNS. Moreover, according to the VNS data, these
respondents had each been sent an average of 18 notifications, and the
number of notifications sent to these victims ranged between 1 and 160.

       These responses indicate that the VNS is not as effective as it could be
at notifying victims of case events. A significant number of federal crime
victims have no knowledge of the system and are not receiving notifications
from the VNS. In addition to the statutory requirement that victims be
notified of events that occur in their cases, we believe it also important that
EOUSA ensure that victims: (1) are aware that they qualify as victims of a
federal crime, (2) are aware that their personal information is contained
within the VNS, and (3) have been afforded the opportunity to decide
whether they wish to receive notifications of events that occur within their
cases.

      We spoke with EOUSA officials about this issue, and they
acknowledged that there is no formal follow-up process to ensure that
victims receive notifications from the VNS. However, these officials
expressed the belief that performing follow-up on letters would be overly
burdensome on participating agency personnel and noted that EOUSA was
moving towards using the VNS website more than written notification letters.

       We believe that the purpose of the VNS is not always fulfilled by
simply ensuring that notifications are sent out. Rather, we believe it is
incumbent upon EOUSA to seek to ensure that as many victims as possible
receive notifications. We recommend that the EOUSA work with VNS-
participating agencies to develop procedures for ensuring victim contact
information is current and undeliverable correspondence is pursued to help
ensure victims receive case-related notifications from the VNS.

The Victim Internet System

      The Victim Internet System (VIS) is a web-based application that
allows victims to have access to a subset of VNS data related to their case
via the Internet. We evaluated VIS services using a test victim account and
included questions about the VIS in our survey of victims active in the VNS.



                                    x
                       REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


       Accessing the VIS

       In response to our survey, only 98 of the 531 victims who returned
valid responses indicated that they accessed the VIS to review their case
information. 8 We believe that EOUSA should be concerned about this
relatively low 18-percent usage rate, considering that EOUSA officials
informed us on several occasions that they prefer that victims utilize the VIS
to obtain case information and that they have attempted to encourage its
use.

       The majority of our respondents who indicated that they utilized the
VIS found it at least somewhat easy to set up their VNS account. However,
other respondents commented on difficulties with the process they
encountered. Our own review of the VIS using our test victim account also
identified certain aspects in the process that could be confusing for victims,
including problems with terminology. We spoke with EOUSA officials about
these issues, and they responded that they will work to explain VIS
procedures in more detail for victims.

       Ease of Navigation, Comprehension, and Usefulness

      More than 80 percent of the survey respondents stated that navigating
or locating information on the VIS was at least somewhat easy. Additionally,
most respondents found the information on the VIS to be both
comprehensive and useful.

       Restitution

       On several occasions during our audit, EOUSA officials told us that
personnel who worked with victims were often asked questions related to
restitution. 9 We therefore included questions in our survey related to
restitution information available on the VIS. We found that 40 percent of
our respondents had accessed the VIS to obtain that information. Of those
respondents, 57 percent were dissatisfied or extremely dissatisfied with the
restitution information they received from the VIS. This analysis is shown in
the following chart.



       8
         We conducted all of our analyses related to the VIS on this universe of
98 respondents who indicated that they accessed the VIS to review case information.
       9
          According to information on the VIS, restitution is defined as a court order
directing the defendant to pay a fixed amount of money to the victim in order to
compensate the victim for loss incurred as a result of the crime.

                                      xi
                         REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE



       How satisfied were you with the restitution information you received?
                                       No Response
                                            2




                                                     Satisfied - Extremely
                                                           Satisfied
                                                               15
                         Dissatified - Extremely
                              Dissatified
                                    22




                     Source: OIG survey of victims active in the VNS

      Several provided additional comments about their dissatisfaction with
the amount of restitution information available. We also used our test victim
account to review restitution information provided in the VIS and found that
the language for restitution in the VIS was not clearly written.

       We discussed with EOUSA officials the possibility of providing more
restitution information to victims on the VIS. While these officials initially
noted that providing this information to victims is not required, in
August 2007 EOUSA officials stated that they will clarify the information
regarding restitution that is provided to victims on the VIS.

The VNS Call Center

       The VNS Call Center consists of an automated, toll-free telephone
response system, as well as operators who can provide case information to
victims. The automated system generates computerized voice readings of
notifications, while operators are able to provide victims answers to a limited
number of questions and direct them to points of contact for additional
case-related information. Call Center operators also provide information to
federal VNS users.




                                  xii
                      REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


      We found that of the active victim survey respondents, 11 percent had
called the toll-free number. We then conducted separate analyses on those
victims who had utilized the automated response and those who had utilized
the operator assistance. 10

       Call Center Automated Assistance

      In total, we found that 37 (65 percent) of the 57 victims using Call
Center services utilized automated assistance. As shown in the following
chart, when we analyzed responses from these 37 victims, we found that
15 (41 percent) never or rarely received information, while 12 (32 percent)
always or often received information.

                      Did you receive the information you wanted
                             from the automated system?




                                  No Response
                                       5            Always
                                                       7




                             Never                           Often
                               9                               5



                                                     Sometimes
                                                        5
                                         Rarely
                                           6




                        Source: OIG survey of victims active in the VNS


      As shown in the following chart, when we reviewed responses from
these same 37 victims regarding the ease with which they were able to
access information using the automated system, we found that most found
the automated system at least somewhat easy to use.



       10
           As part of our analysis, we found that 15 victims had utilized both automated and
live Call Center assistance. We included these 15 victims in our analyses of each of these
types of assistance in order to capture all of the victims utilizing a particular type of
assistance.

                                    xiii
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


       How easy is it to access information through the automated system?


                                 No Response
                                      5

                                                   Very Easy &
                                                      Easy
                                                        13
                           Not Easy & Not
                             Easy at all
                                 11


                                            Somewhat Easy
                                                 8




                    Source: OIG survey of victims active in the VNS


      We also used our test victim account to evaluate the Call Center’s
automated assistance and identified some potentially confusing aspects,
including uncertainty about what functions pressing certain buttons on the
phone would accomplish. We also found that more case information was
available to us on the VIS than via the automated assistance.

      Overall, while the automated assistance appears to be relatively easy
to use, it can prove challenging and does not always provide the desired
information to victims, nor does it provide as much information as does the
VIS. We believe it would be worthwhile for EOUSA to make the automated
assistance more user-friendly for victims.

     Call Center Operator Assistance

      As noted earlier, the Call Center’s operator assistance is able to
provide victims only a limited amount of information. Specifically, according
to Call Center staff, EOUSA has specified that Call Center operators can
provide information on 10 case-specific areas. If victims require information
outside of these areas, the Call Center staff tells them who to contact for
further information.

      Through our analyses, we found that 35 of the 59 victims who utilized
Call Center services had utilized operator assistance. As shown in the chart
that follows, when we analyzed the responses from these 35 victims, we
determined that 16 of them always or often received the information they
wanted from the live assistance.



                                xiv
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

                  Did you receive the information you wanted?
                       (from Live Call Center Assistance)



                                No Response
                                     5




                         Never & Rarely          Always & Often
                               6                      16




                                   Sometimes
                                      8




                     Source: OIG survey of victims active in the VNS


       Despite this relatively positive response, 17 respondents who had
utilized the assistance indicated that they were dissatisfied because: (1) the
system lacked restitution information; (2) case or defendant custody
information was not updated; and (3) the system did not contain, in general,
enough information and assistance.

       When we used our test victim account to evaluate the operator
assistance, we identified several additional issues, such as the fact that a
victim can only select to speak with a live operator at the beginning of a call.
Specifically, if a caller does not immediately select that option (perhaps
before the caller has received much information or had the time to develop
questions), the caller must hang up, call back, and select to speak with a
live operator at the outset of the call. We also found that the Call Center
had only one Spanish-speaking operator on staff, who cannot cover every
hour of every day the Call Center is in operation. This contradicts the VNS
contract, which specifies that a victim must have the option of speaking
directly with a Call Center operator to obtain case information in either
English or Spanish.

       We discussed these issues with EOUSA officials in June 2007. In
August 2007, EOUSA officials informed us that they had notified the
contractor of the requirement for a Spanish-speaking operator to be on duty
during all Call Center operating hours. As a result, according to EOUSA
officials, the contractor is now planning to add another Spanish-speaking
operator to the Call Center.

                                 xv
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


Availability of Custody Status Data

      In our survey of victims active in the VNS, we found that respondents
considered custody status information to be very important. As depicted in
the following chart, more than 70 percent (375 out of 531) of respondents
indicated that knowing the custody status of the defendant was important to
them.

    How important is it for you to know the custody status (incarcerated or not
           incarcerated) of the defendant(s)/inmate(s) in your case?


                       Important-Extremely
                           Important
                               375




                                             Not Important
                                                  121




                                                                  No Response
                                                                       35


                     Source: OIG survey of victims active in the VNS


      The Attorney General Guidelines for Victim and Witness Assistance
mandate that DOJ agencies notify victims of the release or escape of an
offender or suspected offender. However, USAOs do not consistently enter
defendant custody status information into the VNS during the prosecutorial
phase. In addition, although the USMS maintains custody status information
on offenders, it is not connected to the VNS and had not been approached to
do so.

      We discussed these issues with EOUSA officials, who agreed that they
had not taken action to include in the VNS information from the USMS on
defendant custody status. In August 2007, EOUSA officials advised us that
providing custody status information to victims would be a priority and that
they were coordinating with the USMS about this issue.

                                 xvi
                     REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


Victims No Longer Active in the VNS

      Certain victims have been removed from an active status, or “opted-
out” of the system. A victim can choose to be opted-out of the VNS or be
opted-out by a federal user because of an invalid address or if the person is
no longer considered to be a victim. While the VNS contains a field that
records the reason a victim is opted-out of the system, it is not mandatory
that a federal user populate this field when opting out a victim.

      We analyzed VNS data provided by EOUSA and found that
164,493 victims were opted-out of the system between the VNS’s inception
in October 2001 and September 20, 2006. As depicted in the following
table, when we further analyzed the data, we found that 32 percent of these
victims had been opted-out with no reason given.

                      VICTIMS OPTED-OUT OF THE VNS
                    October 2001 to September 20, 2006
                                 Number of
         Opt-Out Reasons        Registrants          Percentage
         Contact Choice                 4,144               3%
         Invalid Address               79,597              48%
         User Choice                   28,486              17%
         No Longer a Victim                17              <1%
         No Reason Given               52,249              32%
         Total                       164,493              100%
         Source: OIG analysis of VNS data


      This large overall percentage of victims opted-out with no reason
provided is troubling because there is no easy way to evaluate whether that
victim was opted-out for a valid reason.

      Survey of Opted-out Victims

      As previously noted, in addition to our survey of victims active in the
VNS, we also conducted a survey of opted-out victims. To maximize our
response rate, we limited our universe to those victims opted-out of the VNS
during the previous 2 full fiscal years prior to the survey, thus isolating
71,179 victims who were opted-out during FYs 2005 and 2006.

      We developed a sample and sent our survey to 480 victims and
received 58 responses, a relatively low 12-percent response rate. Overall,
based on this relatively low overall response rate, including 203 surveys that
were returned as undeliverable, our survey of opted-out victims did not
provide clear evidence about why victims opt-out of the system.

                                  xvii
                      REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE



VNS Information Security

       During the course of our audit, we determined several attempted
electronic break-ins to the VNS had occurred and that some recommended
security patches for the system had not been installed because the patches
had not been approved by EOUSA. After discussing these issues with EOUSA
officials, we determined that the sensitive nature of the personally
identifiable information (or PII) in the VNS – such as names, contact
information, and social security numbers – as well as the possible
consequences of failing to adequately protect it, warranted a more in-depth
review of the VNS’s information security. Therefore, the OIG contracted
with outside auditors, Urbach, Kahn, & Werlin, LLP (UKW), to conduct an
independent assessment to determine whether the VNS information security
and privacy policies comply with government standards and established best
practices. 11

       As a result of this assessment, we identified deficiencies with EOUSA’s
implementation of systems and communications protection controls,
identification and authentication, website privacy, security measures, and
web application controls. These deficiencies indicate that the sensitive
information contained within the VNS was not adequately protected against
loss of confidentiality and the integrity and availability of data was not
appropriately ensured. Moreover, because of these issues the VNS may be
susceptible to unauthorized use, access, or data modification.

Systems and Communications Protection Controls

      Systems and communications protection controls prevent unauthorized
and unintended information transfer between different elements within the
same system. We identified weaknesses in transmission integrity and data
validation.

      Transmission integrity and data validation are used to check the
completeness and accuracy of data entered into a system. We reviewed these
controls for agencies that transmit data into the system and found that while
EOUSA is encrypting data received from the USAOs, the DOJ Criminal
Division, and the USPIS, it is not doing so for the FBI and the BOP.
Additionally, EOUSA did not always ensure the completeness or accuracy of
data files received from the BOP and the FBI. Because EOUSA is not
performing these functions, it does not have the ability to detect or prevent

       11
           In this section of our report, “we” and “our” refer to the auditors working under
the direction of the OIG.

                                     xviii
                         REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


the alteration of transmitted data. When we spoke with EOUSA officials about
this issue, they acknowledged these deficiencies and said they were currently
discussing the implementation of complete session encryption for BOP and FBI
data.

Identification and Authentication

      Identification and authentication controls ensure that users’ identities
are verified before they can connect to the system. A system security plan,
which is designed to provide an overview of the security requirements of the
system and describe the controls in place, commonly contains this information
for users. Moreover, these plans are necessary for certification, accreditation,
and authorizing a system to operate. We found that the VNS system security
plan contained inaccurate information and had not been updated with the
correct procedural information, contact information, and process of
authenticating users. This lack of an updated system security plan could
result in an inaccurate or incomplete depiction of the VNS’s system security
and control environment, meaning that the certification and accreditation
document is being approved based upon out-of-date information.

Website Privacy

       Website privacy controls protect data collection and PII and include
external linking policies. These controls inform users when they are about to
visit a third-party website so that users know that they will no longer be
protected by the privacy policies of the current site once they utilize a
hyperlink to navigate to another website. We reviewed the VIS’s external
linking policies and found that the VIS does not provide such a disclaimer
notification to users, meaning that victims who utilize the hyperlink may be
unaware that differing privacy policies are in effect. DOJ policy specifies that
a disclaimer statement informing users that they will no longer be protected
by DOJ privacy policies must be provided.

VIS Web Application Controls Testing

       Testing web application controls helps to identify vulnerabilities and
risks that can result in the loss of confidentiality, integrity, and availability of
data. We utilized commercially available software tools to evaluate the VIS’s
web application security and identified the following vulnerabilities:

      The VIS may allow manipulation within a web application, which can
       exploit security issues.



                                  xix
                      REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


     The configuration of the VIS allows for the possibility that users could
      bypass the entry of usernames and passwords of linked web pages.
      As a result, individuals could gain access to unauthorized information.

     The application may be vulnerable to attacks that can allow malicious
      users to retrieve data or alter server settings.

     The VNS server configuration allowed for access to common default
      directories, which often contain exploitable vulnerabilities.

     The VNS uses a computer language, JavaScript, which has certain
      risks inherent to its use.

     The potential existed for unauthorized users to access web server
      administrative interfaces and thereby gain access to web server
      administrative functions.

     The VNS is susceptible to an attacker using web server software to
      access data in an unauthorized directory. Moreover, the execution of
      arbitrary commands and code by an attacker may be possible.

      We consider the vulnerabilities found in the VIS web application
controls to be significant because the system contains PII. We therefore
recommend EOUSA take the necessary steps to improve its website security
and eliminate these vulnerabilities.

The VNS Vulnerability Assessment

      We also performed a vulnerability assessment to identify the security
controls implemented for the VNS environment. We compared the VNS’s
current security controls to DOJ’s standards and identified vulnerabilities
within three areas.

      •     Unnecessary or Vulnerable Service – We found unnecessary or
            vulnerable services operating on the VNS, which if not properly
            secured or disabled, could be exploited to launch attacks against
            the system’s infrastructure.




                                xx
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


       •      Patch Management – We found that EOUSA did not always apply
              application and server patches in a timely manner. 12
              Specifically, EOUSA had not applied several patches that had
              been available since 2002 and 2005, which, in essence, allowed
              a known vulnerability to continue to exist. This made the VNS
              susceptible to a disruption of its operations.

       •      Network Device and Server Security – Due to EOUSA’s
              management of the VNS’s device settings and configurations,
              the VNS may be susceptible to unauthorized use, access, or data
              modification of system configuration and password files.

Conclusion

      Since VNS began in FY 2002, it has grown to contain information on
more than 1 million federal crime victims. While creating such a system that
was designed to provide notifications to so many individuals is an impressive
achievement, we found certain areas in which VNS operations could be
improved.

      In terms of EOUSA’s management of the VNS, we found that federal
VNS users were generally satisfied with services provided by the VNS.
However, weaknesses remain in the VNS Call Center’s automated and Call
Center assistance, the accuracy of data in the VNS, and the long-term plans
for the future of the system. While EOUSA has taken proactive steps to
address some of these issues after we brought them to its attention, other
issues remain, and we recommend that EOUSA address these issues in the
same manner.

      We attempted to gauge the effectiveness of the VNS in notifying
victims by conducting surveys of both active victims and those who have
been opted-out of the system, as well as by using a test victim account to
evaluate Call Center and VIS services. Our survey of those victims active in
the VNS indicated that many of them found notifications to be
understandable and useful to some degree. However, we identified areas in
which VNS-related services could be improved. Most notably, a quarter of
our respondents indicated they did not know about the VNS or that they
were included in the VNS as a victim, that they had no idea why they had
received our survey, or that our survey was the first piece of correspondence

       12
           Patches are developed by software manufacturers following the identification of
exploitable system security weaknesses. Patch management is the process of controlling
the deployment and maintenance of interim software releases into a system’s environment
and is used to maintain operational efficiency and effectiveness, overcome security
vulnerabilities, and maintain the stability of the system’s environment.

                                    xxi
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


they had received regarding the VNS. Additionally, although EOUSA
encourages victims to use the VNS website, only a small percentage of our
respondents utilized it to obtain information about their cases. As with
management of the system, EOUSA has already begun to implement
corrective action to address these issues, and we recommend that it
continue to do so.

      Our information security review of the VNS identified several areas of
concern, including weaknesses in systems and communications protection
controls, identification and authentication controls, and web application
controls. We believe that it is important that EOUSA work to address these
vulnerabilities since the VNS contains PII on over 1 million victims of federal
crimes.

      As noted, according to EOUSA, it has already begun to implement
corrective action to address some of the weaknesses we have identified.
Additionally, to further assist EOUSA in the improvement of the VNS, we
make 19 recommendations for EOUSA to improve the VNS, such as
developing an interface to connect all relevant federal agencies to the VNS,
formalizing long-term plans for the system and its management, improving
certain facets of Call Center services, ensuring that a reason must be
recorded in order to opt-out a victim from the VNS, and addressing the
vulnerabilities identified during the information security review of the VNS.




                                 xxii
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                  THE VICTIM NOTIFICATION SYSTEM
                         TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1
  Establishment and Funding of the VNS ................................................ 1
  How the VNS Works.......................................................................... 4
  VNS Oversight ................................................................................. 7
  OIG Audit Approach .......................................................................... 7
FINDINGS AND RECOMMENDATIONS.............................................. 10
I. EOUSA MANAGEMENT OF THE VNS .............................................. 10
  The VNS Contract ........................................................................... 10
  Accuracy of VNS Information ........................................................... 14
  The Future of the VNS..................................................................... 17
  Conclusion..................................................................................... 23
  Recommendations .......................................................................... 24
II. THE VNS’s EFFECTIVENESS FOR VICTIMS .................................. 26
  Background ................................................................................... 26
  VNS Active Victim User Satisfaction .................................................. 26
  Victims No Longer Active in the VNS ................................................. 45
  Conclusion..................................................................................... 48
  Recommendations .......................................................................... 50
III. REVIEW OF VNS INFORMATION SECURITY .............................. 51
  Background ................................................................................... 51
  Objectives, Scope, and Methodology of Review ................................... 51
  Overview of Information Security Controls Review Results ................... 52
  Conclusion..................................................................................... 59
  Recommendations .......................................................................... 59
STATEMENT ON INTERNAL CONTROLS............................................ 61
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 62
APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 63
APPENDIX II: LAWS, REGULATIONS, AND MANDATES ENACTED
               FOR VICTIMS OF CRIME ...................................... 66
APPENDIX III: FUNDING THE VNS................................................. 72
APPENDIX IV: TYPES OF NOTIFICATIONS ..................................... 74
APPENDIX V: OFFICE OF THE INSPECTOR GENERAL
              OPT-IN SURVEY.................................................... 79



                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


APPENDIX VI: OFFICE OF THE INSPECTOR GENERAL
               OPT-OUT SURVEY................................................ 94
APPENDIX VII: OPT-IN SURVEY SCOPE, METHODOLOGY,
                AND RESPONSE REVIEW.................................... 96
APPENDIX VIII: OPT-OUT SURVEY SCOPE AND METHODOLOGY .... 98
APPENDIX IX: OPT-IN SURVEY QUESTION 41 ............................... 99
APPENDIX X: THE VICTIM NOTIFICATION SYSTEM’S
              VULNERABILITY ASSESSMENT RESULTS ............ 101
APPENDIX XI: THE VICTIM INTERNET SYSTEM’S WEB
               APPLICATION TESTING RESULTS...................... 102
APPENDIX XII: EXECUTIVE OFFICE FOR UNITED STATES
                ATTORNEYS RESPONSE ................................... 103
APPENDIX XIII: OFFICE OF THE INSPECTOR GENERAL
                 ANALYSIS AND SUMMARY OF ACTIONS
                 NECESSARY TO CLOSE THE REPORT ............... 112




                     REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE



                                    INTRODUCTION

      In response to legislation directing federal law enforcement agencies
to identify and provide certain services to crime victims, the Department of
Justice (DOJ) developed the Victim Notification System (VNS), a computer-
based system managed by DOJ’s Executive Office for United States
Attorneys (EOUSA). The VNS assists federal personnel in notifying victims of
federal crimes of events occurring in the investigation, prosecution, and
incarceration phases of their cases and provides victims various methods to
access information regarding their cases. 13 The VNS came online in
October 2001 and as of October 5, 2007, the VNS contained information on
1,564,667 victims.

Establishment and Funding of the VNS

       The Victim and Witness Protection Act of 1982, the Victims of Crime
Act of 1984, the Crime Control Act of 1990, the Violent Crime Control and
Law Enforcement Act of 1994, the Justice for All Act of 2004, and the
Attorney General’s (AG) Guidelines for Victim and Witness Assistance
established procedures to address the needs of victims of crime. 14 Each of
these contains a directive to ensure that victims are notified of significant
stages and procedural developments in the criminal justice process.
Notification means keeping victims aware of the status of an investigation of
a crime, as well as the subsequent prosecution, trial, incarceration, location,
and custody status of the offender related to the crime.

      On April 14, 1997, the Attorney General issued a memorandum that
directed EOUSA to implement a comprehensive automated victim
information and notification system as soon as possible. The Attorney
General mandated that the system be available for use by investigative and
prosecutorial components such as the Federal Bureau of Investigation (FBI),
U.S. Attorneys’ Offices (USAO), and the Federal Bureau of Prisons (BOP).




       13
          A victim is defined in the VNS as an individual upon whom a criminal act is
perpetrated and who is directly and proximately harmed as a result of a crime that is
charged as a federal offense. Victims can decide to designate another person as their
primary (alternate) contact to receive notification. This alternate contact is someone who
can be reached in lieu of the victim, such as a friend, attorney, relative, or business
associate of the victim, who also has an interest in the case.
       14
            Additional information regarding this legislation can be found in Appendix II.



                          REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


      With funding provided by DOJ’s Office for Victims of Crime (OVC),
EOUSA managed the development of the VNS and actual field deployment
began in early October 2001. The exhibit on the following page illustrates
VNS’s development and funding from fiscal year (FY) 1996 through FY 2007,
highlighting a spike in funding in FY 2000, and a slight decline in funding
levels since that time. Since work began on creating the system in FY 1998,
the VNS has cost a total of more than $38 million.

      According to EOUSA officials, the VNS received significantly more
funding in FY 2000 than during any subsequent fiscal year to cover the initial
development and implementation of the system. Officials stated that no
funding was provided for the VNS in FY 2001 because the funding provided
during the previous fiscal year had not been fully utilized. 15 Moreover,
according to OVC officials, several reasons account for the slight decline in
funding since FY 2004. Specifically: (1) the VNS is carrying forward the
prior year’s balance; and (2) funding for the Office of Justice Programs
(OJP), of which the OVC is a part, has decreased.




      15
           Additional information regarding VNS funding is found in Appendix III.

                                      2
                         REDACTED FOR PUBLIC RELEASE
                                                                            REDACTED FOR PUBLIC RELEASE
                                                       June 1998
                        April 1997
                                                  2-year Interagency
                                                agreement between the
                                                                                                    VNS DEVELOPMENTAL AND FUNDING TIMELINE
                 The Attorney General
                  directs EOUSA, FBI,
                                               OVC and EOUSA making
                                                 money from the Crime
                                                                                                            FY 1996 THROUGH FY 2007
                    JMD, and BOP to
                                                Victim Fund available to
                implement an automated
                                                develop the notification
                victim notification system.
                                               system. Cost estimated at
                                                        $8 million.
                                                                             November
                                                                                1999
    November 1996                                                            Request for
   DOJ working group                                                       Procurement for                        October 2001
   meets to develop a                                                        the VNS is                                                                                            January 2006
                                                                                                                      Field
 seamless system from                                                          issued.                                                                              The VIS goes    DOJ Criminal
                                                                                                                  Deployment to
  investigation through                                                                                                                                                online.        Division
                                                                                                                  EOUSA, FBI,
     incarceration.                                                                                                                                                                connects to the
                                   September 1997                                                                   and BOP
                                  BDM issues its report.                                                             begins.                                                           VNS.

                                                                                                                                                    May 2004
                                                                                                                                                 AT&T proposes
                                                                                                                                                  creation of the
                                                                                                                                                       VIS.
                                                                                                                                                                                    FY 2006           FY 2007
                                                                                                                                   FY 2003                           FY 2005        VNS RA 3          VNS RA 3
                                         FY 1998            FY 1999                                                                                FY 2004           VNS RA 2      $5.3 million       $5 million
 FY 1996           FY 1997           VNS Reimbursable                                              FY 2001                         VNS RA 2
                                                             VNS RA 1                                                                             VNS RA 2          $4.9 million
   $0                $0              Agreement (RA) 1                                                $0            FY 2002        $5.1 million
                                                             $193,765          FY 2000                                                           $5.1 million
                                         $559,122                             VNS RA 1                             VNS RA 2                                                                           August 2007
                                                                                                                   $5 million                                                       September
                                                                           $7.2 million
                                                                                                                                                                                       2006          MOA connecting
                                                                                                                                                                                      AOUSC          U.S. Courts and
                                                                                                                                                   July 2004                         approves          the VNS is
                                                                                                                                                 USPIS connects                    connection of         signed.
                                                                                                                  January 2002                    to the VNS.
                                                                                                                      Field                                                        U.S. Courts to
       June 1996
                                                                                                                   deployment                                                        the VNS.
Executive Order directs                    Febuary 1998
     DOJ to adopt a                    OVC conducts meeting                                                         concludes.
                                                                               July 2000
 nationwide automated                  where EOUSA agrees
                                                                             AT&T aw arded
 victim information and               to take a leadership role
                                                                           contract to dev elop
   notification system.                to develop the system.
                                                                                the VNS.
                                                                                                       May 2001
                                                                                                  EOUSA, FBI, & BOP
                                                                                                       enter into a                        JMD - Justice Management Division
                           June 1997                                                               "VNS Operational                        VIS - Victim Information System
               EOUSA hires contractor, BDM, to                                                    Memorandum," which                       USPIS - United States Postal Inspection Service
               assess each agency's notification                                                  delineates roles and                     AOUSC - Administrative Office of the United States Courts
                  practices and to assess the                                                        responsbilities.                      MOA - Memorandum of Agreement
                compatibility of existing agency
                      notifcation systems.




                                                                                         3
                                                                            REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE


How the VNS Works

       The VNS is a web-based application. The system hardware consists of
a server, located at the Justice Data Center in Rockville, Maryland, as well as
a Call Center facility and live back-up server in Louisville, Kentucky. The
VNS receives data from automated case management systems at the FBI,
USAOs, the DOJ Criminal Division, the United States Postal Inspection
Service (USPIS), and the BOP. Specifically, the VNS receives daily
downloads from the FBI’s Automated Case Support (ACS) system, the
USPIS’s Inspection Service Integrated Information System (ISIIS), the
USAO’s Legal Information Office Network System (LIONS), the DOJ Criminal
Division’s Automated Case Tracking System II (ACTS II), and BOP’s SENTRY
system. Data transferred from the various systems includes case number;
victim, defendant, and inmate information; court events; and custody status
updates. Notably, some victim-related information that resides in the VNS
is personally identifiable information (PII), such as the names, addresses,
and, in some cases, social security numbers of victims of federal crimes.

      Initially, the system consisted of the VNS, which federal VNS users
accessed via a secure intranet connection, and the Call Center, which was
used by both federal VNS users and victims of federal crimes. However, in
FY 2004 the contract was modified to enhance VNS services by providing
victims with Internet access to their case information. This resulted in the
development of the Victim Internet System (VIS), which allows victims to
have access to a subset of VNS data via the Internet. The VIS database
server, in which the users’ encrypted information is stored, is also located at
the Justice Data Center.

      Federal VNS users who specialize in dealing with victims and victim
issues, such as FBI Victim Specialists and USAO Victim/Witness
Coordinators, access the VNS to manage the information that relates to
cases in the control of their agency. Victims of federal crimes utilize VNS
services to obtain information on their related cases. Specifically, victims in
the VNS are notified of case events by letter, e-mail, facsimile, or telephone
when a particular event in a case occurs. 16 These victims can also obtain
information at any time by calling the VNS Call Center or by accessing the
VIS. The following graphic illustrates how the various component systems
feed into the VNS, as well as how victim users of the system obtain case-
related information.




      16
           A list of all events that require notification is found in Appendix IV.

                                       4
                          REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                          INFORMATION FLOW IN THE VNS


                                           CRIMINAL
                                           DIVISION
                                            ACTS II




                                                                           The VIS




Source: VNS User Manual and the DOJ Criminal Division

Victim Notifications

      In the VNS, a “notification” is a communication from the federal
government to a victim, prompted by a particular event in the case. Events
that prompt a notification to victims are referred to as “notifiable.” When
such an event occurs in a case, the identified victim in that case is notified
via the VNS by a variety of means, such as letter, facsimile, e-mail, or
telephone. Only victims and their alternate contacts who are “opted-in” to
the system can receive notifications. 17 In addition to notification, a victim in
the VNS can also obtain information on his or her case at any time by
contacting the VNS Call Center or by accessing the VIS, which provides
victims the capability to receive notifications, access information regarding

       17
           “Opt-in” is the status of a victim or contact allowing them to receive notification
and access the VNS Inbound Phone Line and Internet web page. Throughout the report we
also refer to these victims as “active” in the VNS.


                                      5
                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


their case, and update their personal contact information via the Internet. A
victim generally receives notifications regarding the three phases of the
federal criminal justice process: the investigative, prosecutorial, and
incarceration phases.

       Investigative Phase

       The investigative phase consists of the time after a crime has been
committed (or allegedly been committed) to the time a case has been
accepted or declined by the USAO for prosecution. The FBI and the USPIS
are the only federal law enforcement agencies that utilize the VNS to notify
victims of events that occur during the investigative phase of the criminal
justice process. 18 The FBI and the USPIS provide limited investigative case
information and detailed victim information through an export of data from
their agency case management systems into the VNS. FBI and USPIS
personnel then use the VNS to create, approve, and generate seven different
victim notifications, such as an initial notification informing a victim that a
case is under investigation, informing victims of their rights under U.S. law,
or notification that a case has been referred for state or local prosecution.

       Prosecutorial Phase

      The prosecutorial phase encompasses the time charges have been filed
by the USAO to the time a defendant is sentenced. As with the FBI and the
USPIS, USAOs and the DOJ Criminal Division export information from their
automated case management systems into the VNS. This information
includes case data, as well as defendant, charge, and court event records,
from cases that are either linked to previously loaded FBI or USPIS cases or
are new USAO or Criminal Division cases investigated by agencies other than
the FBI or the USPIS. The USAOs and the DOJ Criminal Division have
90 different notifications that relate to a defendant and contain case-specific
information, such as the charges filed, trial dates, custody status, and
sentencing information.

       Incarceration Phase

       The incarceration phase consists of the time a defendant is sentenced
until the time a defendant is released from BOP custody. If a defendant is
convicted and then sentenced to serve time in a federal facility, he or she
becomes an inmate and is transferred to BOP custody. BOP notifications are

       18
           Other federal criminal justice agencies, such as the Bureau of Alcohol, Tobacco,
Firearms and Explosives, and the United States Secret Service, provide investigative phase
notifications to victims without using the VNS.


                                     6
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


created when data is received from BOP’s SENTRY system. BOP personnel
then use the VNS to create, approve, and generate 22 various types of
notifications to victims, such as information related to defendant release,
escape, or death.

VNS Oversight

       In late 1999, the Deputy Director of EOUSA designated an Assistant
United States Attorney (AUSA), located in Kansas City, Kansas, to assume
program management responsibilities over the VNS. Since then, this project
manager has been detailed to work full-time on the VNS and has held this
position while physically remaining in the USAO in Kansas City. The project
manager reports to EOUSA through the Office of Legal Programs and Policy.

      In addition to the VNS Project Manager, additional program
management responsibilities are to be carried out by various groups,
including the VNS Executive Committee and the VNS Working Group. The
VNS Executive Committee consists of senior-level management from EOUSA,
the DOJ Criminal Division, the FBI, the BOP, the OVC, and the USPIS. The
Executive Committee meets once a year to discuss financial issues, review
system events from the previous year, and consider planned changes for the
upcoming year. The VNS Working Group meets once a quarter and consists
of representatives from EOUSA, the FBI, the DOJ Criminal Division, the BOP,
and the USPIS. The purpose of the VNS Working Group is to review all
proposed system changes and enhancements, implement its priorities, and
provide input on any issues with the daily operation of the VNS.

OIG Audit Approach

      The objectives of this audit were to determine if:

      (1) EOUSA has effectively managed the VNS, including overseeing the
contractors, ensuring the accuracy of data in the system, and planning for
the future;

      (2) The VNS is an effective tool for victims of crime; and

     (3) The VNS is properly secured to prevent unauthorized use, access,
and data modification.

      To accomplish our audit objectives, we conducted more than
50 interviews with officials from agencies that are directly involved with the
VNS, including officials from EOUSA, the DOJ Criminal Division, the FBI, the
BOP, the USPIS, and the OVC. We also spoke with headquarters officials

                                 7
                    REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


from those agencies that do not directly participate in the VNS, such as the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF); the Drug
Enforcement Administration (DEA); the U.S. Marshals Service (USMS); the
Administrative Office of the U.S. Courts (AOUSC); Immigration and Customs
Enforcement (ICE); and the U.S. Secret Service (USSS) to determine their
knowledge of the VNS, whether they were contacted about directly
participating in the VNS, and why they do not participate. Additionally, we
interviewed the contractor (AT&T Government Solutions), who manages the
system, as well as the sub-contractor (Appriss), who manages the Call
Center/Help Desk and back-up servers. We also reviewed internal
documents from EOUSA, the DOJ Criminal Division, the FBI, the BOP, the
USPIS, and the OVC. Those documents included planning materials,
contracts, manuals, internal directives and policies, and financial reports.
Moreover, we obtained and analyzed empirical data from the VNS and used
this information to develop descriptive statistics on the number and types of
victims in the system.

       We conducted fieldwork in Chicago and Lisle, Illinois; Lexington and
Louisville, Kentucky; Kansas City and Leavenworth, Kansas; and Kansas
City, Missouri, where we interviewed 22 field personnel. At these locations
we spoke with senior management and staff who utilized the VNS at the
local USAO, BOP, USPIS, and FBI offices, and reviewed reports and files
applicable to our review. In addition, at the FBI, we interviewed special
agents who work cases with multiple victims. In general, the scope of our
audit covered the period from FY 1998 through FY 2007.

      Related to our first objective, we performed a limited review of the
services provided by the contractor and sub-contractor, including Call Center
operations; discussed the entry of information into the VNS with federal VNS
users; reviewed data in the VNS and spoke with federal VNS users to
determine if information in the system was accurate; and interviewed
non-participating agencies to determine if outreach was performed and if the
agencies were interested in participating directly with the VNS. Regarding
our second objective to determine if the VNS is an effective tool for victims,
we designed and deployed two surveys: one to victims who were active in
the system and another to victims who were no longer active in the
system. 19 We selected stratified, statistical samples of victims located
throughout the world, to whom we sent the surveys. 20 We also reviewed
other surveys conducted by EOUSA and BOP as well as conducted our own

       19
            Copies of both of our surveys can be found in Appendices V and VI.
       20
            Details of the surveys’ scope and methodology can be found in Appendices VII
and VIII.


                                      8
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


testing of the VIS through use of a test victim account. In order to
accomplish our third objective, we utilized a private auditing firm with
experience in conducting information technology audits to perform an
information security review of the VNS.

      The results of our review are detailed in the Findings and
Recommendations section of this report. Finding I discusses EOUSA’s
management of the VNS. Finding II reviews the VNS’s effectiveness for
federal VNS users and victims of crime. Finding III concentrates on the
information security review portion of the audit. The audit scope and
methodology are presented in Appendix I. Additional details on our review
can be found in Appendices II through XI.




                                 9
                    REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                  FINDINGS AND RECOMMENDATIONS

       I.     EOUSA MANAGEMENT OF THE VNS

       We determined that government VNS users were generally
       satisfied with the work of the contractor and sub-contractor.
       However, EOUSA has not proactively assessed the accuracy of
       data within the VNS and a significant percentage of victim
       notifications are returned due to incorrect address information.
       For example, in our attempt to contact over 2,700 victims via
       mail, the correspondence that we sent to approximately
       18 percent of these individuals was returned as undeliverable.
       Further, because data in the VNS has never been archived,
       storage space on the VNS server has been filled to almost
       80 percent of its capacity, affecting both data access speed and
       performance of the system. While EOUSA has articulated its
       intent to resolve this issue, no schedule or written plans for
       doing so have been established. EOUSA needs to address other
       matters related to the future of the VNS, including following
       through on its plans to add additional government participants
       and establishing a succession plan for key program officials.

The VNS Contract

      In FY 2000, EOUSA entered into a contract with AT&T to create the
VNS. In addition to creating the actual information technology hardware and
software for data entry and reporting, the contractor was required to
establish and staff a Call Center to assist government and victim users of the
VNS. It did so by sub-contracting with Appriss, Incorporated, to run and
maintain the VNS Call Center. AT&T was also to supply training, Help Desk
support, and system maintenance and enhancements. Once the system was
developed, field deployment of the VNS began in October 2001. The VNS
was fully operational by January 2002.

      The VNS has a firm fixed-price contract, which was originally set to
expire in September 2007, but which has been extended for 6 months. 21


       21
          The Federal Acquisition Regulation (FAR) System Subpart 16.202-1 states that a
firm fixed-price contract provides for a price that is not subject to any adjustment based on
the contractor’s cost experience in performing the contract. This contract type places upon
the contractor maximum risk and full responsibility for all costs and resulting profit or loss.
It provides maximum incentive for the contractor to control costs and perform effectively
and imposes a minimum administrative burden upon the contracting parties.


                                     10
                         REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


The annual cost to maintain the system is approximately $3.6 million. The
primary VNS server is located at the Justice Data Center in Rockville,
Maryland, with a mirrored back-up system located at the VNS Call Center in
Louisville, Kentucky.

      We reviewed the VNS contract and spoke with numerous federal VNS
users to find out if they were satisfied with the system and the Call Center.

Satisfaction with Contractor Performance

        To evaluate the performance of AT&T and Appriss in terms of contract
fulfillment and services provided to federal VNS users, we conducted
interviews with personnel at VNS-participating agencies. We also reviewed
the results of an FY 2003 BOP survey of its employees who utilized the VNS.

      The federal VNS users we interviewed stated that they were not aware
of any problems that occurred with the administration or fulfillment of the
VNS contract. They also said that contracting personnel were very
responsive to users’ requests. Federal VNS users also expressed satisfaction
with the working relationship they had with the contractors.

The VNS Call Center

        We determined that access to the Call Center is limited to DOJ-cleared
staff and meets all the facility security requirements as described in the VNS
contract. We toured the Call Center and spoke with the contractors and the
sub-contracted personnel who worked there. The physical security of the
facility generally appeared to be adequate to prevent access by unauthorized
personnel.

      According to the VNS operations manual, the primary purpose of the
Call Center is to support: (1) victims by ensuring that information is
captured and updated in the VNS and appropriate notifications are sent in an
expeditious manner; (2) government agencies by providing system help and
ensuring that information is transferred from external systems correctly; and
(3) data and system integrity through the application of security, backup,
and recovery processes. In addition to its duties as a Help Desk, Call Center
employees assist federal VNS users with importing data for large cases that
involve 300 or more victims.

    To fulfill its mission, the Call Center maintains a toll-free telephone
number that victims can call to obtain case information from either an



                                  11
                      REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


automated system or by speaking with Call Center staff. 22 As indicated in
the chart below, data provided by the Call Center show 78,850 calls were
placed in FY 2005. The number of calls decreased in FY 2006 to 63,959. Of
these totals, 11,391 and 13,988 calls in FYs 2005 and 2006, respectively,
required staff assistance from Call Center personnel.

                             Calls to the VNS Call Center
                                                 FY 2005               FY 2006
            Inbound                                66,748                49,408
            Operator                                8,019                10,023
            Help Desk                               3,372                 3,965
            Abandoned Calls 23                        711                   563
                      Total Calls                 78,850                63,959

       Additional Suggested Tasks for Call Center

      According to BOP survey respondents and other government personnel
we interviewed, they utilize the VNS Call Center for administrative purposes,
as well as to address technical and access problems and to perform
troubleshooting. The survey respondents generally had a positive opinion of
the services provided by the Call Center, commenting that Call Center staff
members were helpful, quick to respond, and open to suggestions for
improvement. BOP officials did, however, state that they would like the VNS
Call Center to notify victims of an escapee when the event occurs during
BOP non-business hours, because the Call Center is open most of the time. 24

      Call Center personnel also commented that the automated ticketing
system – called Tracker – for logging all calls they receive could be
improved. Tracker is an internal database that is used by Call Center
personnel to track calls from victims and federal VNS users, as well as to
provide the VNS Project Manager with weekly reports on the status of Help
Desk activity and system-related matters. However, the Call Center staff
has to manually add specific information, such as callers’ names, contact

       22
           “Inbound” calls are calls to the automated toll-free number for which no live
assistance was provided. “Operator” calls are from victims who dialed the toll-free number
and selected "0" to speak with an operator. “Help Desk” calls are from personnel at VNS-
participating agencies for application support.
       23
           “Abandoned Calls” are instances where a caller hung up before completing the call
or talking to a Call Center operator.
       24
         The VNS Call Center is operational Monday through Friday, from 7:00 a.m. to
2:00 a.m.; Saturday from 7:00 a.m. to 12:00 a.m.; and Sunday 10:00 a.m. to 12:00 a.m.


                                    12
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


information, and a summary of the problem. According to the VNS Project
Manager, Tracker is functional for VNS purposes, but it is not a good
interface for the Help Desk staff. Because the Call Center staff must
manually create the ticket, it is very difficult to determine if all calls and
issues are recorded and tracked.

        The Call Center Manager explained that the Tracker system is
rudimentary because all tracking activities have to be performed manually
and the system cannot be easily searched. For example, in order to go back
and check for specific information, a staff member has to review the entire
list of calls, rather than zeroing in on a particular timeframe. Additionally,
although a newer version of the Tracker software is available, Call Center
employees said they are still using the original version.

      Regarding a newer version of Tracker, during the audit a VNS official
told us that Tracker is part of the record used by the contractor to provide
weekly reports on the status of Help Desk activity and system-related
matters. The VNS Project Manager stated that Tracker is an older system
and is not as user-friendly to operate as are newer programs, but that it was
being used due to a software compatibility issue. The VNS Project Manager
also advised that the newest version of the Tracker software, called Front
Range, will be installed during 2007.

      We believe that upgrading Tracker to Front Range will help improve
the quality of the contracted services provided, thus leading to an
improvement in the service the VNS provides to victims. The ability to more
easily analyze the content of user calls should allow EOUSA to identify and
address existing problems that large numbers of victims might be having
with the system, as well as allow EOUSA to forestall issues that may be in
the developmental stage. However, the creation of the Tracker ticket should
have some mechanism to ensure that tickets are created and that this task
does not need to be performed manually.

      In August 2007, an EOUSA official advised us that as of July 5, 2007,
Tracker’s upgrade to Front Range, which has greater report-tracking
capability than Tracker, was complete. Moreover, EOUSA stated that it plans
to implement Front Range’s feature to automatically e-mail a caller upon the
closing of a ticket. Additionally, a brief survey will accompany the e-mail to
address any Call Center service problems experienced during operator
assistance.

     EOUSA’s upgrade to Front Range demonstrates its willingness to follow
through on its plans to improve the VNS. We believe it is important for the


                                 13
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


agency to implement these plans for establishing the Front Range feature
that will automatically e-mail a caller upon closure of a ticket.

Accuracy of VNS Information

       In addition to ensuring that the terms of the VNS contract are fulfilled,
EOUSA is also responsible for the content of the VNS. Victim information
goes into the VNS when one of the various participating agencies enters the
data in their own information systems and the data is uploaded to the VNS.
After the initial victim record is created in the VNS through the upload
process, any participating agency can enter additional information related to
its cases directly into the VNS. Federal VNS users also have the option to
remove a person from a case if that person is deemed to no longer be a
victim.

      According to the VNS Manual, when victims are added to the VNS from
an agency information system, they are automatically associated with an
investigative case, which, in turn, may be associated with one or many court
cases. Victim records are thus automatically linked to all court cases
associated with an investigative case, and if an event occurs for any
associated case or defendant, each victim should be notified. However,
federal VNS users can, when necessary, break the link between a victim and
a specific court case or defendant if a victim is found not to be associated
with that particular case or defendant.

       The USAOs are responsible for creating all VNS records associated with
agencies that do not participate in the VNS. For all non-participating
investigative agencies, the USAO prosecuting the case creates the case and
enters victim information into LIONS, the USAO case management system.
Victim-related information is then uploaded electronically from LIONS to the
VNS. However, in some cases with large numbers of victims, USAOs (as well as
all other VNS-participating agencies) may enlist assistance from the VNS Call
Center staff to create victim records in the VNS.

      We interviewed federal VNS users to obtain feedback about the
accuracy of VNS data. In addition, we assessed the controls and procedures
in place to ensure the accuracy of information in the VNS.

VNS User Feedback

     We asked users of the VNS at the FBI, the USPIS, the BOP, the
DOJ Criminal Division, and USAOs about the accuracy of the data in the
system. In general, users at these components considered VNS data to be
accurate. However, a VNS Call Center analyst questioned the accuracy of

                                 14
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


data related to court events. Specifically, problems occur when inaccurate
court schedule information is entered into LIONS and is subsequently
transferred to the VNS. In addition, BOP staff said that incomplete and
inaccurate data is found in the information retained in the VNS. Additionally,
responses to the 2003 BOP employee survey included negative comments
about the accuracy of data in the system, a desire to have victim addresses
updated, and claims that some data entered into the VNS by the FBI and
USAOs was inaccurate or incomplete.

Undeliverable Correspondence

      One measure of VNS data accuracy is the rate at which VNS
correspondence is returned as undeliverable – that is, when the contact
information for a victim is inadequate. We discussed with federal VNS users
undeliverable mail and e-mail, along with policies and procedures for
updating information in the VNS.

       Interviews with most federal VNS users verified that there were no
policies or procedures in place that required them to update victim contact
information in the VNS when letters were returned. A BOP official stated
that all returned notifications were forwarded to the USAO. At one USAO,
we noticed a large number of notification letters sitting on the floor piled in
bins. When we asked a Victim/Witness staff person about it, she stated that
the letters had been returned because of inaccurate addresses and one of
her responsibilities was to attempt to locate updated contact information.

      USAO and EOUSA representatives stated that employees regularly use
online databases to search for people by former addresses and social
security numbers. They said that if a different address is located, the victim
record is updated in the VNS. When a USAO receives undeliverable mail in
large victim cases, the USAOs bundle the undeliverable envelopes and send
them to the Call Center. The Call Center, in turn, modifies the victim
records in the VNS to identify them as “opted-out” of the system, and then
shreds the letters. According to the VNS Project Manager, this is done
because the VNS lacks the resources to perform follow-up in such instances.

       We also experienced problems with undeliverable correspondence in
the course of conducting our victim surveys. When we attempted to contact
2,762 victims who were considered to be active in the VNS, 498 of our
letters (18 percent) were returned as undeliverable. 25 The fact that

       25
           Our attempt to contact victims in the VNS was performed as part of a survey
related to victim satisfaction with the VNS. The results of our survey are conveyed in
Finding II. The complete scope and methodology of this survey is contained in
Appendix VII.

                                    15
                        REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


18 percent of the “active” victim records in our sample contained invalid
addresses indicates that a significant number of victims may not be receiving
notifications of case events.

      We asked EOUSA officials what steps were taken for e-mails that were
undeliverable. EOUSA acknowledged that returned e-mail notifications were
a problem and that the problem was increasing in significance as the use of
e-mail notification was rising. The VNS Project Manager further commented
that EOUSA was in the process of establishing a protocol for identifying and
getting information about undeliverable e-mail to federal VNS users for
action.

      In June 2007, EOUSA officials acknowledged to us that there was a
problem with undeliverable correspondence, but noted their belief that it is
the victim’s responsibility to keep contact information up-to-date. Victims
can update their information by various methods, such as via the VNS
website or by contacting the USAO Victim-Witness Coordinator responsible
for their case. According to the VNS Project Manager, federal VNS users are
trained to make reasonable best efforts to find correct mailing addresses
when correspondence is returned as undeliverable.

      In response to our discussions with them on this issue, in August 2007
EOUSA officials informed us that they are researching approaches to
implement a nation-wide procedure regarding undeliverable correspondence.
The officials noted that this concern has become a higher priority for EOUSA
and that this new procedure may be included in the next VNS contract.

VNS Procedures and System Controls

      According to the VNS Project Manager, the accuracy of information in
the VNS is largely dependent upon what was provided or entered originally
by the participating agency. He added that there was no process for
routinely checking the accuracy of victim files in the VNS and testing for
accuracy of VNS data has not been performed. The FBI, the USPIS, and the
BOP also have not tested the accuracy of the VNS data they entered.

       An address is not required to enter a victim into the VNS. Rather, in
order to add a victim to the VNS, the only required fields that must be
entered are the victim’s first name and last name or the victim’s prefix and
last name. However, in order for the victim to be sent an initial notification
letter, there must be an address listed for the victim. If there is no address
for the victim in the VNS when a letter is selected as a method of
notification, the "initial" notification is left in a "pending" state and the victim
will not be sent the initial notification letter until an address for that victim is

                                  16
                      REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


added to the VNS. When an initial notification is stopped for lack of a
mailing address, the VNS alerts the responsible federal VNS user that a
necessary notification was not sent due to the missing information. The VNS
Manual directs federal VNS users to address these alerts. While the system
does not have a control to ensure that federal VNS users respond to these
alerts or confirm that the notifications are ultimately sent, it does leave the
notification in a pending state to alert the user the notification has not been
sent.

      In sum, there are few internal controls to ensure the accuracy and
completeness of information in the VNS. This means that victims whose
contact information in the VNS is incorrect could be missing the opportunity
to attend court events or be updated on defendant status. Although EOUSA
believes it is the victim’s responsibility to update all contact information, in
our judgment, it is also EOUSA’s responsibility to ensure that victim records
in the VNS are as accurate as possible. We believe that EOUSA should work
with other VNS-participating agencies to develop procedures for ensuring
victim contact information is current and undeliverable correspondence is
pursued to help ensure victims receive case-related notifications from the
VNS.

      In response to the concerns we raised, EOUSA officials explained that
federal VNS users have the ability to generate a number of reports that
allow for review of the data entered. At this time, the VNS does not
automatically validate the mailing addresses of victims. EOUSA has
reviewed the use of such automation and concluded that, at this time, such
a process would require significant resources.

The Future of the VNS

      In addition to reviewing the current status of information in the VNS,
we also inquired about EOUSA’s future plans for the VNS. We examined the
VNS contract, which was initiated on August 1, 2000, and runs through
September 30, 2007. The contract includes a clause allowing for a 6-month
extension of services. According to the VNS Project Manager, the DOJ
Justice Management Division (JMD) is responsible for procurement actions
related to the VNS contract. JMD invoked the 6-month extension contract
provision in June 2007 and EOUSA officials told us that they have provided
necessary information to JMD for the next VNS contract.

      We also examined EOUSA’s long-term plans for the system, including
the archiving of older data, replacing system hardware, outreach to
additional federal agencies, and succession planning for management of the
system.

                                 17
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


Archiving and Storing VNS Data

       The VNS contract states that the contractor will archive VNS data
periodically. However, EOUSA and contract officials confirmed that VNS
historical records have never been archived and they have no immediate
plans to do so.

       Contract employees, as well as EOUSA officials with whom we spoke,
stated that all data entered into the VNS since it went online in
October 2001 has been retained. According to contract employees,
however, storage space on the server is an issue and the system needs to
be upgraded for storage space. In its FY 2007 budget request, EOUSA
confirmed that storage space in the system was an emerging issue.
Specifically, the increased number of victims and notifications was pushing
the current system to its physical capacity and this had limited the speed at
which data could be accessed and become a bottleneck in the system. At
the time of the budget request, the storage array as configured had 126 of
its original 626 gigabytes of storage space remaining, meaning that the
system was almost 80 percent full. This also meant that there was little
room for future expansion for increasing data needs, and that the 6-year old
technology used by the system is a bottleneck that limits data access speed.

       In examining EOUSA’s plans for archiving data, we also identified a
concern with the established archiving criteria. The VNS contract states that
records should be archived 36 months after a defendant is released from
confinement. We asked EOUSA to provide a query to determine how many
inmates in the VNS had been released prior to April 30, 2004, and we were
told the VNS cannot readily obtain that information because it does not have
a "released by BOP" field to make that determination. However, release of
an inmate (such as permanent release, release to a halfway house or on
furlough) are notifiable events.

      In response to our discussions with EOUSA regarding our concern with
VNS data never having been archived, in August 2007 EOUSA officials
informed us that they plan to replace the existing equipment with new
equipment in the near future. According to EOUSA officials, this will resolve
the capacity issue and the need to archive or remove data from being
accessible online.

System Hardware

     In addition to issues related to archiving data, one staff person from
the VNS Call Center expressed concern that VNS hardware is becoming
outdated. We reviewed documentation related to this matter and found that

                                18
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


EOUSA’s FY 2007 budget request stated that most of the equipment was
6-years old and coming to the end of its useful life span. A partial
replacement of equipment was funded in FY 2006. However, more
equipment needs to be replaced. The remaining equipment still in need of
replacement includes the data storage system and the database servers.
The replacement equipment and labor cost was projected at $700,000.

EOUSA Outreach to Other Agencies

       Historically, EOUSA has coordinated with certain federal agencies to
participate and use the VNS in carrying out their responsibilities to notify
victims of case events. We examined these efforts as well as EOUSA’s
current efforts or plans to add new participating agencies.

      At its inception, the VNS included the USAOs, the FBI, and the BOP.
Since that time, the VNS has added two new agencies: the USPIS in
FY 2004 and the DOJ Criminal Division in FY 2006. According to EOUSA, it is
very expensive to modify the VNS by adding other investigative agencies’
various case management systems. For that reason, EOUSA stated that it is
not economically feasible to include all other agencies in the VNS because
most investigative agencies have too few victims associated with their cases.
Accordingly, EOUSA has focused its outreach efforts on agencies that have
the most victims associated with their cases, such as the USPIS.

     As of October 5, 2007, the FBI and USPIS were responsible for
1.2 million (79 percent) of the victims in the VNS. The number of victims,
by agency, is shown in the following chart.




                                19
                    REDACTED FOR PUBLIC RELEASE
                            REDACTED FOR PUBLIC RELEASE

  900,000

               815,993
  800,000


                                                                       VICTIMS IN THE VNS
  700,000
                                                                   BY INVESTIGATIVE AGENCY
                                                                      (as of October 5, 2007)
  600,000

                                                                     1,564,667 Total Victims
  500,000

                         421,184
  400,000



  300,000



  200,000


                                                                                                          102,452
  100,000                             79,811
                                                     57,587
                                                                      30,862   29,261      27,517
      -
                 FBI      USPIS    Secret Service   All Internal       BOP       FDA    All Other Labor   All Other
                                                     Revenue

                                     Source: OIG analysis of VNS data


       Although not all investigative agencies participate in the VNS, all are
mandated by statute to provide victims with information during the
investigative phase. 26 We interviewed officials from several agencies that do
not participate in the VNS: the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF); the Drug Enforcement Administration (DEA); the United
States Marshals Service (USMS); the Department of Homeland Security’s
Bureau of Immigration and Customs Enforcement (ICE), and the United
States Secret Service (USSS). According to representatives with whom we
spoke from most of these non-participating agencies, they utilize their own
resources to provide various forms of victim notification services similar to
the type that the VNS was created to handle. We asked these agencies
about their interest in the VNS and any contact they had with EOUSA
officials about the system.




          26
         Once these cases are forwarded to a USAO for prosecution, the notifications
become the responsibility of the USAO and are then processed through the VNS.

                                        20
                            REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


     •     DEA officials stated that EOUSA approached the DEA when the
           VNS was first created, but the DEA declined to participate
           because the agency was worried about manpower, and issues
           related to system interface and security.

     •     An ATF official said that ATF special agents were interested in
           using the VNS, and he had requested information about the
           system from the VNS Project Manager. However, he stated that
           he did not receive a response to his inquiry and therefore the
           ATF had not had the opportunity to evaluate the benefits of
           using the VNS.

     •     USMS headquarters officials told us that EOUSA had not
           contacted the agency about participating in the VNS.

     •     The USSS does not have its own, or access to, any automated
           system to use for victim notification, and the USSS had never
           been contacted about joining the VNS. According to the USSS
           National Victim Coordinator, this is a concern because USSS
           cases are continually involving more victims. Therefore, the
           USSS official believed that joining the VNS was something that
           could be very helpful.

     •     The ICE official we interviewed stated that ICE had never been
           contacted about participating in the VNS and had no interest in
           doing so.

      According to EOUSA officials, the agency is planning to create a
universal interface that will allow all agencies with victim notification
responsibilities to utilize the VNS through a web-based portal. According to
EOUSA officials, creating this interface would eliminate the high cost of
customized connections and the need for prioritizing outreach efforts. We
agree with this plan and believe that it would eliminate the necessity for
government agencies to duplicate the infrastructure for victim notification
responsibilities.




                                21
                    REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


      Outreach for Court Event Data

      The Administrative Office of the U.S. Courts (AOUSC) does not
currently participate in the VNS, but EOUSA plans to connect the AOUSC’s
automated case management system to the VNS. 27 The purpose of adding
the AOUSC to the VNS is to link public, court-docketed events directly with
the VNS. This would eliminate the current need for USAO personnel
manually to enter this information into LIONS so that it can be uploaded to
the VNS. This manual process is time-consuming, increases the opportunity
for human error, and increases the chances that court event information in
the VNS may be incorrect, untimely, or never provided to the victim.

      The proposal to connect the AOUSC to the VNS was approved by the
AOUSC’s Judicial Conference on September 19, 2006, pending funding to be
provided by EOUSA. As of June 2007, EOUSA officials informed us that a
draft Memorandum of Agreement (MOA) between EOUSA and the AOUSC for
electronic VNS participation had been prepared and EOUSA was working on
acquiring funding to develop the necessary interface. The estimated start-
up cost for this endeavor was $800,000, and while EOUSA requested the
necessary funding from the OVC, it did not receive sufficient funding in
FY 2007’s allocation to fund the AOUSC data changes. Therefore, EOUSA
used its own appropriated funding to pay for the changes. The final step is
for the AOUSC to develop software to extract its data to be sent to the VNS.
The AOUSC estimates that developing this software will not be complicated
and will cost $31,854. In August 2007 EOUSA officials provided us with a
copy of the signed MOA between EOUSA and the AOUSC and noted that both
agencies are working together to make necessary changes to the VNS for
the connection.

       Although the proposal has been endorsed by the AOUSC, it only
addresses the development of the interface. According to EOUSA officials,
they also will have to obtain approval from the Chief Judge in each judicial
district to include court event information from that district in the VNS. Only
then will all court event information flow directly from the AOUSC to the
VNS. We believe that once the MOA is finalized and the interface is
developed, EOUSA should work with the AOUSC to pursue the necessary


      27
           The AOUSC is responsible for working with government agencies to coordinate
and implement new legislation and procedures and to develop and support automated
systems and technologies used throughout the courts. The AOUSC manages the federal
courts' case management and electronic case files system, which provides the courts with
enhanced and updated docket management; allows the courts to maintain case documents
in electronic form; and gives each court the option of permitting case documents such as
pleadings, motions, and petitions to be filed with the court over the Internet.

                                   22
                       REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


approvals from the Chief Judges so that all USAOs can benefit from the
electronic sharing of court docket information.

VNS Project Management and Succession Planning

       The VNS is managed by a single Project Manager. According to EOUSA
officials, there are no formalized succession or contingency plans to continue
the management of the VNS at the headquarters level should anything
happen to key personnel. EOUSA’s senior management informally discussed
with us a contingency plan that could be implemented if the VNS Project
Manager left. Yet, although it appears that EOUSA has considered how
management of the VNS would proceed in the absence of the Project
Manager, no formalized plan of action has been created. The amount of
decision-making authority and system knowledge concentrated in the
position makes the VNS Project Manager a critical person with responsibility
for the VNS’s uninterrupted day-to-day operations. We believe the
importance of the service the VNS provides to millions of victims warrants a
more concrete plan for the future. Thus, we believe it is important that
EOUSA develop a formalized plan that could be implemented in the case of
the current Project Manager’s departure.

       In addition, EOUSA does not have a formalized list of the future needs
of the VNS, including enhancements to the system, upgrades to the system,
replacement of outdated equipment, or growth of the system to meet the
needs of federal VNS users and victims. At the beginning of the audit,
EOUSA provided us with a list of future engineering changes, and since that
time, we have been provided a current list of engineering changes for the
VNS. Other than the engineering changes, however, EOUSA does not have
any formalized long-term plans for the VNS. When we spoke with EOUSA
officials about this in June 2007, they explained that all future plans for the
VNS are limited to the short-term because of the upcoming expiration of the
contract on September 30, 2007. However, in August 2007 EOUSA officials
advised us that it has been developing a succession plan that will address
any contingency issues.

Conclusion

      We reviewed several aspects of VNS operations to evaluate EOUSA’s
management of the system. We found that federal VNS users were
generally satisfied with the services being provided by the contractor and
sub-contractor, and these users, on the whole, found the VNS Call Center to
be helpful. However, we determined that limitations in the software used to
track calls to the VNS Call Center prevented EOUSA from conducting detailed
analyses of suggestions for improving the VNS. While EOUSA has stated

                                 23
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


that it has addressed this issue with a software upgrade, we believe it is
important for the agency to implement all of its planned enhancements.

      We also found that there are few internal controls to ensure the
accuracy and completeness of information in the VNS. Most importantly,
this means that victims whose contact information in the VNS is incorrect or
unavailable could be missing the opportunity to attend court events or be
updated on defendant status. We attempted to contact over 2,700 victims
as part of a victim survey, and in 18 percent of these instances, our
correspondence was returned as undeliverable.

      Further, VNS data, which dates back to October 2001, has never been
archived and storage space on the VNS server has been filled to almost
80 percent of its capacity, a situation that has affected both data access
speed and performance of the system. Also, although EOUSA has informed
us that instead of archiving VNS data, it plans to expand the capacity of the
system to alleviate the need for archiving, EOUSA has not yet established a
formalized schedule or plan for doing so.

      In addition, EOUSA has performed outreach to a limited number of
federal agencies, selecting those agencies that have the most victims to
keep informed, such as the USPIS. EOUSA is in the process of developing a
universal interface that would allow all federal investigative agencies to
upload victim information directly to the VNS. EOUSA is also currently in the
process of establishing a connection between the AOUSC and the VNS, which
would allow court information to flow directly to the VNS, thus improving the
accuracy of court-related data and reducing the amount of manual labor
required.

      Finally, there are no formalized succession or contingency plans in
place to ensure continuity of the VNS if the Project Manager who directs the
VNS leaves his position.

Recommendations

We recommend that EOUSA:

      1.    Develop a written plan to: (1) archive VNS data, which should
            include a schedule for the initial archiving, parameters for
            subsequent archiving, and the criteria it will utilize to determine
            the records ready for archiving; or (2) acquire new equipment
            that will resolve the capacity issue.



                                24
                    REDACTED FOR PUBLIC RELEASE
             REDACTED FOR PUBLIC RELEASE


2.   Ensure that it is utilizing the newer version of the Tracker
     software, called Front Range, to allow for a more user-friendly
     data extraction and reporting function. Further, ensure that
     Front Range’s feature that automatically e-mails the caller upon
     the closing of a ticket has been enabled and is being utilized to
     the fullest extent.

3.   Develop a universal interface for federal investigative agencies to
     upload data directly to the VNS.

4.   Work with the AOUSC to develop the hardware to connect the
     VNS and the AOUSC, develop a plan to connect individual federal
     court districts to the VNS using this interface, and endeavor to
     ensure that all federal districts are connected to the VNS.

5.   Work with VNS-participating agencies to develop and implement
     procedures for federal VNS users to ensure that victims’ contact
     information is current and updated.

6.   Develop long-range plans for the VNS and its management that
     include: (1) future software and hardware upgrades,
     (2) replacement of outdated equipment, (3) expansion of VNS
     server storage capacity, (4) a projection of enhancements
     needed to account for the future needs of government and
     victim users, and (5) a formal succession plan for VNS project
     management.

7.   Work with VNS-participating agencies to develop and implement
     a nationwide procedure for addressing undeliverable
     correspondence and e-mail.




                         25
             REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


II. THE VNS’s EFFECTIVENESS FOR VICTIMS

      Overall, the victims who responded to our survey were
      generally satisfied with the VNS and indicated that they
      felt VNS notifications were useful and easy to understand.
      However, our survey identified areas where improvements
      in the VNS could be made. Most notably, 25 percent of
      our survey respondents indicated that they had not heard
      of the VNS prior to receiving our survey, had never
      received a notification, or were not aware that they were
      registered as victims in the VNS. Further, although EOUSA
      encourages victims to obtain case information through the
      VNS website, only a small percentage of our respondents
      actually utilized it. Accessing the VNS website can be
      confusing and some victims find it difficult to navigate.
      Moreover, a large number of victims who responded to our
      survey were dissatisfied with the amount of information
      available to them regarding restitution and believe that
      knowing the custody status of offenders is important. We
      also determined that government VNS users can change a
      victim’s VNS participation status from active to inactive
      without recording a reason for doing so, and without
      notifying the victim. We identified a significant number of
      victims who have been opted-out of the VNS with no
      reason recorded.

Background

      To assess the VNS’s effectiveness and victim satisfaction with the
system as a whole, we conducted surveys of both active and inactive users
to examine their level of satisfaction with the VNS. Additionally, we
reviewed a 2003 BOP survey of its own VNS users. We also conducted our
own review of VNS services from the perspective of a victim active in the
system. Specifically, we requested and were provided a test victim account
that we used to access the VNS victim-user website, known as the Victim
Internet System (VIS), and the VNS Call Center’s automated and staff
assistance.

VNS Active Victim User Satisfaction

      Our survey of victims identified as being active in the VNS covered
many different aspects of the system, including the notification process, use
of the VIS, and interaction with the VNS Call Center. From a universe of
618,203 victims active in the VNS during FYs 2005 and 2006, we selected a

                                26
                    REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


stratified sample and mailed out surveys to 2,762 victims. We received
691 responses for a 25-percent return rate. We reviewed these submissions
and identified 531 valid responses upon which we conducted our subsequent
analyses. 28

      Overall, we found that our victim respondents were generally satisfied
with what is provided to them through the VNS and that they found VNS
services, such as the Call Center and the VIS, relatively easy to use.
However, we identified areas of concern in our respondents’ knowledge of
the VNS’s existence, overall use of the VIS by victims active in the system,
and information provided in the area of restitution.

Victim Notifications

      In our survey, we solicited comments from victim respondents
regarding notifications of case information from the VNS and found that
173 (25 percent) of the original 691 survey respondents indicated that they
did not know about the VNS, had never received a notification, or were
unaware of their status as a victim of a federal crime. Further, some of
these respondents reported that our survey was the first piece of
correspondence they believed they had received regarding the VNS, and
thus they had no idea why they had received the survey.

       The number and nature of these comments is troubling. Based upon
our analysis, it appears that there are a significant number of federal crime
victims who have no knowledge that their personal information is contained
within such a government database. We are aware of the statutory
requirements that victims be notified of events that occur in their cases
(and, thus, require that their information be contained in the VNS).
However, in addition to the legal requirement to include them in the VNS, it
is also important that EOUSA ensure that victims: (1) are aware that they
are victims of a federal crime, (2) are aware that their personal information
is contained within the VNS, and (3) have been afforded the opportunity to
decide whether they wish to receive notifications of events that occur within
their cases.

     In light of victims’ comments, we reviewed notification data provided
by EOUSA. According to EOUSA, at the time we deployed our survey each of




      28
         Additional information on this survey’s scope and methodology can be found in
Appendix VII.


                                   27
                       REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


the 173 respondents had been sent between 1 and 160 notifications, with
the average number of notifications sent being 18. 29

       The fact that a quarter of our respondents indicated they did not know
they were victims, despite the fact that EOUSA indicated that the individual
had been sent at least one notification, indicates that the VNS might not be
as effective as possible at keeping victims informed of case events. These
results are similar to comments from the 2003 BOP survey of its employees
who utilized the VNS. According to that survey’s results, BOP users noted
that in large fraud cases many victims were surprised by the notifications.
In other instances, BOP users reported receiving calls from victims who
indicated that they did not understand why they were being contacted and
did not know anything about the inmate referred to in the VNS notification
that was sent to them.

        We spoke with EOUSA officials about this issue and they acknowledged
that they have no formal follow-up process to ensure that victims receive
notifications from the VNS. In contrast to EOUSA, the BOP has formalized
initial notification quality control procedures included in their policies and
procedures for the VNS. According to BOP policies, BOP staff perform
follow-up work subsequent to sending notification correspondence to victims
by ensuring each victim receives the notification. If the victim’s preferred
method of contact is unsuccessful, BOP staff are required to follow up with a
notification letter to the victim.

      According to EOUSA officials, sending follow-up letters would be overly
burdensome on federal VNS users, and EOUSA was moving towards using
the VIS as an alternative to written notification. However, we believe that,
because the purpose of the VNS is to notify victims, the responsibility to do
so should not end with making sure notifications are sent. Further, because
our survey also identified that relatively few respondents were actively using
the VIS, we believe EOUSA should take steps to ensure that victims are
receiving at least their initial notifications, including improving its efforts to
update victim contact information and addressing undeliverable
correspondence and e-mail. 30




      29
         The data on notifications sent includes information provided via numerous
methods, including letter, e-mail, or posting on the VNS website, VIS.
      30
          Information about victim use of the VIS, which we obtained through our survey,
begins on page 31.

                                   28
                       REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


      Understanding Notifications

       The format of the notification letters sent to victims is standardized.
Prior to February 2006, federal VNS users were able to edit the text and
adjust the format of the notification letters. EOUSA removed this editing
capability to ensure that all notifications sent to victims contained necessary,
standardized language. Although federal VNS users can add additional
information to a letter, they cannot alter the format to ensure that it fits with
the specific case for which it is being sent.

       During the course of our audit, we spoke with federal VNS users and
the VNS Call Center about the notifications. Many noted that information in
notifications became confusing and sometimes contradictory when various
types of notifications were combined in the same letter, and that the
standard templates allowed little room to change information to clarify or
correct the letters. Some also believed that letters generated by the VNS
are vague and impersonal and can be insensitive to victims. Moreover, Call
Center personnel told us that 70 to 80 percent of victims who contact the
VNS Call Center do not know why they have been sent these letters, and
that the letters do not clearly indicate that recipients are receiving the
correspondence because they have been identified as victims of a federal
crime.

       The VNS Project Manager told us the standard templates were created to
ease the notification burden for federal VNS users and allow them more time to
assist victims in other ways, such as FBI Victim Specialists who provide other
social services directly to victims in the field. According to EOUSA officials, they
are aware that changes to the standard letters have been requested, but they
said that certain language is required and the information currently conveyed is
designed to provide the required information in a brief and accurate manner.
EOUSA officials also noted that they have revised the standard language of the
notifications once, at the behest of and with input from government VNS users.
Moreover, the current template allows federal VNS users to add as much
additional text to any of the standard language as necessary to help clarify the
event for the victims. EOUSA officials also stated that they will make
constructive revisions to the standard language of the notifications as necessary
to meet statutory notification requirements.

      In light of this issue, we asked survey respondents to indicate how easy it
was to understand the information provided in the notifications they received.
As shown in the following table, more than 80 percent of the responses
indicated that the notifications were at least understandable, while less than
20 percent indicated that they found the notifications difficult to understand.


                                 29
                     REDACTED FOR PUBLIC RELEASE
                           REDACTED FOR PUBLIC RELEASE



                    How easy is it for you to understand the information
                                     in the notifications?
                                     Number of          Percent of           Grouped
                Choices
                                    Respondents        Respondents         Percentages

   Very Easy to Understand              119                  26


      Easy to Understand                120                  26                 82


            Understandable              134                  30


     Difficult to Understand              51                 11

            Very Difficult to
                                          8                  2                  18
              Understand

     Extremely Difficult to
                                          21                 5
          Understand

                Totals                 453 31               100                100
   Source: OIG survey of active victims

       Usefulness of Notifications

      We also asked the respondents to our survey about the usefulness of
the information provided in the notifications. As shown in the following
table, we found that almost half (48%) of the 448 victims who responded to
this question found notifications to be useful to some degree, while 69 of the
448 respondents (15%) indicated they were not useful.




       31
           Out of the 531 overall valid responses to our survey, 453 respondents answered
this particular question, while 78 did not. Thus, we excluded from the analysis depicted in
this table the 78 survey respondents who did not respond to this question.

                                       30
                           REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


              Overall, how useful was the information provided to you
                               in the notification(s)?
                                    Number of          Percent of           Grouped
              Choices
                                   Respondents        Respondents         Percentages
         Very Useful                    68                 15
                                                                                48
            Useful                      148                33
           Neutral                      163                36                   36
         Not Useful                     37                  8
                                                                                15
       Not Useful at All                32                  7
           Totals                      448 32             100 33              10033
       Source: OIG survey of active victims

The Victim Internet System

      As previously noted, the VIS is a web-based application that allows
victims to have access to a subset of VNS data via the Internet. To
determine the effectiveness of the VIS for victims, we included questions
about the VIS in our victim surveys. We also utilized our test victim account
and conducted our own testing of the VIS to assess how easy or difficult it
was to use.

      In analyzing the completed surveys, we observed that only 98 of the
531 victims who returned valid responses indicated that they accessed the
VIS to review their case information. 34 This 18-percent VIS usage rate may
be of concern to EOUSA, as officials informed us on more than one occasion
that EOUSA prefers and has attempted to encourage victims to utilize the
Internet-based VIS instead of relying on written notifications or the Call
Center.

       Accessing the VIS

      As shown in the following graphic, which depicts the frequency with
which the 98 victim respondents indicated that they had accessed the VIS,
27 victims (28 percent) stated that they had not accessed the website since



       32
           Out of the 531 overall valid responses to our survey, 448 respondents answered
this particular question, while 83 did not. Thus, we excluded from the analysis depicted in
this table the 83 survey respondents who did not respond to this question.
       33
            The numbers in these columns add up to 99 due to rounding.
       34
         We conducted all of our analyses related to the VIS on this universe of
98 respondents who indicated that they accessed the VIS to review case information.

                                     31
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


they first set up their account while 45 percent of the respondents used it
monthly or quarterly.

    How often have you accessed the VNS website (VIS) for information?




                                            Never Accessed
                          Annually            After Setup
                            16                     27



                                                      No Response
                                                           5

                                                         Weekly
                           Quarterly                       5
                             31
                                               Monthly
                                                 14




                       Source: OIG survey of active victims

      In our survey, we also asked victims how easy or difficult the process
was to set up their website accounts. As shown in the following chart, the
majority of the victims (58 out of 98) who accessed the website found
setting up their user accounts to be easy while 14 victims found it somewhat
or very difficult.




                                32
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


                 How easy or hard was the process to set up
                     your VNS website (VIS) account?




                                         Very & Somewhat
                                               Easy
                                                58

                   No Response
                        4

                     Very & Somewhat
                           Hard
                            14
                                       Neither Hard nor
                                             Easy
                                              22




                        Source: OIG survey of active victims

      Despite this relatively positive overall response, some of the
responding victims commented on problems they encountered with the
process. Their comments included: “I tried to access the VNS website, but
was unable;” “I received the VNS letter, but [the] letter has no VIN number
or PIN number;” and “[I need] easier access to [the] website.”

        We also utilized our test victim status to set up a VIS user account. In
doing so, we noted that the process includes steps that could be confusing
for victims. Specifically, notification letters advise victims to use their Victim
Identification Number (VIN) and Personal Identification Number (PIN)
anytime they contact the Call Center or log on to the VIS. When we
accessed the VIS, we were clearly requested to input our VIN. However, we
were not clearly asked for the PIN. Rather, we were asked for our VNS
Login ID (Password) to enter the website. EOUSA officials explained that the
first time a victim logs into the VIS, they need to use their PIN as the VNS
Login ID. Victims are then prompted to create a VNS Login ID for future
access to the VIS. The originally issued PIN, however, remains active for
access to the VNS Call Center. None of this was explained on the VIS
website, nor in the letters. EOUSA officials stated that they will undertake a
review of VIS access to improve these controls and work to explain this
procedure in more detail.


                                 33
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


     Comprehension of VIS Data and Ease of Navigation

      We also addressed the comprehensibility of information in the VIS in
our victim survey. We asked victims how easy it was for them to
understand the information on the website, and found that only 9 out of
98 respondents indicated that the information was difficult to understand,
while the majority found the information easy to understand.

           How easy was it for you to understand the information
                       on the VNS website (VIS)?


                                    No Response
                                         10

                         Difficult to
                         Understand
                              9



                                                   Easy to
                                                  Understand
                        Neither Easy nor              56
                            Difficult
                               23




                      Source: OIG survey of active victims


      In addition, we analyzed our survey results to determine the ease with
which victims navigated the VIS. According to the responses we received,
only 11 of the 98 respondents found navigating the VIS to be difficult.




                                34
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


            How easy or hard is it to navigate or find information
                      within the VNS website (VIS)?




                                              Very &
                                           Somewhat Easy
                                                56



                       No Response
                            8


                            Very &
                         Somewhat Hard
                              11          Neither Hard nor
                                                Easy
                                                 23




                       Source: OIG survey of active victims

     Usefulness of VIS Information

       One survey question asked victims if they thought the information
provided on the VIS was useful. As depicted in the following graphic, one-
half of the respondents found information on the VIS to be useful, while only
seven victims indicated the information was not useful.

           Overall, how useful is the information provided to you
                        on the VNS website (VIS)?




                         No Response              Very Useful -
                              13                     Useful
                                                       49
                       Not Useful
                           7




                                     Neutral
                                       29




                       Source: OIG survey of active victims

                                35
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


       Restitution

      In our conversations with EOUSA officials, they stated that victims
frequently asked about restitution.35 In light of this, we included questions
about the level of satisfaction victims had in regard to restitution information
available on the VIS. Of the 98 respondents who utilized the VIS,
39 (40 percent) indicated that they accessed the website for information
regarding restitution. Of those respondents, 56 percent were dissatisfied or
extremely dissatisfied with the restitution information they received from the
VIS. This analysis is shown in the following chart.


    How satisfied were you with the restitution information you received?




                                      Satisfied - Extremely
                                            Satisfied
                                                15

                      No Response
                           2




                                           Dissatisfied -
                                       Extremely Dissatisfied
                                                22




                           Source: OIG survey of active victims

      Many of the respondents who indicated that they were dissatisfied with
the restitution information provided additional comments, such as:

       •      I received little notice, not restitution, not even updates. I had
              to send in victim information on more than 2 occasions – and I
              currently don't know if I'll get any of my money back.


       35
           Restitution is defined on the VIS as a court order directing the defendant to pay a
fixed amount of money to the victim in order to compensate the victim for loss incurred as a
result of the crime.

                                    36
                        REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


      •     I seemed to get the "run around." There were no direct answers
            to my questions regarding restitution. The only thing that I was
            told was that they were proceeding with the investigation and I
            would be informed and updated. I haven't heard anything in a
            couple [of] years.

       Because of the concern regarding restitution information noted by
EOUSA and reaffirmed by the response to our survey, we used our test
victim account to review restitution information provided in the VIS. We
found that the information in the VIS related to restitution was not clearly
written. Specifically, it was not apparent from the information available on
the website whether or not our test victim was awarded restitution, and we
believe that it would have been helpful if the VIS clearly indicated whether
our case had restitution considerations. We discussed the restitution issue
with EOUSA officials, who noted that informing victims that they are not
receiving restitution is not required. However, EOUSA officials stated that
they will change the language in the VIS “help” section to indicate that
restitution information will only appear as that information is approved by
the USAOs. Considering the importance that responding survey victims
placed on restitution, we believe that the VIS could be improved by clearly
indicating whether or not a case had restitution considerations, and we
encourage EOUSA to make the described changes to language in the VIS to
further clarify this matter to victims.

The VNS Call Center

       In addition to the Internet-based VIS, a Call Center is maintained
where victims can call a toll-free number and receive assistance via an
automated response system or speak with an operator to receive
information. While the automated system provides automated readings of
notifications and gives victims the option to access other services available
through the automated system, operators who staff the live assistance
option can provide victims answers to a limited number of questions, direct
victims where to call for further information, and provide information to
federal VNS users.

      We included questions about victims’ experience with the VNS Call
Center in our survey of victims identified as active in the VNS. Initially, we
asked victims whether they called the toll-free number for Call Center
assistance and found that only 59 (11 percent) of the 531 valid victim
responses indicated that they had called the toll-free number, while
383 (72 percent) responded they had not done so. We then assessed the
responses from the 59 victims who responded that they had called the toll-
free number and determined that 29 indicated that they had terminated

                                  37
                      REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE


their calls before receiving assistance for a variety of reasons.

      We also reviewed our response data to determine what type of Call
Center assistance our respondents had utilized: automated assistance, staff
assistance, or a combination of both. As shown in the following table, we found
that of the 59 respondents who had utilized the Call Center, 22 used automated
assistance, 20 used staff assistance, and 15 utilized a combination of both. 36

               What type of assistance did you receive from the Call Center?
                 Type of Assistance                Number       Percentage 37
             Automated                               22              37
             Operator                                20              34
             Both                                    15              25
             No Answer                               02              03
            Source: OIG survey of active victims

      In order to capture all of the victims utilizing a particular type of assistance,
we included the 15 victims who indicated they had utilized both types of Call
Center assistance in our separate analyses of automated and operator assistance.

       Automated Assistance

      As noted in the preceding table, of the 57 victims using Call Center
services, 37 (65 percent) used automated assistance or a combination of
automated and operator assistance. Additional questions answered by these
37 victims indicated that while 12 of them (32 percent) always or often
received information, 15 (41 percent) responded that they never or rarely
received information, and 5 (14 percent) only sometimes received
information.




       36
         Two of the 59 respondents who indicated that they had called the toll-free
number did not respond to this question.
       37
            The numbers in this column add up to 99 due to rounding.

                                      38
                          REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


                Did you receive the information you wanted
                       from the automated system?



                               No Response
                                    5            Always
                                                    7




                           Never                          Often
                             9                              5



                                                 Sometimes
                                                    5
                                     Rarely
                                       6




                      Source: OIG survey of active victims


      We also asked our survey respondents about the ease with which they
were able to access information about their cases by using the automated
system. As shown in the following chart, the majority of respondents – 21 –
(57 percent) indicated that they found the automated system to be at least
somewhat easy to use, while 11 respondents (30 percent) indicated that
accessing information was not easy.

    How easy is it to access information through the automated system?



                               No Response
                                    5

                                                 Very Easy &
                                                    Easy
                                                      13
                         Not Easy & Not
                           Easy at all
                               11


                                          Somewhat Easy
                                               8




                      Source: OIG survey of active victims




                               39
                   REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


      In response to our questions regarding what additional information the
respondents would like to be able to receive from the automated assistance
service, victims generally indicated that they would like current and more
case information, such as restitution and custody status. Additionally, they
would like to be able to easily gain access to a human operator from the
automated assistance.

      Similar to our evaluation of the VIS, we used our test victim account to
assess the automated assistance provided by the VNS Call Center. We were
able to access some of the automated features and identified areas that we
believe could cause confusion for victims attempting to utilize these
functions. For example, we noted some confusion in the numbers a victim
needs to press in order to access certain VNS services. At the first prompt,
the caller must press “2” to hear information in Spanish. Another prompt
instructed the caller to press “2” at anytime during the message to return to
the main menu. However, when we pressed “2,” we were not directed to
the beginning menu option. Rather, pressing “2” prompted an automated
message that advised us to call the number on our initial notification letter if
we needed assistance, and also advised us we could go to the website.
Additionally, once we entered the automated system and made our first
selection, there was no means for us to speak with an operator aside from
hanging up and calling back.

      Moreover, events were listed by defendant but not all historical events
were provided, although this information was provided when we used the
VIS. There also was no information available for any government-contact
personnel working on a case. In addition, the automated assistance spelled
out rather than said each defendant’s name. As a result, it was a very long
process to get to the defendant’s information.

       Overall, from the results of our survey as well as our own testing, we
found that accessing the VNS’s automated assistance could be challenging.
The automated assistance was sometimes confusing, information available
was limited in comparison to information available for the same case via the
VIS, and obtaining the information could be a lengthy process. We believe
that EOUSA should take necessary steps to improve the automated
assistance system and make it more user-friendly for victims. At a
minimum, users should be able to access an operator at any time during the
call by pressing a single key, such as “0.”

      Call Center Operator Assistance

     In addition to the Call Center’s automated assistance, our victim
survey included questions regarding the use of Call Center operator

                                 40
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


assistance via its toll-free number. According to Call Center staff, they can
provide contact information for further assistance and provide case-specific
information related to 10 areas:

     1)     Current offender custody status
     2)     Current investigative status of case
     3)     Arrests made in the case
     4)     Sentencing information
     5)     Pleas made by defendant
     6)     Type of next court event
     7)     Date of next court event
     8)     Time of next court event
     9)     Inmate location
    10)     Inmate scheduled release date

      As indicated in the chart on page 38, we found that 35 of the
59 victims who indicated that they utilized Call Center services also indicated
that they had utilized the Call Center’s operator assistance. For this
analysis, we evaluated information provided by these 35 respondents who
had utilized the operator assistance. As shown in the following chart,
16 respondents (46 percent) indicated that they always or often received the
information they wanted, while only 6 respondents (17 percent) indicated
that they never or rarely received the information.

                Did you receive the information you wanted?
                     (from Live Call Center Assistance)


                               No Response
                                    5




                        Never & Rarely        Always & Often
                              6                    16




                                  Sometimes
                                     8




                       Source: OIG survey of active victims



                                41
                    REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


      We also solicited comments from the survey respondents about the
Call Center’s operator assistance. We found that 14 out of 29 respondents
indicated that they were dissatisfied with the system because: (1) it lacked
information regarding restitution; (2) it did not contain the updated
information on the case or the custody of the defendant; and (3) the system
generally did not have enough information and assistance. 38

       In response to these comments, EOUSA stated that the Call Center
service level for victims is appropriate given the goals of the VNS project and
the information available to individuals at the Call Center. Those goals are
to provide victims the information required by the applicable statutes and
the Attorney General Guidelines for Victim-Witness Assistance. EOUSA
officials further explained that when victims have questions beyond the
scope of VNS-related events, Call Center personnel direct the caller to the
victim staff person of the agency currently involved with the case. This
ensures that the victim speaks with someone who is familiar with the facts of
the case and can provide the most up-to-date, accurate information,
including information that is not available in the VNS.

      We identified several additional issues when we performed our own
evaluation of the Call Center’s operator assistance. For example, we found
that the only opportunity a victim has to speak with an operator occurs at
the beginning of the call. If a caller does not immediately select that option
(perhaps before the caller has received much information or had the time to
develop questions), the caller must hang up, call back, and select to speak
with a human operator at the outset of the call.

      Another issue we identified is that, according to the VNS contract, a
victim must have the option of speaking directly with a Call Center operator
to be able to obtain case information in either English or Spanish. However,
as of June 2007, the Call Center had only a single Spanish-speaking operator
on staff, meaning that there are times each day when the Call Center is
unable to provide this service to victims. According to EOUSA officials,
subsequent to our discussion, they informed the contractor of the
requirement that a Spanish-speaking operator must be on duty during all
Call Center operating hours. As a result, the contractor is now planning to
add another Spanish-speaking operator to the Call Center.

      In sum, while some victim survey respondents commented on their
displeasure with the Call Center’s operator assistance, the majority of our


      38
         Respondent comments on Call Center operator assistance can be found in
Appendix IX.


                                  42
                      REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


survey respondents indicated that they received the information they
needed. However, based on our testing, we believe EOUSA could improve
the effectiveness of the Call Center’s operator assistance by allowing callers
to access a human operator at more points during a call, having a Spanish-
speaking operator on duty during all hours of operation, and by allowing Call
Center operators to provide more information to victims who contact them.

Availability of Custody Status Data

       Access to defendant custody data is one of the most important
features of the VNS. The Attorney General Victim Witness Guidelines direct
agencies to notify victims of the release or escape of an offender or
suspected offender. However, the USAOs do not consistently enter
defendant custody status information into the VNS during the prosecutorial
phase. 39 The VNS Project Manager stated that the USAOs do not
consistently enter into the VNS custody status information on defendants
during the criminal justice process and obtaining this information is not a top
priority for the VNS.

      We included questions about the importance of custody status in our
survey of victims active in the VNS. As shown in the following graphic,
375 out of the 531 victims who responded to this question (71 percent)
indicated that they considered knowing the custody status of the defendant
to be “Extremely Important,” “Very Important,” or “Important.”




      39
          During the prosecutorial phase, a defendant may be released on bond or
remanded into the custody of the respective U.S. Marshal to stand trial. Once a defendant
has been convicted, sentenced, and remanded to a BOP correctional facility, the defendant
moves to the incarceration phase and the provision of custody status information becomes
the responsibility of the BOP.

                                   43
                       REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


 How important is it for you to know the custody status (incarcerated or not
        incarcerated) of the defendant(s)/inmate(s) in your case?


                    Important-Extremely
                        Important
                            375




                                          Not Important
                                               121




                                                           No Response
                                                                35

 Source: OIG survey of active victims

       The USMS is the only entity that tracks the pre-sentencing custody
status of federal defendants. We believe that it is important for the custody
status of defendants in the prosecutorial phase to be provided to victims, as
required by DOJ guidelines. We raised this issue with EOUSA officials in
June 2007, noting that we were told by USMS officials that the USMS had
never been approached by EOUSA to connect to the VNS. In response,
EOUSA officials stated that funding an electronic interface between the VNS
and the USMS was an issue, but requested contact information for the USMS
officials we interviewed.

      In August 2007, EOUSA officials advised us that providing custody
status to victims would be a priority and that they had reached out to the
USMS regarding this issue. According to EOUSA, the USMS is willing to
provide custody status information to VNS. Further, EOUSA has provided
direct appropriated money to fund any system changes that will be needed
to accept data from the USMS.



                                  44
                      REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


Victims No Longer Active in the VNS

      In addition to surveying active victims, we conducted a survey of
victims who were no longer active in the VNS. These victims had once been
active in the VNS, but had, for a variety of reasons, been “deactivated” and
were now in an “opt-out” status. 40 We designed this part of the survey to
determine whether the opted-out victims received an initial notification from
a federal agency regarding the VNS and whether they subsequently chose
not to receive notifications.

      Victims may choose to “opt-out” of the VNS themselves or be opted-
out when a federal VNS user chooses to stop sending them notifications.
The VNS contains a field that offers one of four options that may be chosen
to record the reason a victim is opted-out, as follows:

       •      Contact Choice indicates that the victim chose to be opted-out.
              Federal VNS users issue letters to these victims confirming they
              have been opted-out of the VNS.

       •      Invalid Address indicates the victim was opted-out due to an
              invalid address or letters that could not be delivered. Because of
              incorrect addresses there is no letter sent to alert the victim that
              they were opted-out of the system.

       •      User Choice indicates the federal VNS user has decided to opt a
              victim out of the VNS. However, federal VNS users do not send
              letters alerting victims that they were opted-out of the system.

       •      No Longer a Victim indicates that the federal VNS user
              determined the person who was originally notified of being a
              victim is no longer considered one.

      Through our analyses of VNS data, we determined that
164,493 victims were opted-out of the system between the VNS’s inception
in October 2001 and September 20, 2006. We further analyzed the data to
determine the reason these victims were opted-out of the system.




       40
          According to the VNS Manual, “opt-out” indicates the status of a registered victim
or contact who does not receive notifications and cannot access the VNS Inbound phone line
or Internet web page. Although these victims are no longer considered to be active in the
VNS, their names and information remain in the system.

                                    45
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


                   VICTIMS OPTED-OUT OF THE VNS
                  October 2001 to September 20, 2006
                               Number of
         Opt-Out Reasons      Registrants        Percentage
         Contact Choice              4,144              3%
         Invalid Address            79,597             48%
         User Choice                28,486             17%
         No Longer a Victim             17             <1%
         No Reason Given            52,249             32%
         Total                    164,493             100%
         Source: OIG analysis of VNS data

      We are concerned with the high number of victims identified as opted
out due to invalid address information. This number is in addition to our
other findings related to undeliverable mail and incorrect contact
information. We believe that these opted-out victims with invalid address
information are further evidence that EOUSA needs to improve its efforts to
maintain up-to-date contact information, as recommended in Finding I.

       We are also concerned with the high percentage of victims opted out
of the VNS with no reason given. We discussed this issue with EOUSA
officials, who confirmed that it is not mandatory to include in the VNS the
reason a victim is opted-out. We believe that because there is no
requirement for recording why someone was removed from the VNS, there is
no easy means available to review a record to ensure that the victim was
opted-out for a valid reason.

     To maximize our response rate from those victims more recently
opted-out of the system, we identified 71,179 victims who were opted-out of
the VNS during the 2 full fiscal years prior to our analysis – 2005 and 2006.
As shown in the following table, 73 percent of these 71,179 victims were
opted-out of the VNS due to an invalid address, while 10 percent were
opted-out with no reason provided.




                                 46
                     REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


                     VICTIMS OPTED-OUT OF THE VNS
              October 1, 2004, through September 30, 2006
                                 Number of
           Opt-Out Reasons      Registrants    Percent Value
           Contact Choice              1,580              2%
           Invalid Address           52,029             73%
           User Choice               10,548             15%
           No Longer a Victim             56            <1%
           No Reason Given             6,966            10%
           Total                    71,179             100%
           Source: OIG analysis of VNS data

       We then analyzed this data, selected a sample, and sent surveys to
480 victims. 41 We received 58 responses to our survey, resulting in a
12-percent response rate. 42 We then analyzed these 58 responses and
isolated 44 out of the total that we considered to be valid.

      We conducted analyses on these 44 responses and determined, as the
following graphic shows, that only 18 percent (8 respondents) chose not to
receive notification information.

               Did you choose not to receive notification from the
                          Victim Notification System?




                                              Do Not Recall
                                                   10


                                     No
                                     26                Yes
                                                        8




                   Source: OIG survey of victims opted-out of the VNS


      41
          A detailed description of our opt-out survey’s scope and methodology can be
found in Appendix VIII.
      42
          Of the 480 surveys that we sent out, 58 percent (280) were returned as
undeliverable.

                                   47
                       REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


      Furthermore, only three of our respondents (7 percent) indicated that
they were informed by a federal agency that they were opted-out of the VNS
and would no longer receive notifications.

    If it was not your choice, were you informed by a federal agency that
                   you would no longer receive notification?




                                 No
                                                No Response
                                52%
                                                    41%




                                          Yes
                                          7%



                 Source: OIG survey of victims opted-out of the VNS

       Overall, based on the high rate of undeliverable surveys, as well as the
relatively low overall response rate, our survey of opted-out victims did not
provide clear evidence about why victims opt-out of the system. However,
we found that the majority of our respondents who did not choose to opt-out
were not informed by a federal agency that they would no longer receive
notifications from the VNS.

Conclusion

       To gauge if victims are effectively being notified by the VNS of
important case-related information, we conducted a survey of victims
considered to be active in the VNS, utilized VNS services from a victim’s
perspective by using a VNS test user account, and interviewed federal VNS
users and VNS Call Center personnel. In general, the victims who responded
to our survey were satisfied with the VNS and indicated that they felt VNS
notifications were useful and easy to understand.

      However, we identified areas in which we believe EOUSA could
improve the services the VNS provides to victims. For example,
approximately 25 percent of our victim respondents were unaware of the
VNS, had never received a notification, or were unaware of their status as a
victim of a federal crime, despite having been sent at least one VNS


                                 48
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


notification. These results indicate that many victims may not have been
notified of case events.

       Our interviews with government VNS users and Call Center personnel,
as well as our own review of notifications provided to victims, found that
notifications sent through the VNS did not always provide enough
information to victims and that the standardized language within them can
sometimes limit the effectiveness of the information provided.

       From our survey, we determined that while the VNS website generally
provides useful and understandable information to victims, the process and
requisite passwords required to access it can sometimes be confusing and
difficult. Additionally, we found that our respondents desired more
information regarding restitution than what was provided on the website.
Through our survey, we also determined that only a small portion of our
respondents were using the VNS website – VIS – to obtain information about
their cases.

      We also surveyed victims about their use of the Call Center and
performed our own testing of Call Center services to determine if the
services it provides are effective. We found that the automated assistance
was difficult to access, limited information was available to the caller, and
the system was difficult to navigate and not user-friendly. We also found
that the operator assistance option only allowed a person one opportunity to
reach a human operator (and then only at the beginning of the call), a
Spanish-speaking operator was not available during all hours of operation,
and operators provided little information.

      In addition to those victims considered to be active in the VNS, we also
analyzed data on and conducted a survey of those victims who had
previously been active in the system but were no longer active (referred to
as “opted-out” in the VNS). We found that the VNS allows federal VNS users
to opt a victim out of the system without recording a reason for doing so.
According to data in the VNS, as of September 20, 2006, more than
160,000 victims had been opted-out of the VNS since its inception, with
more than 50,000 of them having been opted-out with no reason recorded.
We are concerned that because there is no requirement to list a reason,
there is no easy means to determine if the decision to opt-out a particular
victim was proper.




                                49
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


       Our survey of victims opted-out of the VNS found that the majority of
the individuals who responded to our survey indicated that it had not been
their choice to be opted-out of the VNS and that most were not informed by
a federal agency that they would no longer receive notifications from the
VNS.

Recommendations

We recommend that EOUSA:

     8.    Improve the Call Center automated assistance to allow callers to
           reach an operator at any point during a call.

     9.    Follow up with the sub-contractor at the VNS Call Center to fulfill
           its requirement to have a Spanish-speaking operator available
           during all hours of operation.

     10.   Work with the USMS to ensure that the accurate custody status
           of defendants is available to victims utilizing VNS services.

     11.   Ensure that information regarding restitution is consistent
           throughout the VIS so that it is clear to victims whether
           restitution information is available to them.

     12.   Work with VNS-participating agencies to develop a requirement
           for federal VNS users to record a reason for opting a victim out
           of the VNS.




                                50
                    REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


III. REVIEW OF VNS INFORMATION SECURITY

       We evaluated the VNS’s information security and privacy
       policies and identified various deficiencies, including
       EOUSA’s implementation of systems and communications
       protection controls, identification and authentication,
       website privacy, and web application controls. As a result,
       the VNS may be susceptible to unauthorized use, access,
       or data modification. Because the VNS contains personally
       identifiable information (PII) for federal crime victims, such
       as names, contact information, and some social security
       numbers, EOUSA must improve its information security
       practices to help ensure that the data is appropriately
       protected against loss and misuse.

Background

       During our interviews with VNS contractor personnel, we were
informed that some recommended security patches for the system had not
been installed because the patches had not been approved by EOUSA. In
addition, during the course of our audit we were apprised of several
attempted electronic break-ins to the VNS, which contains personally
identifiable information (PII) from federal crime victims throughout the
world. After discussing these security issues with EOUSA officials, we
determined that the sensitive nature of this information (names, contact
information, some social security numbers), as well as the possible
consequences of failing adequately to protect it, warranted a more in-depth
review of the VNS’s information security. Therefore, the OIG contracted
with outside auditors, Urbach, Kahn, & Werlin, LLP (UKW), to conduct an
independent assessment in accordance with the Government Accountability
Office’s (GAO) Generally Accepted Government Auditing Standards. 43, 44

Objectives, Scope, and Methodology of Review

      We conducted an independent assessment to evaluate whether the
VNS was properly configured to prevent unauthorized use, access, and data
modification from sensitive and potentially vulnerable access points. We
also determined whether information security control weaknesses exist
surrounding the VNS’s web interface; as well as to identify weaknesses

       43
           In this section of our report, “we” and “our” refer to the auditors working under
the direction of the OIG.
       44
          The OIG regularly contracts with independent auditing firms to fulfill its
responsibilities under the Federal Information Security Management Act.

                                     51
                         REDACTED FOR PUBLIC RELEASE
                           REDACTED FOR PUBLIC RELEASE


   associated with data collection, transmission, data storage, and PII. Further,
   we assessed the VNS’s compliance with applicable federal information
   security policies and procedures for DOJ and EOUSA.

         We performed a vulnerability assessment of the information security
   configuration of the VNS and tested web application security controls for the
   VIS. In order to identify whether the VNS complied with DOJ and federal
   privacy and information security policies, we performed interviews, on-site
   observations, and reviews of information security-related documents.

   Overview of Information Security Controls Review Results

        We concluded that the following information security control
   weaknesses exist within the VNS:


 Information Security Control Areas                        Function

                                        To prevent unauthorized and unintended
Systems and Communications Protection   information transfer via shared system
                                        resources.
                                        To verify the identity of users when accessing
Identification and Authentication
                                        the system.

Website Privacy                         To protect data collection and PII.

                                        To determine the adequacy of security
                                        measures, identify security deficiencies,
                                        provide data from which to extrapolate the
VNS Vulnerability Assessment            effectiveness of proposed security measures,
                                        and confirm the adequacy of such measures
                                        after implementation.

                                        To identify issues related to vulnerabilities and
Web Application Controls
                                        risks associated with web applications.


          We concluded that these deficiencies exist because EOUSA did not
   always fully develop, enforce, or formalize information technology (IT)
   security and privacy policies and procedures in accordance with current DOJ
   policies and procedures. We considered these weaknesses a moderate risk
   to the protection of the VNS and its data from unauthorized use, disclosure,
   loss, or modification in accordance with Federal Information Processing




                                       52
                           REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


Standards (FIPS) Publication (PUB) 199. 45 Specific details regarding findings
identified during this review are discussed within the following sections.

Systems and Communications Protection Controls

      The purpose of systems and communications protection controls is to
prevent unauthorized and unintended information transfer between systems
that share the same resources. We tested 12 control areas and identified
weaknesses in transmission integrity and data validation.

       Transmission Integrity and Data Validation

      Transmission integrity and data validation are controls used to check
for completeness and accuracy of data entered into a system. To ensure the
integrity of transmitted data and its validation, encryption should be used for
the transmission of interfacing data files.

      The Department’s Information Technology Security (ITS) standards
require that checksums, hash totals, and record counts be used by
applications to verify data integrity. 46 Components are strongly encouraged
to have an automated means of detecting both intentional and unintentional
modifications of data. Further, the Department’s ITS standards require that
communication channels are protected using FIPS-approved encryption
modules.

      We reviewed the transmission integrity and data validation
documentation for five entities that transmit data into the VNS. Four were
Department components – the FBI, the BOP, USAOs, and the Criminal
Division. The fifth was the USPIS.

      Although EOUSA is presently encrypting the transmission of data files
received from the USAOs, the DOJ Criminal Division, and the USPIS, this is

       45
           The FIPS PUB 199, Standards for Security Categorization of Federal Information
and Information Systems is required to be used by federal agencies to categorize all
information and information systems collected or maintained by or on behalf of each agency
based on the objectives of providing appropriate levels of information security according to
a range of risk levels. The three levels of risk – low, moderate, and high – identify the
potential impact on organizations or individuals should there be a breach of security. The
FIPS PUB 199 defines the potential impact as moderate if the loss of confidentiality,
integrity, or availability could be expected to have a serious adverse effect on organizational
operations, organizational assets, or individuals.
       46
           A checksum is a type of redundancy check used to protect the integrity of data by
detecting errors. Hash totals are used as an integrity check to identify files or verify their
integrity. Record counts are used to ensure that records are not lost during transmission.

                                     53
                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


not the case for the BOP and the FBI. Moreover, we found that EOUSA did
not always perform data validations as to the completeness or accuracy of
data files received from the BOP and the FBI.

      By not encrypting the transmitted data or performing data integrity
checks, EOUSA does not have the ability to detect or prevent the alteration
of transmitted data files. EOUSA acknowledged these deficiencies and is
currently discussing the implementation of complete session encryption for
BOP and FBI data. At the time of this report, both the FBI and the BOP
stated that the necessary course of action was initiated in order to encrypt
the data transmitted to the VNS.

Identification and Authentication

       Identification and authentication controls are used to verify the
identity of users when accessing the system. For this area, our review found
a weakness in one of the six control areas tested. 47 Specifically, we found a
deficiency regarding how system security information is reported in the VNS
system security plan (SSP).

       User identification and authentication is the process of uniquely
identifying and authenticating users or devices before establishing a
connection. Identification and authentication procedures are commonly
communicated to the users in an SSP. A system security plan is designed to
provide an overview of the security requirements of the system and describe
the controls in place. SSPs are a key component of certification and
accreditation packages and are relied upon by the designated approving
authority to authorize a system’s operation.

      To maintain accreditation, the Department’s ITS standards require
each system to be reviewed annually. Further, system documentation
should be modified to include any new security controls if they have been
added post-development.

      We found that the VNS system security plan had not been updated
with the correct procedural information, contact information, and the correct
process of authenticating users before establishing a network connection.
We also identified that the document contained inaccurate information. For
example, the VNS SSP states: “The VNS application will not blank the
screen but will disconnect the user from the VNS after 10 minutes of

       47
           The six control areas of identification and authentication we tested were controls
for policy and procedures, user identification and authentication, device identification and
authentication, identifier management, authenticator management, and cryptographic
module authentication.

                                    54
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


inactivity.” However, we found that the VNS application is currently set to
disconnect the user after a period of 20 minutes of inactivity.

      Without an updated SSP, the depiction of the VNS’s system security
and control environment may be inaccurate or incomplete, which means that
the individuals approving the certification and accreditation document are
doing so based upon out-of-date information.

Website Privacy

       Website privacy controls and data protection methods are enforced to
protect data collection and PII. We identified a weakness in one of the
seven control areas tested. 48 Our review revealed that the VNS’s external
linking practices failed to provide disclaimers or notifications to users when
they are about to visit a third-party website. The intent of external linking
notifications is to notify users that they will no longer be protected by the
privacy policies of the current site they are visiting once they navigate to
another website via a hyperlink.

       The Department’s Guidance for the Implementation of Office of
Management and Budget (OMB) Policies for Federal Agency Websites states
that websites should provide visitors an appropriate notification and a
disclaimer statement when the individual leaves a Department website via a
non-government link.

       Occasionally, a federal VNS user will insert a hyperlink into the VNS
that, when pursued, will send a victim using the VIS to another website that
has additional information. For example, a third-party website might have
social services information for victims. The VIS does not provide a
disclaimer notification to users when visiting these third-party websites
through a hyperlink. Without a disclaimer notification, VIS users may be
unaware that differing privacy policies are in effect.

The VNS’s VIS Web Application Controls Testing

      The testing of web application controls is designed to identify issues
related to vulnerabilities and risks associated with web applications. These
vulnerabilities often result in the loss of confidentiality, integrity, and
availability of data.



       48
          The seven control areas of website privacy we tested were relevant content,
approval of content, external linking, tracking mechanisms, persistent tracking mechanisms,
disclaimers for tracking mechanisms, and privacy policy.

                                   55
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


      We utilized commercially available software tools to evaluate the VIS’s
web application information security controls. 49 We identified the following
vulnerabilities:

       •      The VIS may allow manipulation within a web application, which
              can exploit security issues.

       •      The configuration of the VIS allows for the possibility that users
              could bypass the entry of usernames and passwords of linked
              web pages. As a result, individuals could gain access to
              unauthorized information.

       •      The application may be vulnerable to attacks that can allow
              malicious users to retrieve data or alter server settings.

       •      The VNS server configuration allowed for access to common
              default directories. Default directories often contain
              vulnerabilities that can be exploited over the web. Common
              default directories are installed during initial installation and all
              non-essential directories should be removed by the administrator
              and essential directories should be protected by authentication.

       •      The VNS uses JavaScript, a computer language used to create
              interactive websites and web applications, which has certain
              risks inherent to its use. For example, JavaScript may be able to
              scan a network, identify all web-enabled devices, and send
              attacks or commands to these devices.

       •      The potential existed for unauthorized users to access web
              server administrative interfaces. These interfaces are used by
              the website administrator to maintain the website and are
              usually not available to the public.

       •      The VNS is susceptible to exploits in which an attacker uses the
              software on a web server to access data in a directory prohibited
              for use by the attacker. Moreover, the execution of arbitrary
              commands and code by an attacker may be possible.

       49
           See Appendix XI for the full details and results of web application testing. The
test procedures were limited to the arrangements made with EOUSA, which required that
non-destructive testing be performed. In other words, our testing could identify that a
vulnerability existed, but we could not attempt to exploit that vulnerability to examine the
effect of the weakness or any possible consequence of an external exploitation of the
weakness.


                                    56
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


       The sensitive information contained within the VNS was not adequately
protected against the loss of confidentiality, integrity, and availability of
data. The vulnerabilities found in the VNS’s VIS web application controls are
significant because the system contains personally identifiable information
for federal crime victims that includes names, contact information, and some
social security numbers. Therefore, EOUSA should take necessary actions to
improve its website security to help protect the identities of victims of
federal crimes.

The VNS Vulnerability Assessment

       A vulnerability assessment is the systematic examination of an
information system that determines the adequacy of security measures,
identifies security deficiencies, provides data from which to extrapolate the
effectiveness of proposed security measures, and confirms the adequacy of
such measures after implementation.

      We performed a vulnerability assessment to identify the information
security controls implemented for the VNS environment. We reviewed the
VNS’s current information security controls to determine whether they were
implemented to adhere to the Department’s standards. We identified
vulnerabilities within the three areas described below. 50

      Unnecessary or Vulnerable Service

      System services can be used to operate computer servers or trigger
operating system functions. These services can pose serious security
threats to the system and network if they are not secured. Further,
unnecessary services should be disabled.

      During the review of VNS information security controls, we found
unnecessary or vulnerable services operating on the system. If not properly
secured or disabled, these services could be exploited to launch attacks
against the VNS infrastructure. For example, the VNS file transfer protocol
(also commonly referred to as “FTP”), designed for the transfer of files
remotely over large distances, was identified as an older version of this
protocol. This version permits passing of user identification and password as
well as session data in plain text without encryption. Allowing log-ins and
passwords to pass between client and server in plain text makes them
vulnerable to session high-jacking. Therefore, this service should be
disabled and all transfers of files be done with encryption.


      50
           See Appendix X for the full details and results of the vulnerability assessment.

                                     57
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


      Patch Management

      Patch management is the process of controlling the deployment and
maintenance of interim software releases into the system’s environment. It
is used to maintain operational efficiency and effectiveness, overcome
security vulnerabilities, and maintain the stability of the system’s
environment.

       Patches are developed by software manufacturers following the
identification of system security weaknesses that can be exploited. When
systems’ patches are not current, the risk posed by the weaknesses the
patches were created to address is increased.

      We found that EOUSA did not always apply application and server
patches in a timely manner. Several patches that had been available since
2002 and 2005 had not been applied. In essence, by not applying the
patches, EOUSA has allowed a known system vulnerability to continue to
exist. As a result, at a minimum, the VNS is susceptible to a disruption of its
operations. This disruption could be caused by a “Trojan Horse” - a
destructive program that masquerades as a benign application before it is
executed. The VNS may also be vulnerable to a buffer overflow, which
occurs when a program or process tries to store more data in a temporary
data storage area than it was intended to hold. This data can overflow into
adjacent storage areas, corrupting or overwriting the valid data held in
them.

      Network Device and Server Security

      Network device and server security refers to the management of
device settings and configurations implemented in order to secure the
system and network infrastructure.

       By not implementing security standards and best practices to protect
against common vulnerabilities, the VNS may be susceptible to unauthorized
use, access, or data modification of system configuration and password
files. Because of these vulnerabilities, VNS data that is being transmitted
across the system may be intercepted and redirected to a person who is not
authorized to receive the data. Additionally, an attacker could possibly
interfere with system operations and cause the system to become
inoperable.




                                58
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


Conclusion

       We found that the sensitive information contained in the VNS may be
susceptible to unauthorized use, access, or data modification. We identified
deficiencies with EOUSA’s implementation of systems and communications
protection controls, identification and authentication, website privacy, web
application controls, unnecessary or vulnerable system services, patch
management, and network device and server security. These deficiencies
exist because EOUSA did not always fully develop, enforce, or formalize IT
security and privacy policies and procedures in accordance with current
Department information security policies and procedures.

      Because the VNS contains personally identifiable information for
federal crime victims such as names, contact information, and some social
security numbers, EOUSA must improve its information security practices to
help ensure that the data is appropriately protected.

Recommendations

We recommend that EOUSA:

     13.   Perform data integrity checks and implement the encryption of
           data files received to ensure completion and accuracy in
           accordance with Department policy.

     14.   Update the VNS system security plan to reflect complete and
           accurate user identification and authentication security
           information as required by Department standards.

     15.   Ensure that a disclaimer notification is developed for the VIS
           application to notify users when they are about to visit a third-
           party website through a hyperlink.

     16.   Modify the VIS application to protect against common web
           attacks in accordance with the recommendations listed for the
           specific vulnerabilities in Appendix XI.

     17.   Terminate unnecessary or vulnerable services identified on the
           VNS servers.

     18.   Apply application and server patches in a timely manner.




                                59
                    REDACTED FOR PUBLIC RELEASE
              REDACTED FOR PUBLIC RELEASE


19.   Adequately secure network devices and server configurations in
      accordance with the recommendations listed for the specific
      vulnerabilities in Appendix X.




                          60
              REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


              STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the DOJ Victim Notification
System (VNS), we considered the Executive Office for U.S. Attorneys’
(EOUSA) control structure over the VNS for the purpose of determining our
audit procedures. This evaluation was not made for the purpose of providing
assurances on its internal control structure as a whole. However, we noted
certain matters involving internal controls that we consider reportable
matters under the Government Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operations of the internal control
structure that, in our judgment, could adversely affect EOUSA’s ability to
effectively oversee the VNS. We identified weaknesses in: (1) the
management of the VNS, (2) the effectiveness of the VNS, and (3) the
information security of the VNS. We discussed these issues in the Findings
and Recommendations section of the report. Because we are not expressing
an opinion on EOUSA’s internal control structure as a whole, this statement
is intended for the information and use of EOUSA’s management of the VNS.




                                61
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


               STATEMENT ON COMPLIANCE WITH
                   LAWS AND REGULATIONS

      In connection with this audit of DOJ’s Victim Notification System, as
required by Government Auditing Standards, we reviewed management
processes and records to obtain reasonable assurance about DOJ’s
compliance with laws and regulations that, if not complied with, in our
judgment, could have a material effect on the VNS. Compliance with the
laws and regulations applicable to EOUSA’s management of the VNS is the
responsibility of EOUSA.

      Our audit included examining, on a test basis, evidence about laws and
regulations. The specific laws and regulations are contained in the relevant
portions of the:

     •     Victim and Witness Protection Act of 1982, Pub. L. No. 97-291;

     •     Victims of Crime Act of 1984, Pub. L. No. 98-473, the Victims
           Compensation and Assistance Act, 42 U.S.C. § 10601 (2006),
           and Services to Victims 42 U.S.C. § 10607 (2007);

     •     Victims’ Rights and Restitution Act of 1990, 42 U.S.C. § 10606
           (2004);

     •     Violent Crime Control and Law Enforcement Act of 1994, 42
           U.S.C. § 14222 (1994);

     •     Antiterrorism and Effective Death Penalty Act of 1996, Pub. L.
           No. 104 - 132;

     •     Victim Rights Clarification Act of 1997, 18.U.S.C. § 3510 (1997);

     •     Victims of Trafficking and Violence Protection Act of 2000, Pub.
           L. No. 106 – 386; and

     •     Justice for All Act of 2004, Public Law 108-405.

      Our audit did not identify areas where EOUSA was not in compliance
with the laws and regulations referred to above. With respect to areas that
were not tested, nothing came to our attention that caused us to believe
that EOUSA management was not in compliance with the laws and
regulations cited above.



                                62
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                                   APPENDIX I
           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of this audit were to determine if:

      (1) EOUSA has effectively managed the VNS, including overseeing the
contractors, ensuring the accuracy of data in the system, and planning for
the future;

      (2) The VNS is an effective tool for victims of crime; and

     (3) The VNS was properly secured to prevent unauthorized use,
access, and data modification.

Scope and Methodology

      To accomplish our audit objectives, we conducted more than
50 interviews with agencies that are directly involved with the VNS, including
headquarters officials from EOUSA, the DOJ Criminal Division, the FBI, the
BOP, the USPIS, and the OVC. We also spoke with headquarters officials
from those agencies that do not directly participate in the VNS, such as the
Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF); the Drug
Enforcement Administration (DEA); the U.S. Marshals Service (USMS); the
Administrative Office of the U.S. Courts (AOUSC); the Bureau of Immigration
and Customs Enforcement (ICE); and the U.S. Secret Service (USSS) to
determine their knowledge of the VNS and whether they had been contacted
about participating in the VNS. Additionally, we interviewed the contractor
(AT&T Government Solutions) who manages the system, as well as the sub-
contractor (Appriss) who manages the Call Center/Help Desk and back-up
servers. We also reviewed internal documents, such as planning materials,
contracts, manuals, internal directives and policies, and financial reports
from EOUSA, the DOJ Criminal Division, the FBI, the BOP, the USPIS, and
the OVC. Moreover, we obtained and analyzed empirical data from the VNS
and used this information to develop descriptive statistics on the number
and types of victims in the system.

       We conducted fieldwork in Chicago and Lisle, Illinois; Lexington and
Louisville, Kentucky; Kansas City and Leavenworth, Kansas; and Kansas
City, Missouri, where we interviewed field personnel. Specifically, at these
locations we spoke with senior management and staff who utilized the VNS
at the local USAO, BOP, and FBI offices, and reviewed reports and files
applicable to our review. In general, the scope of our audit covered the
period of FYs 1998 through 2007.

                                63
                    REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                            APPENDIX I
       Related to our first objective, we performed a limited review of the
services provided by the contractor and sub-contractor – including Call
Center operations, discussed the entry of information into the VNS with
federal VNS users, reviewed data in the VNS and spoke with federal VNS
users to determine if information in the system was accurate, and
interviewed non-participating agencies to determine if outreach was
performed and if the agencies were interested in participating in the VNS.
To determine if the VNS is an effective tool for victims, we designed and
deployed two surveys: (1) one to victims who were active in the system,
and (2) another to victims who were no longer active in the system. 51 We
selected stratified, statistical samples of victims, to which we sent the
surveys. 52 We also reviewed other surveys conducted by EOUSA and the
BOP, and conducted our own testing of the VNS website through use of a
test victim account.

      To accomplish our third objective, we utilized a private auditing firm,
with experience in conducting IT audits, to perform an information security
review of the VNS. Specifically, the OIG engaged Urbach, Kahn, & Werlin,
LLP (UKW) to conduct an independent assessment to determine whether
VNS information security and privacy policies comply with government
standards and established best practices. To identify whether the VNS
complied with DOJ and federal privacy and information security policies,
UKW performed interviews, on-site observations, and reviews of information
security-related documents.

Prior Reviews

       The OIG has not performed any prior reviews of DOJ’s Victim
Notification System. In July 2003, the Government Accountability Office
(GAO) reviewed whether EOUSA had institutionalized key information
technology (IT) management capabilities that are critical to achieving DOJ’s
strategic goal of improving the integrity, security, and efficiency of its
IT systems. The report identified the VNS as one of EOUSA’s systems. The
GAO report recommended EOUSA: (1) designate institutionalization of each
of the IT management disciplines as priorities, and (2) develop and
implement action plans in each of the four IT disciplines to address the
weaknesses that were identified in its report. EOUSA agreed with the
majority of the GAO’s findings and recommendations and stated that it
would address most of the recommendations. EOUSA also stated that it has

       51
            Copies of both of our surveys can be found in Appendices V and VI.
       52
         Due to the technical nature of the work, details of the surveys’ complete scope
and methodology can be found in Appendices VII and VIII.


                                     64
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX I
made notable progress in institutionalizing the IT management disciplines,
particularly information security, and that each was an office priority.




                                65
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                                 APPENDIX II

       LAWS, REGULATIONS, AND MANDATES ENACTED
                 FOR VICTIMS OF CRIME

Victim and Witness Protection Act of 1982

       The VWPA was enacted to: (1) enhance and protect the necessary
role of crime victims and witnesses in the criminal justice process,
(2) ensure that the federal government does all that is possible within limits
of available resources to assist victims and witnesses of crime without
infringing on the constitutional rights of defendants, and (3) provide a model
for legislation for state and local governments.

Victims of Crime Act of 1984, the Victims Compensation and
Assistance Act, and Services to Victims

       The Victims of Crime Act of 1984 (VOCA), established the Crime
Victims Fund (Fund). The Fund consists of: (1) most fines collected from
persons convicted of offenses against the United States; (2) penalty
assessments collected under section 3013 of Title 18; (3) proceeds of
forfeitures (appearance bonds, bail bonds, and collateral) under section
3146 of Title 18; (4) any money ordered to be paid into the Fund under
section 3671 (c)(2) of Title 18; and (5) authorized gifts, bequests, or
donations to the Fund from private entities or individuals. The money from
this fund was initially to be used for state and local programs for victims of
crime. Amended in 1988, the VOCA also legislatively created the Office for
Victims of Crime (OVC) within the Office of Justice Programs (OJP). The
VOCA was reauthorized and amended in 2005.

       In the first session of the 105th Congress, the Fund received a
$21 million repayment. Congress authorized these dollars for hiring
victim/witness coordinators in the U.S. Attorney’s offices; establishing an
automated victim information and notification system for federal cases; and
collecting, enforcing, and processing restitution orders.




                                 66
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                            APPENDIX II

       The VOCA also requires responsible officials to identify victims. 53 At
the earliest opportunity after the detection of a crime at which it may be
done without interfering with an investigation, a responsible official shall:
(1) identify the victim or victims of a crime; (2) inform the victims of their
right to receive services (described below) on request; and (3) inform each
victim of the name, title, and business address and telephone number of the
responsible official to whom the victim should address a request for each of
the services. Description of services provided under the VOCA are:

(1)    A responsible official shall inform a victim: (A) of the place where the
       victim may receive emergency medical and social services; (B) of any
       restitution or other relief to which the victim may be entitled under
       this or any other law and in a manner in which such relief may be
       obtained; (C) of public and private programs that are available to
       provide counseling, treatment, and other support to the victim; and
       (D) of assistance in contacting the persons who are responsible for
       providing the services and relief.

(2)    A responsible official shall arrange for a victim to receive reasonable
       protection from a suspected offender and persons acting in concert
       with or at the behest of the suspected offender.

(3)    During the investigation and prosecution of a crime, a responsible
       official shall provide a victim the earliest possible notice of: (A) the
       status of the investigation of the crime, to the extent it is appropriate
       to inform the victim and to the extent that it will not interfere with the
       investigation; (B) the arrest of a suspected offender; (C) the filing of
       charges against a suspected offender; (D) the scheduling of each court
       proceeding that the witness is either required to attend or, under
       section 10606 (b)(4) of this title, is entitled to attend; (E) the release
       or detention status of an offender or suspected offender; (F) the
       acceptance of a plea of guilty or nolo contendere or the rendering of a
       verdict after trial; and (G) the sentence imposed on an offender,
       including the date on which the offender will be eligible for parole.



       53
            The term “victim” means a person that has suffered direct physical, emotional, or
pecuniary harm as a result of the commission of a crime. This includes an institutional
entity where there is an authorized representative for the entity. And, in cases where a
victim is under 18 years of age, incompetent, incapacitated or deceased, there is another
preferred person designated on the victim’s behalf (e.g., spouse, legal guardian, parent, a
child, a sibling, another family member or another person designated by the court).
42 U.S.C. § 10607 (2007).


                                    67
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                                 APPENDIX II

(4)   During court proceedings, a responsible official shall ensure that a
      victim is provided a waiting area removed from and out of the sight
      and hearing of the defendant and defense witnesses.

(5)   After trial, a responsible official shall provide a victim the earliest
      possible notice of: (A) the scheduling of a parole hearing for the
      offender; (B) the escape, work release, furlough, or any other form of
      release from custody of the offender; and (C) the death of the
      offender, if the offender dies while in custody.

(6)   At all times, a responsible official shall ensure that any property of a
      victim that is being held for evidentiary purposes be maintained in
      good condition and returned to the victim as soon as it is no longer
      needed for evidentiary purposes.

(7)   The Attorney General or the head of another department or agency
      that conducts an investigation of a sexual assault shall pay, either
      directly or by reimbursement of payment by the victim, the cost of a
      physical examination of the victim, which an investigating officer
      determines was necessary or useful for evidentiary purposes.

(8)   A responsible official shall provide the victim with general information
      regarding the corrections process, including information about work
      release, furlough, probation, and eligibility for each.

Victims’ Rights and Restitution Act of 1990

       The Crime Control Act of 1990 further directed responsible government
officials to provide victims with general information regarding the corrections
process, including information about work release, furlough, and probation.
Title IV of the Victims Rights and Restitution Act of 1990 requires all federal
law enforcement agencies to make their best efforts to accord victims of
crime with the right to: (1) be treated with fairness and respect for the
victim's dignity and privacy; (2) be protected against their accused
offenders; (3) be notified of court proceedings; (4) attend public court
proceedings related to the offense under certain conditions; (5) confer with
the government attorney assigned to the case; (6) receive restitution; and
(7) receive information about the conviction, sentencing, imprisonment, and
release of the offender. The Act also directs federal law enforcement agency
heads to designate the persons required by this Act to identify and provide
certain services to the victims of a crime, such as informing victims about
where to receive medical care, counseling, and police protection, and about
developments during the investigation and prosecution of the crime and

                                 68
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                                 APPENDIX II

after the trial (such as the arrest of a suspected offender or an escape of a
convicted offender). It also directs that a responsible official provide the
victim with general information regarding the corrections process, including
information about work release, furlough, and probation. This Act was
repealed in 2004 and replaced with the Justice for All Act of 2004.

Violent Crime Control and Law Enforcement Act of 1994

       The Violent Crime Control and Law Enforcement Act of 1994 mandated
that: (1) law should provide for a victim's right of allocation at a sentencing
hearing and at any parole hearing if the offender has been convicted of a
crime of violence or sexual abuse; (2) such a victim should have an
opportunity equivalent to that accorded to the offender's counsel to address
the sentencing court or parole board and to present information in relation
to that sentence imposed or to the early release of the offender; and (3) if
the victim is unable or chooses not to testify at a sentencing or parole
hearing, the victim's parents, legal guardian, or family members should have
the right to address the court or board. It also established mandatory
restitution for victims of four categories of crime: (1) domestic violence,
(2) sexual assault, (3) the exploitation and abuse of children, and
(4) telemarketing fraud.

Antiterrorism and Effective Death Penalty Act of 1996

      The Antiterrorism and Effective Death Penalty Act of 1996 expanded
mandatory restitution to virtually all crimes committed in violation of Title 18
of the United States Code.

Victim Rights Clarification Act of 1997

       The Victims Rights Clarification Act of 1997 gives victims the right to
attend a trial even though they may testify during the sentencing portion of
the trial.

The Victims of Trafficking and Violence Protection Act of 2000

     The Victims of Trafficking and Violence Protection Act of 2000 protects
immigrant victims of domestic violence, human trafficking, and other crimes
from deportation in certain cases.




                                 69
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                               APPENDIX II

The Justice for All Act of 2004

      The 2004 Justice for All Act expanded and recodified the victims’ bill of
rights and gave victims standing to enforce those rights. 54 The JFAA
updated victims' rights to include: (1) the right to be reasonably protected
from the accused; (2) the right to reasonable, accurate, and timely notice of
any public court proceeding, or any parole proceeding, involving the crime or
of any release or escape of the accused; (3) the right not to be excluded
from any such public court proceeding, unless the court, after receiving clear
and convincing evidence, determines that testimony by the victim would be
materially altered if the victim heard other testimony at that proceeding;
(4) the right to be reasonably heard at any public proceeding in the district
court involving release, plea, sentencing, or any parole proceeding; (5) the
reasonable right to confer with the attorney for the government in the case;
(6) the right to full and timely restitution as provided in law; (7) the right to
proceedings free from unreasonable delay; and (8) the right to be treated
with fairness and with respect for the victim's dignity and privacy.

       The JFAA also created the following requirements for government
agencies’ best efforts to accord victims' rights: (1) government officers and
employees of DOJ and other departments and agencies of the United States
engaged in the detection, investigation, or prosecution of crime shall make
their best efforts to see that crime victims are notified of, and accorded, the
rights; (2) the prosecutor shall advise the crime victim that he or she can
seek the advice of an attorney with respect to the rights; and (3) notice of
release otherwise required pursuant to this chapter shall not be given if such
notice may endanger the safety of any person.

     The JFAA authorized appropriation funding through VOCA for
enhancement of the VNS from 2006-2009.

The Attorney General Guidelines for Victim Witness Assistance
(1995, 2000 and 2005)

      The purpose of the AG Guidelines was to establish guidelines to be
followed by officers and employees of DOJ investigative, prosecutorial, and
correctional agencies in the treatment of victims and witnesses to crime.

     In the VWPA, Congress instructed the Attorney General to develop and
implement guidelines for DOJ consistent with the purposes of the Act.
Congress set forth the objectives of the guidelines, which include the
       54
           The list of rights, commonly referred to as the “victims’ bill of rights” is now
codified at 18 U.S.C. § 3771 (2004).

                                     70
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX II

provision of services to victims; notification about protection, services, and
major case events; consultation with the government attorney; a separate
waiting area at court; the return of property; notification of employers; and
training for law enforcement and others. Congress also instructed the
Attorney General to assure that all federal law enforcement agencies outside
of DOJ adopt guidelines consistent with the purposes of the VWPA.

       In conformance with the congressional directive, the Attorney General
promulgated the AG Guidelines, which have been revised to incorporate new
legislative provisions. In 2000, the AG Guidelines were revised to include
the Violent Crime Control and Law Enforcement Act of 1994; the
Antiterrorism and Effective Death Penalty Act of 1996; and the Clarification
Act of 1997. In 2005, the AG Guidelines were revised to include the Victims
of Trafficking and Violence Protection Act of 2000 and the Justice for All Act
of 2004.




                                71
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX III

                          FUNDING THE VNS

      The Victims Compensation and Assistance Act (Pub. L. No. 98-473), as
amended through the 1984 Victims of Crime Act (VOCA), 42 U.S.C.§ 10601
(2006), established a monetary account known as the Crime Victims Fund
(Fund). It contains money derived not from tax dollars, but from fines and
penalties that federal criminal offenders must pay as part of their sentences.
The largest source of deposits in the Fund comes from criminal fines.

      The VOCA established the Office for Victims of Crime (OVC) within
DOJ’s Office of Justice Programs (OJP). It authorized the Director of the
OVC to administer funding to state and federal agencies for their victim
assistance and compensation programs through the Fund.

       In 1997, the OVC allocated $8 million to support the development of
an automated victim information and notification system for the federal
justice system. That same year, $21 million was returned to the Fund and
made available to the OVC to improve services to crime victims in the
federal criminal justice system. Congress authorized the establishment of an
automated victim information and notification system for federal cases
through this funding.

      The OVC and EOUSA entered into an Inter-Agency Agreement in
June 1998 whereby funds were made available through the Fund for the
establishment of an automated notification system and to pay for an
assessment analysis. EOUSA spearheaded the project, with the assistance
from a working group comprised of representatives from the FBI, the OVC,
and the BOP.

        The VNS working group hired an outside consulting agency to analyze
each component’s requirements for an automated system, review current
available systems that might be expanded to meet the specific needs of the
initiative, and develop the system. The analysis was completed
January 1999 and the system was deployed in 2001.

      The cost of the notification system was estimated to be $8 million and
by FY 2000 that amount was transferred from the OVC to EOUSA in
reimbursable agreements. Specifically, $559,121 was transferred to EOUSA
in FY 1998 for requirement analysis; $193,764 was added to VNS
funding for salary, benefit, and travel costs for the VNS Program Manager in
FY 1999; and approximately $7.2 million was added for the deployment of
the system in FY 2000. The expected outcome of this system was to
develop an automated victims’ information database and a means to provide

                                72
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                                APPENDIX III

timely victim notification of the current status of offenders in the federal
criminal justice system.

      The Justice for All Act of 2004 (Pub. L. No. 108-405) authorized
appropriations of $2 million for FY 2005 and $5 million in each fiscal year
from 2006 through 2009 to the OVC for enhancement of the VNS. Review of
the Reimbursable Agreements between the OVC and EOUSA indicate the
actual funding approved each year starting in FY 1998, as displayed in the
following table.


                  Reimbursable Agreements between
                     the OVC and EOUSA for the VNS
                  Fiscal Year                  Amount
                         1998                 $559,122
                         1999                 $193,765
                         2000               $7,199,096
                         2001                       $0
                         2002               $5,000,000
                         2003               $5,141,843
                         2004               $5,141,843
                         2005               $4,960,000
                         2006               $5,334,928
                         2007               $5,000,000
                        Total             $38,530,597
               Source: EOUSA Reimbursable Agreements




                                 73
                     REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX IV

                    TYPES OF NOTIFICATIONS

         NOTIFICATION EVENT                        DESCRIPTION
                                 FBI/USPIS
                                      Initial registrant notification from an
1    Initial (Investigative Agency)
                                      investigative agency
2    Under Investigation              Case is under investigation
3    Arrest                           An anonymous arrest has been made
4    Declination of Prosecution       Declination of prosecution
                                      Other notification from an
5    Other (Investigative Agency)
                                      Investigative agency
     Advice of Victim Rights          Advice of victim rights for an
6
     (Investigative)                  investigative case
7    Investigation Closed             Case not prosecuted
                         USAO/CRIMINAL DIVISION
                                      Advice of victim rights for a USAO
8    Advice of Victim Rights (USAO)
                                      case
9    Appeal                           Appeal
                                      The outcome of an appeal by a
10   Appeal Outcome
                                      subject
11   Arraignment                      Arraignment hearing
12   Arraignment Canceled             Arraignment hearing canceled
                                      An arrest has been made on a
13   Arrest (USAO)
                                      particular subject
14   Bail/Detention Hearing           Bail or detention hearing
     Bail/Detention Hearing
15                                    Bail or detention hearing canceled
     Canceled
                                      Registrant accepted into CCTV
16   CCTV Accepted
                                      program
17   CCTV Initial                     Initial CCTV notification
18   CCTV Other                       Other CCTV notification
                                      Registrant rejected from CCTV
19   CCTV Rejected
                                      program
20   CCTV Scheduled                   CCTV event scheduled
                                      The subject has changed his / her
21   Change of Plea
                                      plea
22   Change of Plea Canceled          Change of plea canceled
23   Charges Dismissed                Dismissal of charges
     Charges Filed (includes Victim   Charges filed against a subject on a
24
     Rights)                          docket
                                      A hearing to determine the
25   Competency Hearing
                                      competency of the defendant

                               74
                   REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE
                                                             APPENDIX IV

        NOTIFICATION EVENT                       DESCRIPTION
26   Competency Hearing Canceled      Competency hearing canceled
27   Criminal Default Hearing         Collection Hearing 4
     Criminal Default Hearing
28                                    Collection Hearing 4 canceled
     Canceled
29   Death during Trial               Death during trial
                                      Outcome of sentencing for a juvenile
30   Delinquent/Sentencing
                                      subject
31   Directed Verdict                 Directed verdict
32   First Appearance                 First (or initial) appearance
33   First Appearance Canceled        First appearance canceled
34   Guilty Plea                      Guilty plea
                                      The trial has ended due to a hung
35   Hung Jury
                                      jury
                                      Initial registrant notification from
36   Initial (USAO)
                                      USAO
                                      Form returned by victim for juvenile
37   Juvenile Form
                                      subject
                                      A hearing for status of defendants
38   Mental Treatment Hearing
                                      found not guilty by reason of insanity
     Mental Treatment Hearing
39                                    Mental treatment hearing canceled
     Canceled
40   Mistrial                         The trial has ended due to a mistrial
                                      A hearing to consider an appeal filed
41   Oral Argument Appeal Hearing
                                      in the criminal case.
     Oral Argument Appeal Hearing     Oral argument appeal hearing
42
     Canceled                         canceled
43   Other Hearing                    Other hearing
44   Other (USAO)                     Other notification from USAO
45   Other Canceled                   Other hearing canceled
46   Plea of Nolo Contendere          Plea of Nolo Contendere
                                      A hearing after plea / verdict before
47   Post Trial Hearing               sentencing to cover any issues other
                                      than sentencing
48   Post Trial Hearing Canceled      Post trial hearing canceled
49   Preliminary Hearing              Preliminary hearing
50   Preliminary Hearing Canceled     Preliminary hearing canceled
                                      A hearing to cover pre-sentencing
51   Pre-Sentence Hearing
                                      issues
52   Pre-Sentence Hearing Canceled    Pre-sentence hearing canceled
     Pretrial Diversion - Dismissal   Subject successfully completed
53
     for                              pretrial diversion program

                                  75
                      REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                            APPENDIX IV

        NOTIFICATION EVENT                      DESCRIPTION
                                     Subject entered pretrial diversion
54   Pretrial Diversion - Enter
                                     program
55   Pretrial Motions Hearing        A hearing to consider pretrial motions
     Pretrial Motions Hearing
56                                   Pretrial motions hearing canceled
     Canceled
                                     Charges against a subject have been
57   Proposed Dismissal of Charges
                                     proposed dismissed
                                     Proposed plea agreement for a
58   Proposed Plea Agreement
                                     defendant
59   Release                         General release
60   Re-sentencing Hearing           Re-sentencing hearing
     Re-sentencing Hearing
61                                   Re-sentencing hearing canceled
     Canceled
62   Restitution                     A victim has been awarded restitution
63   Restitution Discovery Hearing   Collection Hearing 2
     Restitution Discovery Hearing
64                                   Collection Hearing 2 canceled
     Canceled
     Restitution Enforcement
65                                   Collection Hearing 1
     Hearing
     Restitution Enforcement
66                                   Collection Hearing 1 canceled
     Hearing Canceled
     Restitution Payment Schedule
67                                   Collection Hearing 3
     Hearing
     Restitution Payment Schedule
68                                   Collection Hearing 3 canceled
     Hearing Canceled
     Restitution Re-sentencing
69                                   Collection Hearing 5
     Hearing
     Restitution Re-sentencing
70                                   Collection Hearing 5 canceled
     Hearing Canceled
     Revoke/Modify Probation         A hearing to revoke or modify the
71
     Hearing                         conditions of probation.
     Revoke/Modify Probation         Revoke or modify probation hearing
72
     Hearing Canceled                canceled
                                     A hearing to revoke or modify
     Revoke/Modify Supervised
73                                   supervised release as a result of
     Release Hearing
                                     violations of release.
     Revoke/Modify Supervised        Revoke or modify supervised release
74
     Release Hearing Canceled        hearing canceled
                                     Case is being transferred to another
75   Rule 20 Transfer Notice
                                     district



                                76
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                                APPENDIX IV

        NOTIFICATION EVENT                          DESCRIPTION
     Rule 35 Sentence Reduction         A hearing to reduce the defendant’s
76
     Hearing                            sentence
     Rule 35 Sentence Reduction         Rule 35 sentence reduction hearing
77
     Hearing Canceled                   canceled
78   Sentencing                         Sentencing hearing
79   Sentencing Canceled                Sentencing hearing canceled
80   Sentencing Outcome                 Outcome of sentencing hearing
                                        A hearing to determine the current
81   Status Hearing
                                        status of the case
82   Status Hearing Canceled            Status hearing canceled
83   Subject Detained                   A subject has been detained
     Suppress Evidence/Return           A hearing to suppress evidence or
84
     Property Hearing                   return seized property
     Suppress Evidence/Return           Suppress evidence or return seized
85
     Property Hearing Canceled          property hearing canceled
86   Trial (Bench) Verdict (Guilty)     Bench trial verdict (guilty)
     Trial (Bench) Verdict (Not
87                                      Bench trial verdict (not guilty)
     Guilty)
88   Trial Date                         Trial date
89   Trial Date Canceled                Trial date canceled
     Pretrial Diversion -               Subject was unsuccessful in the
90
     Unsuccessful                       Pretrial Diversion program
                                        Delinquent verdict for juvenile
91   Verdict (Delinquent)
                                        subject
92   Verdict (Guilty)                   Guilty verdict
                                        Not delinquent verdict for juvenile
93   Verdict (Not Delinquent)
                                        subject
94   Verdict (Not Guilty)               Not guilty verdict
     Verdict Not Guilty Reason of
95                                      Verdict reason of insanity (court)
     Insanity (Court)
     Verdict Not Guilty Reason of
96                                      Verdict reason of insanity (jury)
     Insanity (Jury)
                                        Request for comments on subject's
97   Victim Impact Statement
                                        impact to victim
                                      BOP
98   Initial Designation                Initial designation
                                        Escape while incarcerated in a BOP
99   Escape while Incarcerated
                                        facility
100 Release to Halfway House            Release to halfway house
101 Parole Hearing                      Parole hearing
102 Release to Street                   Release to street from BOP

                                77
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX IV

         NOTIFICATION EVENT                         DESCRIPTION
                                       Transferred/re-designated to another
103 Re-designation
                                       BOP location
104 Release on Furlough                Release on furlough
                                       Released to street from BOP before
105 Pre-sentenced to Street
                                       release date
106 Death                              Death of inmate while in BOP
                                       Initial registrant notification from
107 Initial (BOP)
                                       BOP
108   Other (BOP)                      Other notification from BOP
109   Apprehension After Escape        Inmate apprehended after escaping
110   Parole Hearing Record Review     Inmate parole hearing record review
111   Sentence Reduction               Inmate sentence reduction
                                       Court dismissed charges on its own
112 Court Dismissed Case
                                       initiative
                                       Inmate considered for compassionate
113 Compassionate Release
                                       release
                                       Inmate sentenced to state prison
114 State Concurrency (Victim)
                                       term
                                       Inmate sentenced to state prison
115 State Concurrency (State)
                                       term
116 U.S. Military Clemency Hearing     U.S. military clemency hearing
                                       Subject has violated supervised
117 Supervised Release Violator
                                       release
118 Immediate Release to Street        Release inmate to street immediately
    Conditional Release (Mental
119                                    Conditional release (mental health)
    Health)
                                     ALL
                                       Victim opted-out after federal
120 No Longer a Victim                 government determined legal
                                       definition of victim not met




                                78
                    REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                                APPENDIX V

                  OFFICE OF THE INSPECTOR GENERAL
                           OPT-IN SURVEY

GENERAL INFORMATION

The Department of Justice developed the Victim Notification System (VNS) to provide important
information to victims. Our records indicate that you are or were a victim of a federal crime (or
an alternate contact for a victim) and that you are currently participating in the VNS. Please
take a few moments to answer the questions that apply to your situation. Your responses will
help improve the VNS.

1.     Did you receive an Initial Notification Letter from a federal agency informing you about
       the Victim Notification System? This letter included your registrant identification and
       pin numbers.
       [Check (√) one that applies.]

              Yes
              No
              I do not recall


2.     When was the last time you received a notification or when did you last access the VNS
       website?
       [Fill in or check (√) one that applies.]

       
                        (month/year)
              I do not recall.
              I have not received any notification from the VNS.


3.     Please indicate all forms of communication you receive regarding the Victim Notification
       System: [Check (√) all that apply.]

              E-mail
              Fax
              Letter (U.S. Mail)
              Pager
              Telephone
              TDD (hearing impaired)
              Website
              None




                                      79
                          REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                                 APPENDIX V

4.     Which language did you request for your notifications?

              English
              Spanish
              Other
              Did not specify language


       4a.     Did you receive your notifications in the language you requested?

                     Yes
                     No


CUSTODY STATUS AND RESTITUTION

The Victims of Crime Act and Justice for All Act include the rights to be reasonably protected
from the accused and to full and timely restitution as provided by the law.

5.     How important is it for you to know the custody status (incarcerated or not incarcerated)
       of the defendant(s)/inmate(s) in your case? [Check (√) one that applies.]

              Extremely important
              Very important
              Important
              Not important
              Not important at all (Go to Question #8.)


6.     Are you currently aware of the custody status of the defendant(s)/inmate(s) in your case
       (out on bail, detained, escaped, died, case dismissed, released, etc.)? [Check (√) one that
       applies.]

              Yes
              No


7.     Do you know how to find the custody status of the defendant(s)/inmate(s) in your case?
       [Check (√) one that applies.]

              Yes
              No (Go to Question #8.)




                                     80
                         REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE
                                                                                APPENDIX V

     7a.    If yes, have you called any of the following entities regarding custody status of
            the defendant(s)/inmate(s) in your case? [Check (√) all that apply.]

                   Investigative Agency (FBI/USPIS)
                   U.S. Attorneys Office
                   VNS Call Center
                   Other
                   I have not called any of the above entities


     7b.    How satisfied were you with the assistance you received regarding custody status
            of the defendant(s)/inmate(s) in your case? [Check (√) one that applies.]

                   Extremely satisfied
                   Very satisfied
                   Satisfied
                   Dissatisfied
                   Very dissatisfied
                   Extremely dissatisfied – if dissatisfied, please explain why in the space
                    below.


8.   Are you a victim of a crime that involves restitution? [Check (√) one that applies.]

           Yes
           No (Go to Question #10.)


     8a.      If yes, have you called any of the following entities for assistance regarding
     restitution?
              [Check (√) all that apply.]

                   Investigative Agency (FBI/USPIS)
                   U.S. Attorneys Office
                   VNS Call Center
                   Other
                   I have not called any of the above entities.




                                   81
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                                APPENDIX V

     8b.    How satisfied were you with the assistance you received regarding restitution?
            [Check (√) one that applies.]

                    Extremely satisfied
                    Very satisfied
                    Satisfied
                    Dissatisfied
                    Very dissatisfied
                    Extremely dissatisfied – if dissatisfied, please explain why in the space
            below.


9.   Have you accessed the VNS website for information regarding restitution?
     [Check (√) one that applies.]

           Yes
           No
           Do Not Recall


     9a.    If yes, how satisfied were you with the restitution information you received?

                    Extremely satisfied
                    Very satisfied
                    Satisfied
                    Dissatisfied
                    Very dissatisfied
                    Extremely dissatisfied – if dissatisfied, please explain why in the space
            below.




                                    82
                        REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                                  APPENDIX V

WRITTEN, VERBAL, AND WEBSITE NOTIFICATIONS

The DOJ Victim Notification System is based on a victim’s right to reasonable, accurate, and
timely notice of any public court or any parole proceeding involving the crime; or of any release
or escape of the accused. The following questions relate to the different forms of notification
(written, verbal, and website) by which victims in the VNS are notified .

The following questions relate to written notifications via the U.S mail, e-mail, fax, and
information posted on the VNS website.

10.    How easy is it for you to understand the information in the notifications?
       [Check (√) one that applies.]

              Very easy to understand
              Easy to understand
              Understandable
              Difficult to understand
              Very difficult to understand
              Extremely difficult to understand


11.    Has there been conflicting information in any of the notifications you received?
       [Check (√) one that applies.]

              Yes
              No (Go to Question #12.)


       11a.    If yes, did you report the conflicting information to the federal agency that sent
               you the notification(s)? [Check (√) one that applies.]

                      Yes
                      No (Go to Question #12.)


       11b.    If yes, did the agency resolve the conflict(s)? [Check (√) one that applies.]

                      Yes
                      No




                                      83
                          REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                               APPENDIX V

12.   Have you ever found incorrect information in any notifications that you have received?
      [Check (√) one that applies.]

            Yes
            No (Go to Question #13.)
            I do not know (Go to Question #13.)


      12a.   If yes, did you report the incorrect information to the federal agency that sent you
             the notification? [Check (√) one that applies.]

                    Yes
                    No (Go to Question #13.)


      12b.   If yes, did the agency correct the incorrect information? [Check (√) one that
             applies.]

                    Yes
                    No


13.   In your opinion, do you agree or disagree that you have been notified of all events (such
      as public court proceedings) involving your case? [Check (√) one that applies.]

            Strongly agree
            Agree
            Neutral
            Disagree
            Strongly disagree
            I do not know.


14.   Do you agree or disagree that you received timely notices well before the events?
      [Check (√) one that applies.]

            Strongly agree (Notices were received well before the events.) (Go to Question
             #15.)
            Agree (Go to Question #15.)
            Neutral (Go to Question #15.)
            Disagree
            Strongly disagree (Notices were not received well before the events.)




                                    84
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                               APPENDIX V

      14a.   If notices were not timely, how often did you receive late notifications?
             [Check (√) one that applies.]

                    1-3 times
                    4-6 times
                    7-9 times
                    10 times or more


      14b.   If notices were not timely, did you ever miss an event you wanted to attend
             because of a late notification? [Check (√) one that applies.]

                    Yes
                    No (Go to Question #15.)


      14c.   If yes, how many events did you miss? [Check (√) one that applies.]

                    1-3 events
                    4-6 events
                    7-9 events
                    10 events or more


15.   Did you participate in any event (for example, attend, speak, or submit a victim impact
      statement) after receiving a notification? [Check (√) one that applies]

            Yes
            No
            Not applicable


16.   Were you ever not able to attend an event because the notification was unclear or
      contained conflicting information? [Check (√) one that applies]

            Yes
            No
            Not applicable




                                    85
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                               APPENDIX V

17.    Overall, how useful was the information provided to you in the notification(s)?
       [Check (√) one that applies.]

             Very useful
             Useful
             Neutral
             Not useful
             Not at all useful


The following questions pertain to the VNS Internet Website.

18.    Have you ever accessed the VNS website to review your case information?
       [Check (√) one that applies.]

             Yes
             No (Go to Question #30.)


19.    How easy or hard was the process to set up your VNS website account?
       [Check (√) one that applies.]

             Very easy
             Somewhat easy
             Neither hard nor easy
             Somewhat hard
             Very hard


20.    How easy or hard is it to navigate or find information within the VNS website?
       [Check (√) one that applies.]

             Very easy
             Somewhat easy
             Neither hard nor easy
             Somewhat hard
             Very hard




                                     86
                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                                APPENDIX V

21.   How often have you accessed the VNS website for information? [Check (√) one that
      applies.]

            Every day
            Weekly
            Monthly
            Quarterly
            Annually
            I have not accessed the website since I set up my account.


22.   How easy was it for you to understand the information on the website?
      [Check (√) one that applies.]

            Very easy to understand
            Easy to understand
            Neither easy or difficult to understand
            Difficult to understand
            Very difficult to understand


23.   Did you find all the information you wanted on the website? [Check (√) one that
      applies.]

            Found all information
            Found almost all information
            Found some information
            Found little information
            Did not find information


24.   Was there conflicting information on the website? [Check (√) one that applies.]

            Yes
            No (Go to Question #25.)


      24a.   If yes, did you report the conflicting information to any of the following entities?
             [Check (√) all that apply.]

                   Investigative agency
                   U.S. Attorneys Office
                   VNS Call Center
                   Other



                                    87
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                                APPENDIX V

                   I did not report the conflicting information.
                    (Go to Question #25.)


      24b.   Were information conflicts resolved? [Check (√) one that applies.]

                   Yes
                   No


25.   Have you ever come across incorrect information in the website? [Check (√) one that
      applies.]

            Yes
            No (Go to Question #26.)
            I do not know (Go to Question #26.)


      25a.   If yes, did you report the incorrect information to any of the following entities?
             [Check (√) all that apply.]

                   Investigative agency
                   U.S. Attorneys Office
                   VNS Call Center
                   Other
                   I did not report the incorrect information.


      25b.   Was the incorrect information corrected? [Check (√) one that applies.]

                   Yes
                   No


26.   In your opinion, do you agree or disagree that notice of event(s) was posted on the VNS
      website in a timely manner? [Check (√) one that applies.]

            Strongly agree (Go to Question #27.)
            Agree (Go to Question #27.)
            Neutral (Go to Question #27.)
            Disagree
            Strongly disagree




                                    88
                        REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                                APPENDIX V

       26a.    If you disagree, did you miss an event because the information was posted too
       late?
               [Check (√) one that applies.]

                     Yes
                     No


        26b.   How often have you noticed late posting(s) on the website? [Check (√) one that
applies.]

                     1-3 times
                     4-6 times
                     7-9 times
                     10 times or more


27.    Have you participated in any event (for example, attend, speak, or submit a victim impact
       statement) after reviewing VNS website information? [Check (√) one that applies]

              Yes
              No


28.    Overall, how useful is the information provided to you on the website?
       [Check (√) one that applies.]

              Very useful
              Useful
              Neutral
              Not useful
              Not at all useful


29.    If any, what information would you like to see added to the website?
       (Please print your answer below.)




                                      89
                          REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                               APPENDIX V

CALL CENTER – AUTOMATED INFORMATION AND LIVE ASSISTANCE

The following questions relate to the VNS Call Center, which provides victims with automated
information and/or live assistance with their case, or live assistance with the VNS website.

30.     Have you called the toll-free number to get Call Center assistance? [Check (√) one that
applies.]

             Yes
             No (Go to Question #46.)
             I do not recall (Go to Question #46.)


       30a.   If yes, what type of assistance did you receive from the Call Center?
              [Check (√) all that apply.]

                     Automated Assistance
                     Live Assistance
                     Both


31.    Have you ever contacted the Call Center and hung up for any of the following reason(s)?
       [Check (√) all that apply.]

             It took too long to get help.
             There were too many instructions to follow.
             The automated call system was too difficult to use.
             Other (please describe)


Please answer Questions #32-37 only if you have used the Call Center’s automated system for
case information; otherwise go to Question #38.

32.    How often have you used the automated system? [Check (√) one that applies.]

             Often
             Sometimes
             Rarely
             Never (Go to Question #38.)




                                     90
                         REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE
                                                                             APPENDIX V

33.   How would you rate the automated system availability when you called?
      [Check (√) one that applies.]

            Always available
            Often available
            Sometimes available
            Rarely available
            Never available


34.   How easy is it to access information through the automated system?
      [Check (√) one that applies.]

            Very easy
            Easy
            Somewhat easy
            Not easy
            Not easy at all


35.   Is the information easy to hear on the automated system? [Check (√) one that applies.]

            Yes
            No


36.   Did you receive the information you wanted from the automated system?
      [Check (√) one that applies.]

            Always received the information
            Often received the information
            Sometimes received the information
            Rarely received the information
            Never received the information


37.   What additional information would you like made available from the Call Center’s
      automated system for case information? Please print your answer below.




                                   91
                       REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                              APPENDIX V

Answer Questions #38-41 only if you used live assistance for case information; otherwise go to
Question #42.

38.    How often have you used live assistance from the Call Center? [Check (√) one that
       applies.]

             Often
             Sometimes
             Rarely
             Never (Go to Question #42.)


39.    How would you rate the live assistance availability when you called?
       [Check (√) one that applies.]

             Always available
             Often available
             Sometimes available
             Rarely available
             Never available


40.    Did you receive the information you wanted? [Check (√) one that applies.]

             Always received the information
             Often received the information
             Sometimes received the information
             Rarely received the information
             Never received the information


41.    What additional information would you like made available from the Call Center’s live
       assistance for case information? Please print your answer below.


Answer Questions #42-45 only if you used the Call Center for VNS website assistance; otherwise
go to Question #46.

42.    Have you ever contacted the Call Center for VNS website assistance?
       [Check (√) one that applies.]

             Yes
             No (Go to Question #45.)




                                     92
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                               APPENDIX V

43.    For which of the following did you need VNS website assistance? [Check (√) all that
       apply.]

             Victim Identification Number (VIN)
             Personal Identification Number (PIN)
             VNS website access
             Other VNS website questions (Please print your answer below.)


44.    Did you receive the information about the VNS website you wanted from the Call Center
       live assistance? [Check (√) one that applies.]

             Always received the information
             Often received the information
             Sometimes received the information
             Rarely received the information
             Never received the information


45.    What additional information would you like made available from the Call Center for
       VNS website assistance?
       Please print your answer below.


YOUR OPINION COUNTS

Your opinion is very important to help improve the Victim Notification System. Please answer
the following questions about your experiences with the services and information provided by the
VNS. Please print your answers in the space provided below each question.

46.    What are the most beneficial services provided by the VNS?


47.    What improvements would you like to see made to the VNS?


48.    What additional information in the VNS would be useful to you?


Thank you for taking the time to complete the survey. Your participation is greatly appreciated
and will help to improve the Department of Justice Victim Notification System.




                                     93
                         REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                                APPENDIX VI



                   OFFICE OF THE INSPECTOR GENERAL
                           OPT-OUT SURVEY

The U.S. Department of Justice developed the Victim Notification System (VNS) to provide
important information to victims. Our records indicate that you are or were a victim of a federal
crime (or an alternate contact for a victim), but that you are currently not receiving notifications
from the VNS. Please take a moment to answer the questions that apply to your situation.

1.     Did you receive an Initial Notification Letter from a federal agency informing you about
       the Victim Notification System that included your registrant identification number and
       pin number?
       [Check (√) one that applies.]

              Yes
              No
              Do not recall


2.     Did you choose not to receive notification from the Victim Notification System?
       [Check (√) one that applies.]

              Yes
              No (Go to question #3a.)
              Do not recall (Go to Question #3a.)


       2a.     If yes, what was your reason for choosing not to receive notification from the
               Victim Notification System?

                      Please print your answer below.

                      I do not recall the reason given.

3.     If it was not your choice to stop receiving notification, were you informed by a federal
       agency that you would no longer receive notification? [Check (√) one that applies.]

              Yes
              No (Go to question #4.)




                                      94
                          REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                               APPENDIX VI

       3a.    If yes, what was the reason given? [Check (√) one that applies.]

                     Please print your answer below.

                     I do not recall the reason given. (Go to question #4.)

       3b.    Was the reason given by the federal government agency to your satisfaction?

                     I was satisfied.

                     I was dissatisfied. (Please print your explanation below.)


4.     Do you have any additional comments about the Victim Notification System?
       [Please print your comments below.]


Thank you for taking the time to complete the survey. Your participation is greatly appreciated
and will help our review of the Victim Notification System.




                                     95
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VII
                     OPT-IN SURVEY
        SCOPE, METHODOLOGY, AND RESPONSE REVIEW

       This appendix describes the approach employed to extract the
universe of victims to whom notifications were generated by the VNS during
the scope of our review. From this universe, a sample of registrant
identification numbers was selected and a questionnaire was sent to the
sampled victims. Accordingly, the descriptions of the sample selection
process and the survey response review are included in this appendix. Our
objective was to determine whether the VNS served its intended purpose
and satisfied victims’ expectations.

Scope

       The scope of our universe consisted of opt-in victims with approved
notification information between October 1, 2004, and September 30, 2006.
“Opt-in” is the status of a registered victim or contact allowing them to
receive notifications and access the VNS phone line and Internet web page.

Methodology

     To determine the number of victims registered in the VNS, we
requested specific data fields contained in the VNS database between
October 1, 2004, and September 30, 2006. We obtained the data to select a
sample of victims for our survey deployment.

       The VNS creates a unique registrant identification number (Registrant
ID) to identify a victim. The Registrant ID data field was used as the anchor
data field in the universe extraction process. We requested data for each
notification phase (investigative, prosecution, and incarceration) using the
Registrant ID as the primary key for opt-in victims. We requested case
information, such as the investigative case number, notification event, USAO
agency name, USMS inmate number, custody status; and victim information,
such as city, state, and country.

Data Organization and Sample Selection

      We identified records associated to the opt-in victims and requested
the databases from EOUSA. We constructed the opt-in victim universe from
the received data download. We uploaded the databases to summarize the
data in order to compile the information and link tables to create a universe
from which we could select the sample. There were a total of 621,276
registrant IDs we identified that were at least in 1 of the 3 phases during the

                                96
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VII
scope of our audit. We then removed 4,000 registrant IDs that had
previously been surveyed by EOUSA to arrive at our final universe of
618,201 unique sample units. We also created a sub-set of
52,166 registrant IDs from the universe using the incarceration phase’s
“Notification Event Types” field with events that were related to the release
of inmates.

       We separated the universe into two categories for U.S. and non-U.S.
Registrant IDs using the victim information fields, state, and country. We
then stratified the universe of unique Registrant IDs and the incarceration
phase release-related events sub-set. We then created nine strata through
various grouping of the three phases and the incarceration release-related
events using the U.S. Registrant IDs to group them. The tenth stratum
included the Registrant IDs with non-U.S. addresses and those with no
address information identified. The sample selection process included the
sample sizes for each of the 10 strata that were statistically calculated. The
total population size was 618,203 Registrant IDs, and the sample size was
2,783.

Survey Response Review

      We received a total of 691 surveys mailed back to us by the recipients.
We found that some respondents completed the survey, answered only
some of the questions, or included a comment without completing the
survey. As a result, we reviewed the data to eliminate surveys that did not
contain useful information. Upon closer review of the data, we found
records of surveys that did not have responses to all the questions in the
survey. We identified and excluded those records with non-responses and
arrived at a data set of 531 records. We used the data in these 531 records
for analysis using the SPSS software package.

Conclusion

      Of the total 618,201 unique VNS Registrant ID numbers opted into the
system from October 1, 2004, through September 30, 2006, which were
suitable for our survey deployment, our sample size was 2,783. We
received a total of 691 surveys, of which 531 were considered to have useful
responses.




                                97
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VIII

                         OPT-OUT SURVEY
                     SCOPE AND METHODOLOGY

      The following methodology was employed for data analysis and used
to obtain a functional universe for sample selection purposes. The
techniques in this analysis include, but were not limited to, exploratory
analysis, comparative analysis, and descriptive analysis. We describe the
results of the analysis at different phases, reasons for the analysis, and the
sample methodology.

      In the database of 347,716 opted-out records, there were a total of
71,179 unique VNS Registrant IDs. In order to understand the reasons for
opt out, we examined the data and we found four different types of data
values and blanks in the field “OPT-OUT REASON” to include invalid address,
user choice, contact choice, no longer a victim, and blank fields.

      We excluded the 52,029 VNS IDs that were associated with “Invalid
Address” and 6,025 records that had no information in both the city and
state columns of the database. The final universe of opt-out victims
contained 13,125 records (opt-out victims) and only included records that
had enough information for sample selection purposes.

       In order to obtain a better response rate and useful responses to the
questions, we used a stratified sampling plan. The universe of
13,125 unique Registrant IDs was stratified considering the combination of
the number of notifications and the values in the “OPT-OUT REASON” field
for a total of 489 sample Registrant IDs selected.

Opt-out Survey Response Analysis

      There were 58 respondents who responded to the opt-out survey.
There were 14 respondents who did not respond to all or most of the
questions in the survey. The responses from these 14 respondents were
excluded from further analysis. A frequency table of the remaining
44 responses was saved and used for logical tests analyses.




                                 98
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX IX



                OPT-IN SURVEY QUESTION 41

What additional information would you like made available from the Call
Center’s live assistance for case information?

    No.                               Comment
    1.    Called once.
    2.    Someone who can translate in Navajo- Navajo legal terminology.
    3.    Information about restitution.
    4.    Plain and simply how to access live assistance. Couldn't figure
          out how to get live assistance.
    5.    Would like phone interview and additional space.
    6.    Respond right away if anybody call in emergency case.
    7.    The Call Center is hindered by minimal information details that
          are not readily available.
    8.    Survey person discuss what VNS was about.
    9.    Don't Know.
    10.   Why was information sent to me. I only called to get an
          explanation of how my name was selected.
    11.   Status of restitution- where' my money and when will I get it.
    12.   N/A
    13.   I am not qualified to answer this.
    14.   Is my case or status needed?
    15.   Is the criminal in prison? Can we expect restitution of our stolen
          money?
    16.   How to log into my online account. Someone was supposed to
          send me new info in the mail. I've now been waiting almost one
          year for it!
    17.   XXXXX XXXXX was on vacation.
    18.   None




                                99
                    REDACTED FOR PUBLIC RELEASE
                REDACTED FOR PUBLIC RELEASE
                                                          APPENDIX IX


No.                               Comment
19.   More detailed information and awareness of the operators. They
      were uneducated to fully answer my questions.
20.   None
21.   I would like to know more information on how my case is going.
      I have heard nothing since April, 2006.
22.   Update on the investigation!
23.   Please have me informed what's going on.
24.   I made the initial call in response to a bomb threat. I do not
      know any information after the initial report.
25.   Actual Assistance
26.   Time frame on our money.
27.   Updated, current info in custody??
28.   Want system to work.
29.   Can't think of anything.




                            100
                REDACTED FOR PUBLIC RELEASE
    REDACTED FOR PUBLIC RELEASE
                                  APPENDIX X

 THE VICTIM NOTIFICATION SYSTEM’S
VULNERABILITY ASSESSMENT RESULTS



 [SENSITIVE INFORMATION REDACTED]




                101
    REDACTED FOR PUBLIC RELEASE
    REDACTED FOR PUBLIC RELEASE
                                  APPENDIX XI
 THE VICTIM INTERNET SYSTEM’S
WEB APPLICATION TESTING RESULTS



 [SENSITIVE INFORMATION REDACTED]




                102
    REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                    APPENDIX XII
 EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS
                   RESPONSE


                      U.S. Department of Justice

                      Executive Office for United States Attorneys


Office of Legal Programs and Policy             Suite 7600, Bicentennial Building       (202) 616-6444
                                                600 E Street, NW                    FAX (202) 616-6647
                                                Washington, D.C. 20530-0001




                                                January 17, 2008

MEMORANDUM

TO:              Raymond J. Beaudet
                 Assistant Inspector General for Audit
                 Office of the Inspector General


                       /s/
FROM:            Kenneth E. Melson
                 Director

SUBJECT:         Response to OIG Report on the Department’s
                 Victim Notification System

       Thank you for the opportunity to review the Department of
Justice, Office of the Inspector General’s (OIG) draft audit report
entitled, “The Department of Justice’s Victim Notification System.” The
Executive Office for United States Attorneys (EOUSA) is proud of what
it has accomplished with the Victim Notification System (VNS) since its
implementation in January 2002. Since that time, 31,891,296
notification events have been provided to over one million victims of
federal crimes. The VNS is the most robust system in the country for
providing notification to victims of crime, far surpassing any other
system in its complexity and the number of notifications sent. It also
is the only system which we are aware of that by default opts-in all
victims of crimes. Without the system, the United States Attorneys’
Offices (USAO) would not be capable of meeting the requirements of
the Crime Victims Rights Act to provide victims with notification of all
public court proceedings. EOUSA concurs with most of the

                                     103
                         REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                        APPENDIX XII
recommendations resulting from this review and provides its response
below.

      Providing notifications to victims requires the cooperation of
many organizations beyond EOUSA and we will work with the USAOs,
other Department components, and the other government agencies to
resolve and implement solutions to the OIG’s findings. EOUSA expects
the full cooperation of all the parties mentioned in working to continue
to improve our ability to provide notifications of public court
proceedings to victims of crime and will take all appropriate steps to
help achieve compliance with OIG’s recommendations.

       VNS provides notifications worldwide to victims of every
background and experience, regarding an immense array of crimes
and types of proceedings. It is necessarily broad and simple in its
delivery. Its role is not to provide victims with all information they
may want, or to inform victims about the system itself. That role is
best handled by individuals who know the facts of the case and can
thoroughly explain the situation to a victim. The role of VNS is to
assist the Department with its provision of statutorily-mandated victim
notifications. EOUSA will continue to seek to improve VNS to ensure
that notifications are accurate and timely; however, VNS cannot
replace the human interaction by USAO personnel with victims to
provide them with additional information concerning their cases.

      Documentation detailing EOUSA’s efforts to implement the action
plan will be provided to the OIG until all corrective actions are taken.

ACTION PLAN

Recommendation 1: Develop a written plan to: (1) archive VNS
data, which should include a schedule for the initial archiving,
parameters for subsequent archiving, and the criteria it will
utilize to determine the records ready for archiving; or (2)
acquire new equipment that will resolve the capacity issue.

Response to Recommendation 1: Regarding the archiving of data,
the OIG found “. . . because data in the VNS has never been archived,
storage space on the VNS server has been filled to almost 80 percent
of its capacity, affecting both data access speed and performance of
the System.” Archival of data was included as a contract requirement
in order to lessen the impact on system performance. However,
EOUSA would note that despite the decline in performance resulting
from the capacity issues, the System continued to operate within the

                             104
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                        APPENDIX XII
parameters of the contract as evidenced by the monthly performance
reports.

During the period covered by the OIG report new equipment was
acquired by EOUSA and the installation of that equipment was
completed on October 20, 2007. Funding for this equipment was
provided in part from the annual OVC grant for VNS ($284,640) and
from funds provided by EOUSA ($116,960). The replacement of the
old equipment has alleviated the storage space issues for the projected
life span of the new equipment and negates the necessity for archiving
data. The next VNS contract has been tasked with addressing the
issue of data archival in light of the decreasing cost of on-line data
storage and the significant technology advances in this area.

Recommendation 2: Ensure that it is utilizing the newer
version of the Tracker software, called Front Range, to allow
for a more user-friendly data extraction and reporting function.
Further, ensure that Front Range's feature that automatically
e-mails the caller upon the closing of a ticket has been enabled
and is being utilized to the fullest extent.

Response to Recommendation 2: As part of the Call Center/Help
Desk procedure contacts by victims and government users of the
System with the contractor staff are logged and notes of the substance
of the contact are maintained. The software used by the contractor for
this purpose was Tracker. As noted in the Report on page 13, Tracker
was replaced with Front Range on July 5, 2007.

EOUSA does plan to implement the email feature available within Front
Range to survey individuals upon the closing of a “ticket” regarding
customer satisfaction with the Help Desk. This feature is expected to
be implemented in a future release to VNS.

Recommendation 3: Develop a universal interface for federal
investigative agencies to upload data directly to the VNS.

Response to Recommendation 3: EOUSA has considered the
universal interface one of several priorities since we conceived the idea
almost three years ago. However, the enactment of the CVRA in 2004
has forced EOUSA to adopt many changes in VNS to accommodate
that new law. As noted in the OIG report, funding for VNS actually
declined since FY 2004. However, EOUSA accomplished the required
changes to implement the CVRA within the declining allocation
provided by OVC. Absent those demands on the VNS budget, the

                             105
                 REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE
                                                         APPENDIX XII
universal interface would likely have been implemented. EOUSA does
plan to proceed with the universal interface when adequate funds are
made available by OVC.

Recommendation 4: Work with the AOUSC to develop the
hardware to connect the VNS and the AOUSC, develop a plan to
connect individual federal court districts to the VNS using this
interface, and endeavor to ensure that all federal districts are
connected to the VNS.

Response to Recommendation 4: EOUSA and AOUSC have agreed
to develop the ability to connect individual district courts to VNS. That
technical development is underway and the projected completion date
is late March 2008. Approximately 94 percent of this project was
funded by EOUSA; a minimal amount was funded from the OVC annual
grant to EOUSA for VNS. (Total expenditure $726,078, OVC funded
$46,038.)

As part of the project with AOUSC, EOUSA intends to develop a plan to
promote the connection of the individual district Courts to VNS. We
believe this plan will ultimately result in the majority of U.S. District
Courts participating in the VNS. However, absent Congressional
action, the Department of Justice as part of the Executive Branch of
the government will not be able to “ensure” the Courts, as part of the
Judicial Branch, connect to VNS.

It must be noted that while EOUSA was able to provide funding for
VNS this one fiscal year, we will not be able to continue to supplement
funding for VNS in the future and must rely on sufficient funds being
provided by OVC to continue with the operation, maintenance and
enhancements for this System.

Recommendation 5: Work with VNS-participating agencies to
develop and implement procedures for federal VNS users to
ensure that victims’ contact information is current and
updated.

Response to Recommendation 5: EOUSA agrees that it is essential
that VNS contain current and accurate victim-contact information so
that victims receive timely notification of court events. EOUSA also
notes that frequently, it is difficult to obtain up-to-date victim contact
information during the course of a criminal investigation. For example,
in large-victim cases, often the only source of victim contact
information is from a defendant’s files, and this information can be

                              106
                  REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                       APPENDIX XII
incomplete or inaccurate. In addition, victims often will move without
informing investigators of their new addresses. In spite of these
inherent difficulties, EOUSA will work with VNS-participating agencies
to develop and implement additional procedures to ensure that victim
contact information is as up-to-date and accurate as possible.

Recommendation 6: Develop long-range plans for the VNS and
its management that include: (1) future software and hardware
upgrades, (2) replacement of outdated equipment, (3)
expansion of VNS server storage capacity, (4) a projection of
enhancements needed to account for the future needs of
government and victim users, and (5) a formal succession plan
for VNS project management.

Response to Recommendation 6: (1) Future hardware and
software upgrades are currently being addressed by the next VNS
contract which is scheduled for award in 2008. That agreement will
require the contractor to provide a plan for periodic replacement of
VNS hardware and/or software; (2) the “outdated” equipment referred
to in the Report was replaced on October 20, 2007; (3) Server storage
capacity was resolved with the October 20, 2007 equipment
replacement. Future storage issues will be part of the contract life
cycle plans incorporated in the next VNS contract (see Response to
Recommendation #1) ; (4) Regarding a plan for future enhancements,
in early September 2007, EOUSA held a conference for USAO
victim/witness staff members at the National Advocacy Center in
Columbia, South Carolina. During that conference approximately 67
staff members representing offices from across the country attended a
session dedicated to soliciting ideas for improving VNS and long range
needs for users and victims. Those ideas will be used in conjunction
with the next VNS contract to plan for the future. The new contract
will contain provisions for the contractor to evaluate the current
technology and to provide proposals for improvements to the System.
However, any such long range plans for future needs are subject to
sufficient funds, beyond the static allotment which has been furnished
to EOUSA for this program since 2002, being made available from
OVC; (5) EOUSA is responsible for maintaining several of the
Department’s largest systems including LIONS, CDCS, and USA-5.
Program managers have changed a number of times for these systems
and others, so EOUSA does not believe there is reason for concern that
there is no written succession plan for the program manager of VNS;
however, EOUSA will provide the OIG with a written plan in the near
future.


                             107
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                         APPENDIX XII
Recommendation 7: Work with VNS-participating agencies to
develop and implement a nationwide procedure for addressing
undeliverable correspondence and e-mail.

Response to Recommendation 7: Regarding undeliverable email
notices, the use of email as a notification method has increased
significantly since FY05 due to an engineering change implemented in
early FY06. (Successful emails: FY05 - 34,358; FY06 - 598,073; FY07
868,857. Successful means VNS generated and transmitted the email
notice.) EOUSA has recognized the need to address the undeliverable
email issues, however, the need to devote the limited amount of VNS
funding to CVRA related issues has impacted our ability to resolve this
matter. The new VNS contract will require a technical solution to this
issue; however the technical change cannot be made until sufficient
funding is made available.

Regarding undeliverable correspondence, EOUSA does encourage
USAOs to make their best efforts to follow up on returned mail to
obtain more accurate addresses. Further, it must be acknowledged
that it is the responsibility of investigative agencies to ensure that
accurate addresses are initially entered into VNS. However,
recognizing the importance of ensuring that victims receive
notifications, EOUSA will work with other agencies to develop a
nationwide policy regarding returned mail.

Recommendation 8: Improve the Call Center automated
assistance to allow callers to reach an operator at any point
during a call.

Response to Recommendation 8: The current Call Center process,
which only allows access to the Help Desk by victims once the ID/PIN
is correctly entered, was engineered to provide some authentication
for the Help Desk to assist in protecting the victim’s personal
information in the System. However, we agree the System should
permit a caller to reach an operator at any point after the user ID/PIN
has been authenticated. An engineering change to allow this access
will be considered for a future release to VNS.

Recommendation 9: Follow up with the sub-contractor at the
VNS Call Center to fulfill its requirement to have a Spanish-
speaking operator available during all hours of operation.

Response to Recommendation 9: Section C.5.10(b)(4) of the VNS
contract requires: “The victim must also have the option of speaking

                             108
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                         APPENDIX XII
directly with a Call Center operator (during Call Center hours of
operation, see Section C.6) to obtain case information in either English
or Spanish.” According to the contractor, about one operator call per
month requires a fluent Spanish speaking operator. The VNS Project
Manager has discussed the requirement with the VNS contractor.
Currently, the Call Center has one fluent Spanish speaker and the
remaining staff has some Spanish speaking capability. The contractor
is aware of the requirement and is taking steps to recruit Spanish
speakers.

In the interim, we have devised a plan which will make use of a
department within Appriss which provides Spanish translations. If a
Spanish speaker is not available at the Call Center, the Call Center will
contact by telephone the Appriss translation department (located in
the same building as the VNS Call Center), establish a 3-way call and
have the Appriss division provide the translation for the Help Desk.
This is intended as temporary solution until such time as the Call
Center can hire operators fluent in Spanish.

Recommendation 10: Work with the USMS to ensure that the
accurate custody status of defendants is available to victims
utilizing VNS services.

Response to Recommendation 10: In September 2007, EOUSA
funded the cost of the engineering changes which will allow VNS to
accept custody status data directly from the USMS. EOUSA has been
in contact with USMS regarding this interface between the two
systems, and plans to have VNS ready to accept data from USMS by
March 2008. Once implemented, the data from USMS will provide VNS
and victims with the current custody status of the defendant while
their case is being litigated.

Recommendation 11: Ensure that information regarding
restitution is consistent throughout the VIS so that it is clear to
victims whether restitution information is available to them.

Response to Recommendation 11: EOUSA will undertake
additional review of VIS regarding the consistency of the information
provided regarding the availability of restitution.

Recommendation 12: Work with VNS-participating agencies to
develop a requirement for federal VNS users to record a reason
for opting a victim out of the VNS.


                             109
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                        APPENDIX XII
Response to Recommendation 12: EOUSA will request an
engineering change to VNS which will require users to select one of the
opt-out reasons when electing to stop notifications from being
provided to a registered victim. This change will need to be carried
over to various screens and reports in VNS involving the opt-out
function. When sufficient funding is made available this change will be
implemented.

Recommendation 13: Perform data integrity checks and
implement the encryption of data files received to ensure
completion and accuracy in accordance with Department policy.

Response to Recommendation 13: The EOUSA notes that all VNS
data files are validated for format as part of the VNS import process;
any incomplete or malformed files are rejected, thereby reducing the
risk to system integrity and availability. Partial session encryption,
rather than complete session encryption, is utilized for data transfers
from the FBI and BOP; thereby providing partial rather than complete
assurance of data integrity. The EOUSA VNS Program Management
office is currently testing complete session encryption with the FBI,
BOP, and the Justice Management Division (Rockville Data Center).

Recommendation 14: Update the VNS system security plan to
reflect complete and accurate user identification and
authentication security information as required by Department
standards.

Response to Recommendation 14: The EOUSA has updated the
System Security Plan as appropriate, including revision of user
identification and authentication implementation.

Recommendation 15: Ensure that a disclaimer notification is
developed for the VIS application to notify users when they are
about to visit a third party website through a hyperlink.

Response to Recommendation 15: The VNS Program Management
office will implement a disclaimer statement for VIS.

Recommendation 16: Modify the VIS application to protect
against common web attacks in accordance with the
recommendations listed for the specific vulnerabilities in
Appendix XI.



                             110
                 REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE
                                                          APPENDIX XII
Response to Recommendation 16: The EOUSA will assess VIS
application with a leading commercial web application vulnerability
assessment utility and implement corrective actions as appropriate.
The EOUSA will explicitly test for the vulnerabilities listed in Appendix
XI.

Recommendation 17: Terminate unnecessary or vulnerable
services identified on the VNS servers.

Response to Recommendation 17: The EOUSA has completed
actions to terminate unnecessary services on the VNS servers.

Recommendation 18: Apply application and server patches in a
timely manner.

Response to Recommendation 18: The EOUSA Enterprise
Vulnerability Management Program (EVMP) scans and assesses VNS
networks and systems for vulnerabilities on a regular periodic basis
(each month) and also on an irregular ad hoc basis. Application and
server patches are analyzed, risks weighed, and finally resolved to
either be corrected or accepted as risk. Due to technical and business
considerations, not all patches are applied. In accordance with the
DOJ IT Security Program Management Plan, the EOUSA will continue to
resolve vulnerabilities in a timely manner. Patches selected for
implementation will continue to be applied in accordance with
documented VNS configuration management processes.

Recommendation 19: Adequately secure network devices and
server configurations in accordance with the recommendations
listed for the specific vulnerabilities in Appendix X.

Response to Recommendation 19: The EOUSA continues to assess
VNS infrastructure on a regular periodic basis with the DOJ standard
assessment utility in accordance with the DOJ IT Security Program
Plan. Several vulnerabilities listed in Appendix X have been corrected.
Others have been confirmed as false positives. The EOUSA will
continuously monitor and assess VNS for vulnerabilities and implement
corrective actions as appropriate to maintain an acceptable level of
risk.

     Thank you again for the opportunity to provide comments to the
Report.



                              111
                  REDACTED FOR PUBLIC RELEASE
                REDACTED FOR PUBLIC RELEASE
                                                      APPENDIX XIII
 OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
         SUMMARY OF ACTIONS NECESSARY
              TO CLOSE THE REPORT

      In its response to our draft audit report, EOUSA concurred with
our recommendations. This appendix provides our analyses of EOUSA’s
responses, including the actions needed to close each recommendation.

Status of Recommendations

1.   Resolved. In its response to our draft report recommendation
     to develop a written plan for archiving VNS data or acquiring
     new equipment to resolve the capacity issue, EOUSA stated that
     it installed new equipment on October 20, 2007. EOUSA stated
     that replacing the old equipment has alleviated storage space
     issues for the projected lifespan of the new equipment. EOUSA
     further stated that it would address data archiving in the next
     VNS contract.

     To close this recommendation, please provide us with a copy of
     the next VNS contract, including information regarding the
     archiving of VNS data.

2.   Resolved. In response to our recommendation to ensure that it
     utilizes the newer version of Tracker software for Call
     Center/Help Desk functions, EOUSA stated that Tracker was
     replaced with Front Range on July 5, 2007. EOUSA further
     stated that in a future release to the VNS, it plans to implement
     the Front Range e-mail function that surveys individuals upon
     the closing of a “ticket” regarding customer satisfaction with the
     Help Desk.

     To close this recommendation, please provide evidence that
     EOUSA has replaced Tracker with Front Range. Additionally,
     please provide evidence that EOUSA has implemented the Front
     Range feature for surveying individuals upon closing of a
     “ticket.”

3.   Resolved. EOUSA is in agreement with our recommendation to
     develop a universal interface for federal investigative agencies to
     upload data directly to the VNS. EOUSA stated that it plans to
     proceed with the universal interface when funding is made
     available by the OVC.

                            112
                REDACTED FOR PUBLIC RELEASE
                REDACTED FOR PUBLIC RELEASE
                                                       APPENDIX XIII


     To close this recommendation, please provide us with evidence
     that the universal interface has been developed and is being
     utilized by federal investigative agencies to upload data directly
     to the VNS.

4.   Resolved. In its response to the draft report, EOUSA advised
     that it and the Administrative Office of the U.S. Courts (AOUSC)
     have agreed to develop the ability to connect individual district
     courts to the VNS. Further, EOUSA stated that development is
     underway and the project is expected to be completed in late
     March 2008. However, EOUSA noted that it cannot ensure that
     all district courts are connected because the Courts, as part of
     the Judicial Branch, are not part of DOJ.

     To close this recommendation, please provide us, when
     available, evidence that the technical development of an
     EOUSA/AOUSC interface is complete. Further, please provide
     us, when developed, with a copy of the plan to promote the
     connection of the individual district courts to the VNS. Finally,
     once the plans are complete, please provide us with evidence of
     individual district courts that agree to be connected to the VNS.

5.   Resolved. In its response to our recommendation to work with
     VNS-participating agencies to develop and implement procedures
     for federal VNS users to ensure that victims’ contact information
     is current and updated, EOUSA agreed that it is essential that
     the VNS contain current and accurate victim-contact information.
     According to EOUSA, though, it will work with VNS-participating
     agencies to develop and implement additional procedures to
     ensure that victim contact information is as up-to-date and
     accurate as possible.

     To close this recommendation, please provide us with evidence
     of your efforts to work with VNS-participating agencies to
     develop and implement additional procedures to ensure that
     victim contact information is as up-to-date and accurate as
     possible.

6.   Resolved. EOUSA provided information, by specific area, in
     response to our recommendation to develop long-range plans for
     the VNS and its management.



                            113
                REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                      APPENDIX XIII
      To close this recommendation, please provide us with: (1) a
      copy of the next VNS contract, when available, which includes a
      plan for periodic replacement of hardware and software;
      (2) evidence of how ideas that came out of the September 2007
      meeting have been used to plan for the future; and (3) a copy of
      EOUSA’s written succession plan for VNS program management.

7.    Resolved. In its response to our draft report, EOUSA concurred
      with our recommendation to work with VNS-participating
      agencies to develop and implement a nationwide procedure for
      addressing undeliverable correspondence and e-mail.

      To close this recommendation, please provide us the portion of
      the next VNS contract, when available, containing a technical
      solution to the issue of returned e-mail notices. Additionally,
      please provide evidence of how EOUSA is working with other
      agencies to develop a nationwide policy regarding returned mail.

8.    Resolved. EOUSA agreed with our recommendation to improve
      Call Center automated assistance to allow callers to reach an
      operator at any point during a call. Further, EOUSA stated that
      an engineering change to allow this access will be considered for
      a future release to the VNS.

      To close this recommendation, please provide evidence of the
      engineering change to the VNS, which will allow callers to reach
      an operator at any point during a call to the VNS Call Center.

9.    Resolved. In its response to our recommendation to follow up
      with its contractor to fulfill its requirement to have a Spanish-
      speaking operator available during all hours of operation, EOUSA
      stated that the VNS Project Manager has discussed this issue with
      its contractor. EOUSA further advised that it has developed an
      interim plan that makes use of another department of the
      contractor that provides Spanish translations. EOUSA stated this
      is a temporary solution until additional Spanish-speaking
      operators can be hired.

      To close this recommendation, please provide us with evidence of
      the steps the contractor is taking to recruit Spanish speakers and,
      when it occurs, evidence that these employees have been hired.

10.   Resolved. EOUSA concurred with our recommendation to work
      with the United States Marshals Service (USMS) to ensure that

                             114
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                        APPENDIX XIII
      the accurate custody status of defendants is available to victims
      utilizing the VNS. Moreover, EOUSA stated that it is in contact
      with the USMS regarding this issue and plans to have VNS ready
      to accept USMS data by March 2008.

      To close this recommendation, please provide us with evidence
      that the interface between the VNS and the USMS that will allow
      the VNS to accept USMS custody status data has been developed
      and is functioning.

11.   Resolved. In its response to our draft report, EOUSA stated
      that it will review the VIS regarding the consistency of restitution
      information and availability.

      To close this recommendation, please provide evidence of
      EOUSA’s review of restitution information available in the VIS.
      This review should provide details of EOUSA’s review, including
      an examination of the consistency of the information and
      directions provided.

12.   Resolved. EOUSA concurred with our recommendation to work
      with VNS-participating agencies to develop a requirement for
      federal VNS users to record a reason for opting a victim out of the
      VNS.

      To close this recommendation, please provide us, once developed,
      with documentation of the engineering change request that will
      require users to select one of the opt-out reasons when electing to
      stop notifications to a registered victim. Additionally, please
      provide us evidence that this function has been implemented.

13.   Resolved. EOUSA concurred with our recommendation and is in
      the process of implementing data integrity checks and
      encryption procedures to ensure that transmitted data from the
      BOP and FBI are complete and accurate, as required by
      Department policy.

      To close this recommendation, please provide evidence (e.g.,
      screen shots and approved change control sheets) that data
      integrity checks and encryption of transmitted BOP and FBI data
      files are being performed for the VNS.

14.   Resolved. EOUSA concurred with our recommendation and
      stated that it has updated the VNS’s system security plan to

                             115
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                       APPENDIX XIII
      include accurate user identification and authentication security
      information.

      To close this recommendation, please provide us a copy of the
      updated system security plan.

15.   Resolved. EOUSA concurred with our recommendation and
      plans to ensure that a disclaimer notification is developed for the
      VIS application to notify users when they are about to visit a
      third-party website through a hyperlink.

      To close this recommendation, please provide evidence (such as
      screen shots and approved change control sheets) that this
      disclaimer notification has been implemented for the VIS.

16.   Resolved. EOUSA concurred with our recommendation to
      modify the VIS application to protect against common web
      attacks. EOUSA plans to assess the VIS application with a
      leading commercial web application vulnerability assessment tool
      and implement corrective actions as appropriate.

      To close this recommendation, please provide EOUSA’s VIS
      vulnerability assessment results and evidence that corrective
      actions have been implemented.

17.   Resolved. In response to our recommendation, EOUSA stated
      that is has completed actions to terminate unnecessary or
      vulnerable services identified on the VNS servers.

      To close this recommendation, please provide evidence that
      these actions have been completed.

18.   Resolved. EOUSA concurred with our recommendation and
      stated that application and server patches are applied timely.
      However, EOUSA indicated that not all patches are applied due
      to technical and business considerations. Furthermore, EOUSA
      plans to continue to apply selected patches in accordance with
      documented VNS configuration management processes.

      To close this recommendation, please provide evidence that
      application and server patches are applied in a timely manner in
      accordance with Department policies. EOUSA should ensure that
      approved waivers from the Department are maintained for those
      patches that are not applied. Additionally, the risks associated

                             116
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                        APPENDIX XIII
      with the vulnerabilities for failure to apply the patches should be
      approved and documented within the VNS’s risk assessment.

19.   Resolved. EOUSA concurred with our recommendation to
      adequately secure network devices and server configurations.
      As a result, EOUSA also plans to regularly assess the VNS’s
      infrastructure using the Department’s standard assessment tool.
      Furthermore, EOUSA indicated that some vulnerabilities listed in
      Appendix X are now identified by their officials as being false
      positive. However, EOUSA was presented with the vulnerability
      assessment results performed by our auditors during the course
      of the audit, but did not identify any of the vulnerabilities as
      being false positive.

      To close this recommendation, please provide evidence that
      EOUSA has adequately secured network devices and server
      configurations for vulnerabilities identified in Appendix X.
      EOUSA should also provide evidence of the compensating
      controls used for those vulnerabilities listed in Appendix X that
      EOUSA has recently identified as false positive.




                             117
                 REDACTED FOR PUBLIC RELEASE
